<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION
                                __________

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey     MARCY KAPTUR, Ohio
  KEN CALVERT, California                 PETER J. VISCLOSKY, Indiana 
  CHARLES J. FLEISCHMANN, Tennessee       MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska              LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas                       
  JAIME HERRERA BEUTLER, Washington
  DAVID G. VALADAO, California
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
    Committee, and Mrs. Lowey, as Ranking Minority Member of the Full
    Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants
                                __________

                                  PART 6
                                  
                           DEPARTMENT OF ENERGY

                                                                   Page
  Nuclear Regulatory Commission.........
                                                                      1
  Applied Energy Funding................
                                                                     49
  Office of Science.....................
                                                                    149
  Environmental Management..............
                                                                    213
                                __________


          Printed for the use of the Committee on Appropriations
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-729                     WASHINGTON: 2017

                             









                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey       NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas               ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                   DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                     LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                   SAM FARR, California
  TOM COLE, Oklahoma                        CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania             BARBARA LEE, California
  TOM GRAVES, Georgia                       MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                       BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                    STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                 C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee         DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington         HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                      CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California              MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                     DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                William E. Smith, Clerk and Staff Director

                                   (ii)
 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017

                              ----------                              

                                      Wednesday, February 10, 2016.

          DEPARTMENT OF ENERGY--NUCLEAR REGULATORY COMMISSION

                               WITNESSES

STEPHEN BURNS, CHAIRMAN, NUCLEAR REGULATORY COMMISSION
KRISTINE SVINICKI, COMMISSIONER, NUCLEAR REGULATORY COMMISSION
WILLIAM OSTENDORFF, COMMISSIONER, NUCLEAR REGULATORY COMMISSION
JEFF BARAN, COMMISSIONER, NUCLEAR REGULATORY COMMISSION
    Mr. Simpson. The hearing will come to order. I would like 
to thank all the subcommittees again for their hard work on the 
fiscal year 2016 omnibus bill. I look forward to working with 
you during this busy year ahead. We just had an organizational 
meeting and things are moving relatively rapidly since the 
President's budget came out yesterday.
    We are trying to get all our hearings in and try to move 
things up and go through regular order, and get individual 
bills done, which would be novel. We have not passed all of the 
individual appropriation bills and conference reports since 
1994. It would be nice to actually get things done on time.
    There are a lot of things in this world that I am uncertain 
about, but I am 85 percent sure of when October 1 comes. You 
would think we could get it done, but it is going to be a 
difficult year, and a more rapid year because we are obviously 
gone in August, and we have a couple of weeks where we are 
going to be out because of the party conventions in July.
    I appreciate you all being willing to come first thing. I 
do not know if this is the first hearing in any of the 
subcommittees or not, but it is one of the first.
    Although we just received the President's budget yesterday, 
we begin our oversight hearings today. The Appropriations 
Committee wants to move all 12 bills under regular order within 
the caps that are currently set in law, and finish our work on 
time.
    We will need to maintain an aggressive schedule in order to 
conduct the thorough oversight that is needed to ensure that 
the fiscal year 2017 energy and water appropriations bill 
provides responsible funding to the programs within its 
jurisdictions.
    Today's hearing is on the budget of the Nuclear Regulatory 
Commission. We have before us Stephen Burns, the chairman of 
the Commission, and his fellow commissioners, Kristine 
Svinicki, Bill Ostendorff, and Jeff Baran.
    Thank you all for being here today, and I would like to 
congratulate you on your leadership and the progress that has 
been made in recent months on the right-sizing of the NRC. I 
think you have done tremendous work.
    I admit that initially I questioned the NRC's commitment to 
right-sizing. I was very troubled by the letter the NRC sent to 
us during last year's budget process.
    While I am confident that had the NRC received a lower 
appropriation, you, the commissioners, would not have actually 
voted to adopt reductions that could risk safety and health 
before a more thorough review of lower priority activities was 
conducted, it was still disappointing to see a letter that 
suggested that you would.
    That having been said, since then, the NRC has taken 
important first steps toward right-sizing. I congratulate you, 
and I look forward to further discussions on continuing these 
promising efforts.
    The Commission plays an important role in ensuring that our 
nation can count on the clean and reliable energy that our 
nuclear power plants provide. The NRC must continue to assure 
the protection of public health and safety and provide a timely 
and predictable licensing process for the nuclear industry.
    In addition, we must move forward on long term waste 
storage and the Commission must be prepared to advance new and 
innovative nuclear technologies.
    I look forward to your thoughts on all of these issues. I 
would also ask the witnesses to please ensure for the hearing 
record that questions for the record and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than 4 weeks from the time you 
receive them. Members who have additional questions for the 
record will have until the close of business tomorrow to 
provide them to the subcommittee office.
    With that, I would like to welcome our ranking member, Ms. 
Kaptur, to our first hearing of the new budget season, and 
yield her any time she may use for an opening statement.
    [The information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Ms. Kaptur. Thank you, Mr. Chairman, very much, and good 
morning, Chairman Burns, and Commissioners Svinicki, 
Ostendorff, and Baran. Very happy to have you here today to 
talk about the Nuclear Regulatory Commission, and thank you for 
the work that you do.
    Nuclear energy is a critical component of our nation's 
energy mix, and as a source of electricity which does not 
contribute to climate change, it will be particularly important 
as we strive to meet the targets of the clean power plan and to 
deliver on the commitments made to reduce our carbon emissions 
at COP21 in Paris.
    As part of meeting these targets, we currently rely on an 
aging fleet of nuclear power generation facilities with an 
average age of 35 years. Many have already outlived their 
initial 40 year licenses while others are quickly approaching 
it.
    At the forefront of my mind with regards to aging nuclear 
plants is First Energy's Davis-Besse plant in my own district, 
which in December of last year received a 20 year extension of 
its license. These plants provide good, stable and high paying 
jobs in addition to reliable and cost effective electricity, so 
in regards to this, I am happy to see Davis-Besse's license 
extended.
    However, the bulk of our nuclear fleet is passing through 
this relicensing process, and I look forward to hearing about 
the steps you are taking at the NRC to ensure that communities 
in areas surrounding these plants are safe, especially as one 
in three Americans' lives lie within 50 miles of a nuclear 
power plant.
    Last year at this hearing, there was a great deal of 
discussion on the right-sizing and re-baselining of the NRC's 
budget. I understand the report detailing that effort is 
scheduled to be completed in the next couple of months, and I 
hope you will be able to comment on the progress that you have 
made to that end as well, and the impact of your findings on 
the NRC's budget.
    Finally, I would like to close by noting that yet another 
year has passed and we do not seem to be any closer to 
resolving how and even more controversially where to dispose of 
our nuclear waste.
    The current approach of maintaining high level radioactive 
waste on-site at dozens of plants distributed throughout our 
country is far from ideal, and in the absence of a real forward 
motion at Yucca Mountain or another site, our Nation has no 
long term solution to this pressing problem. In fact, I was 
asked by someone in the press yesterday about this very issue.
    In addition to $10 billion we have already spent on Yucca, 
the Department of Energy estimates that we have $27 billion of 
liabilities deriving from our failure to meet our legal 
obligation to dispose of this waste.
    Interim storage may serve as a step in the right direction, 
but we truly require a permanent strategy. The government must 
live up to its responsibilities to our nation and provide for 
the eventual safe disposal of commercially spent fuel that is 
currently stored at these sites.
    I look forward to your thoughts on how we can meet this 
obligation, and I thank you, Mr. Chairman, for yielding me this 
time.
    Mr. Simpson. Thank you. Chairman Burns, you are going to 
give the opening statement, and others will have a few minutes 
if you wish to comment on the opening statement. Is that 
correct?
    Mr. Burns. Yes.
    Mr. Simpson. Ok. The floor is yours.
    Mr. Burns. Thank you, and good morning, Mr. Chairman, 
Ranking Member Kaptur, and distinguished members of the 
subcommittee. We appreciate the opportunity to appear before 
you today to discuss the Nuclear Regulatory Commission's fiscal 
year 2017 budget request.
    As you know, the NRC is an independent agency established 
to license and regulate the civilian use of radioactive 
materials in the United States. The resources we are requesting 
in fiscal 2017 will allow the NRC to continue to uphold our 
important safety and security mission.
    Our proposed budget is $970.2 million, which includes 3,462 
full time equivalent staff, and for the Office of Inspector 
General, an additional $12.1 million. Over our base budget, 
this represents a decrease of about $20 million and 90 FTE from 
the fiscal year 2016 enacted budget.
    For further context, our request is $74 million and 280 FTE 
less than our fiscal 2014 enacted budget, and the fiscal 2017 
budget request reflects our continued focus on our important 
mission while it also achieves resource savings and improves 
our efficiency. As we continue to work through the Project Aim 
initiative, we anticipate additional savings.
    We are required to recover 90 percent of our budget through 
fees, so accordingly, $861.2 million of this fiscal 2017 budget 
request would be recovered from NRC licensees, resulting in a 
net appropriation of $121.1 million.
    Let me highlight some of the work we plan to achieve. The 
NRC will continue licensing and oversight activities for 100 
operating nuclear power reactors, and 31 research and test 
reactors.
    The NRC expects to continue reviewing three new reactor 
combined license applications. Additionally, we will continue 
inspections of four new reactor units under construction, and 
continue our vendor inspection program.
    We expect to review one small modular reactor design 
certification and to review three applications for medical 
isotope facilities.
    The budget request provides funding for licensing reviews 
and oversight activities at reactors undergoing 
decommissioning, as well as continued oversight over nuclear 
waste and spent fuel storage facilities. We expect to review 
one application for a consolidated spent fuel storage facility.
    We will continue to license and oversee the safe and secure 
use of radioactive materials, and in fiscal 2017, the NRC will 
complete approximately 2,000 materials actions, licensing 
actions, and about 900 routine health and safety inspections.
    Of note, our 2017 request includes $5 million in non-fee 
billable activities to develop regulatory infrastructure and 
related activities to effectively review advanced nuclear 
reactor applications and technologies.
    As we continue to work through Project Aim, we are 
confident the agency is on the right track. The savings have 
already been identified through a comprehensive evaluation that 
involved staff and stakeholder input, and are reflected in part 
in our fiscal year 2017 request.
    Still, we remain mindful of the importance of a highly 
skilled technical staff in carrying out our safety and security 
mission. While our size may change to reflect efficiency gains, 
the need for the service we provide the American people remains 
unchanged.
    I want to highlight one other area we are focusing on 
improvement. We are cognizant of the committee's concerns 
regarding early commissioner involvement in rulemaking, and 
have approved a new approach to do so, and will provide 
requested information to the committee later, actually, 
beginning of next month, as provided in the committee report on 
the fiscal year 2016 appropriation.
    On behalf of the Commission, I thank you for the 
opportunity to appear before you, and I know you share our 
dedication to our vital mission, and I would be pleased to 
answer your questions. Thanks very much.
    Mr. Simpson. Thank you, Mr. Chairman.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Simpson. Others? Ms. Svinicki.
    Ms. Svinicki. Thank you, Chairman Simpson, Ranking Member 
Kaptur, and distinguished members of the subcommittee for the 
opportunity to appear before you today at this hearing on the 
NRC's fiscal 2017 budget request and associated matters.
    The Commission's chairman, Stephen Burns, has outlined an 
overview of our agency's budget request, as well as a 
description of some of the key challenges and opportunities 
before the agency in this year, fiscal 2016.
    As described in the materials provided to your subcommittee 
concurrent with the budget request, the NRC has continued over 
the past year its comprehensive initiative to right-size the 
agency, streamline agency processes to use resources more 
wisely, improve timeliness in regulatory decision making, and 
promote a more unified agency purpose through agency-wide 
priority setting.
    When I appeared before your subcommittee at this time last 
year, I testified that I looked forward to reflecting progress 
on these initiatives in our future budget submittals to you. I 
believe our fiscal year 2017 budget request coupled with the 
further efficiencies that we have identified and continue to 
identify under these Project Aim initiatives demonstrates this 
progress.
    The NRC will continue to push forward on each of these 
fronts in the coming year while continuing to keep our critical 
mission of public health and safety and security always in the 
forefront.
    I appreciate the opportunity to appear and look forward to 
your questions. Thank you.
    Mr. Simpson. Thank you. Mr. Ostendorff.
    Mr. Ostendorff. Good morning, Chairman Simpson, Ranking 
Member Kaptur, and distinguished members of the subcommittee. I 
appreciate the chance to be before you today with my 
colleagues.
    I am in complete alignment with Chairman Burns' testimony 
this morning. Regarding Project Aim, I want to thank the 
subcommittee and the full committee for their support of the 
NRC's structuring our Aim reductions thoughtfully and in a 
disciplined manner.
    I am personally pleased with the thoroughness of our 
staff's work in this area. I am confident when all is said and 
done, we will be in a better place.
    Regarding NRC's work on advanced reactors, I want to 
highlight a couple of topics here. NRC submitted a report to 
Congress in 2012 talking about how we license advanced reactor 
technologies and our strategy. I believe we are preparing in a 
thoughtful way for advanced reactor technology license 
applications. Interest in the subject continues in the United 
States and overseas.
    In September of this last year, the NRC co-hosted a 
workshop with our colleagues at the Department of Energy to 
discuss the development of these new reactors, and we had a 
chance to engage our stakeholders on the new technologies.
    Our budget request includes $5 million in non-fee billable 
resources to continue this work, and to ensure the NRC is in 
the best possible position to license any such advanced reactor 
license application that may be submitted to us for our review.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    Mr. Simpson. Thank you. Mr. Baran.
    Mr. Baran. Thanks, Mr. Chairman. Chairman Simpson, Ranking 
Member Kaptur, and members of the subcommittee, thanks for the 
opportunity to appear today. It is a pleasure to be here with 
my colleagues to discuss NRC's fiscal year 2017 budget request 
and the work of the Commission.
    You have already heard a lot about Project Aim, and no 
doubt, you will hear quite a bit more before the end of the 
hearing. I want to briefly share just a few thoughts about this 
important initiative.
    I have been very impressed by the willingness of the NRC 
staff to take a hard questioning look at what work the agency 
is doing and how we are doing that work. The staff has 
identified numerous ways to achieve the substantial savings 
that are reflected in the fiscal year 2017 budget request.
    As my colleagues have noted, the Commission is currently 
reviewing a long list of additional potential efficiencies.
    This effort is about more efficiently focusing on the right 
safety priorities, not about relaxing regulatory oversight of 
licensee performance and safety. That means identifying further 
savings while remaining focused on our core mission of 
protecting public health and safety.
    As Chairman Burns noted, there has also been congressional 
interest in ensuring that non-routine NRC rulemakings are 
approved by the Commission early in the process before 
significant resources are expended. I agree with that 
objective.
    The Commission looked at this issue and decided that the 
staff should send a brief streamlined rulemaking plan to the 
Commission to get approval for each non-delegated rulemaking. 
We just need to make sure that rulemaking plans stay lean and 
do not themselves require significant staff resources to 
prepare so we can achieve our shared goal of increased 
accountability and efficiency.
    There are, of course, a number of other important efforts 
underway at NRC, from implementation of post-Fukushima safety 
enhancements, to a decommissioning reactor rulemaking, to 
preparations for the first small modular reactor design 
application expected later this year.
    We are happy to discuss these and any other issues of 
interest. Thank you, and I look forward to your questions.
    Mr. Simpson. Thank you. Again, thank you all for being 
here. I think it is important that all of you be here before 
the committee because I want the committee to get a chance to 
know you and you to know the committee. I appreciate all of you 
taking the time out of what I know is a busy schedule to come 
here.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much for yielding 
to me in this round. Chairman Burns, I wanted to ask you if you 
could report to the American people on the year of 2015, and 
the safety of nuclear power production at the 100 commercial 
reactors, and the 31 test and research reactors across our 
country.
    How would you compare what happened in 2015 to prior years 
if you were to give a weather report to the public in terms 
they can understand? How did 2015 compare to prior years?
    Mr. Burns. I think there was continued good performance 
overall within the industry. We had a couple of plants go into 
what we call Column 4, which required enhanced oversight on our 
part, the Arkansas Nuclear One and the Pilgram plant both 
operated by Entergy. We are providing an additional oversight 
on that.
    Again, apart from the operating fleet, I would note that we 
continue to inspect the construction of the four units in 
Georgia and South Carolina, and also reached a decision with 
respect to the operating license for Watts Barr Unit 2 in 
Tennessee. It has begun pre-operational testing and commercial 
operation is expected this spring.
    The other part of it, which does not sometimes get as much 
attention, is our engagement with the Agreement States. As you 
may know, 37 of the states have an agreement under the Atomic 
Energy Act, where they carry out the regulation of radioactive 
materials under rules compatible with the national standards.
    I think this is a good example of a very good Federal-state 
partnership, and we continue to engage them. We support them 
with training and communicate well with that.
    As Commissioner Ostendorff elaborated on, we have two 
issues, one looking forward is the question about--as you will 
see in the budget proposal--additional areas for engagement on 
potential advanced reactor design. We expect a new small 
modular design.
    The other issue in terms of again giving electricity 
markets cheap natural gas and all that, the question about 
continued operation of some nuclear units in those markets. We 
have indications of what I will call early shutdowns in the 
sense of before the end of the licensed life.
    We are prepared to deal with that. We have initiated a 
rulemaking to make our processes for that a little more 
efficient and effective. That will take a few years. We are 
able to engage in that and have been.
    That is sort of like a 50,000 foot level, if that answers 
your question.
    Ms. Kaptur. In 10 words or less, for 2015, what do you say 
to the American people about the safe performance of our 
nuclear plants?
    Mr. Burns. I think there was continued good performance of 
the nuclear plants in the county overall, and continued work on 
the enhancements that we identified in cooperation with 
industry after the Fukushima accident, so improving safety.
    Ms. Kaptur. I think it is really important to assure the 
American people of that safety in words that they can 
understand. I wanted to just ask a second question very 
briefly. We had testimony from some of our labs last year about 
the difficulty of recruiting people in very high-level skills. 
I would like to ask you in terms of qualified nuclear 
engineers, who are citizens of the United States as well as 
qualified technicians, nuclear technicians in the electrical 
field, for example, plumbing, pipe fitting, all the skills that 
are necessary. Do you have any specific focus on that 
recruitment issue and education issues? So we are able to 
recruit U.S. citizens for these positions? How does NRC 
position itself for that? That will be my final question on 
this round.
    Mr. Burns. The NRC has, as the Committee will know, has 
included within our appropriates for a number of years about 
$15 million grants program which we have been administering. I 
can provide the number of institution across the country for 
the record, but that provides some funding in terms of training 
programs and similar things. Not only at the engineering level, 
but I think there are some trade schools. Basically, you know, 
community colleges and other places where you can get the 
trades involved.
    I know in some of my visits, most recently, to the South 
Texas plant and the Palo Verde Plant in Arizona that it is 
interesting. You can see partnerships between the utility and 
local community colleges in terms of developing trades and a 
workforce that is, in effect, local that may contribute as 
employees of those plants in future years. So, again, our role 
in some respects is a small one, but I think we are trying to 
do the effect with what we have.
    Ms. Kaptur. I would urge you on in those efforts and thank 
you, Mr. Chairman.
    Mr. Simpson. If the gentlelady would yield for just a 
second before I turn it over to Mr. Frelinghuysen. You did not 
ask for the $15 million in this budget request?
    Mr. Burns. That is correct. Again, this is the President's 
budget and in terms the approach the Administration has taken 
toward that. What I will say is it has been now, I think about 
8 or 9 years, where it is routinely, and we have embraced that 
and carried it out, I think, in an effective manner.
    Mr. Simpson. I appreciate that. The reason we gave it to 
the NRC is because we used to do it within the Department of 
Energy and the Department of Energy did not take it very 
seriously, and so we gave it to the NRC which I think you have 
done a good job with. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Let me thank you all for taking on the 
commissioner assignments. I note that Miss Svinicki is a native 
of Michigan, but she spent some time in Idaho, so you probably 
know quite a lot about the Chairman which you probably should 
keep to yourself. But Mr. Ostendorff and Mr. Baran worked up 
here on the Hill. I think it is good, you know, to have you on 
the other side of the table, since, obviously, you have 
prepared members of Congress in your respective positions for 
such testimony. Yes, you want to get an Idaho comment in?
    Mr. Simpson. No. I was just going to see if you would yield 
for just a second. I did want to say because it is kind of 
unusual that we have all of the commissioners here. When 
someone asks a question, if others would like to comment on it 
also, feel free to do so.
    Mr. Frelinghuysen. I just assume you would not comment on 
your career, but let me say I know you commanded a submarine as 
well, so you have another part of our nuclear obligation that 
comes before this committee.
    A lot of anxiety, obviously, out there, and I am within 
shouting distance of Chuck Schumer, so I will not get into 
that. About the relative safety of our nuclear facilities, 
there was a report. I have read it or at least seen a summation 
about cyberattacks. Could you comment about that report? It 
seemed to be pretty disturbing. I think it is, in general, open 
sources here. That there is a degree of vulnerability. You have 
had double the amount of incidents that other Federal 
facilities have been subject to, and what are you doing about 
it?
    Mr. Burns. You are correct. Mr. Frelinghuysen, that there 
are actually two reports that came out, actually fairly close. 
One a Chatham House report out of the UK, and then a Homeland 
Security within about a week. The Chatham House was a general 
perspective on cyber. Not particularly in the U.S. In fact, no 
one who prepared that report talked to anybody at the NRC about 
it. It is not clear who they talked to, an unnamed source.
    The basic ideas or the issues you want to get at which is, 
you know, keeping the reactor controls systems, critical safety 
systems separate from the internet. Those are things that are 
required. Those are the things that are being done here. The 
principles they were enunciating I think were good. Homeland 
Security, about a week or two later, actually gave the nuclear 
industry a pretty good score in terms of where it was.
    Part of that, I think, comes from the fact that we had 
established a set of regulations several years ago which the 
industry is implementing that addresses the cyber security type 
issues. They have gone through the first phase. We are doing 
inspections and follow up inspections this year. There is 
another phase it will do, but overall, I think this industry is 
in pretty good stead. It requires vigilance.
    Mr. Frelinghuysen. Are there a number of contracts? The IG 
laid out some evidence that, perhaps, maybe some of these 
contracts might be scrapped.
    Mr. Burns. Actually. I apologize, I may be referring to 
different points. Our inspector general issued a report with 
respect to our internal, NRC internal, issues, and there are 
some issues we need to address in terms of some of our 
contracts and the like. But overall, we have not experienced a 
significant attack. We need to be, you know, vigilant on this 
as every industry.
    Mr. Frelinghuysen. Let me just make a few comments and then 
I will stop.
    Mr. Burns. Ok.
    Mr. Frelinghuysen. The report does not fault your staff at 
the National Security Operations Center, the SOC. They are 
meeting the requirements of the $262 million contract, which I 
guess expires next May of 2017. This is a quote, ``The problems 
are in the contract itself,'' said the report, ``which found 
that the terms require staff to do a little more than manage a 
few anti-virus, anti-malware, and anti-spam systems.'' Is that 
true? We can upgrade to something a little more proactive?
    Mr. Burns. My understanding, and I would be pleased to 
provide more details for the record, is that we are addressing 
the IG's findings in the contracting process and taking the 
corrective actions there. So I think we agree with the findings 
that the IG had. We need to be better.
    Mr. Frelinghuysen. Ok. Thank you. Mr. Chairman.
    Mr. Simpson. We are pleased to have with us today the 
ranking member of the full committee, Miss Lowey of New York. I 
know you have a very busy schedule, so we would be happy to 
recognize you next.
    Ms. Lowey. You are very gracious Mr. Chairman. I want to, 
first of all, thank you for bringing us together for this very 
important hearing. As you can imagine, I have been concerned 
about Indian Point. I do not think it is any surprise. It is in 
Buchanan, New York. It houses one decommissioned, two 
operational nuclear power reactors owned by Entergy. Earlier 
this week Entergy notified the NRC and state authorities that 
radioactive tritium contaminated water leaked into the ground 
water at Indian Point.
    Entergy found, ``alarming levels of radioactivity at three 
monitoring wells.'' Just this morning Entergy has reported that 
tritium levels have gone up in the ground water beneath Indian 
Point. This is the third time since 2005, that we know of, that 
tritium has leaked into ground water at Indian Point. Though 
contamination has not spread to the Hudson River, and does not 
seem to pose an immediate threat to public health, it is clear 
that this incident requires a full and thorough investigation. 
Based on the many problems at Indian Point and what seems to be 
poor oversight on the part of the NRC it seems the NRC is not 
adequately prioritizing public health and safety.
    There are three NRC resident inspectors who work fulltime 
at Indian Point. They are following Entergy's groundwater 
monitoring program and should have been on top of an inadequate 
pump system in place in recent years. While your agency is 
sending another inspector to the site this week, and has begun 
an investigation, I am deeply concerned that the NRC is turning 
a blind eye to glaring problems at a critical time when 
Entergy's relicensing process is underway.
    So a few questions, and thank you, Mr. Chairman. When were 
these resident inspectors made aware of the groundwater leak at 
Indian Point? What actions has the NRC taken to address this 
tritium leak? Will the NRC be fully investigating the leak, as 
I urged you to do in a letter earlier this week? Could you 
elaborate for us what that investigation will entail and when 
findings should be expected?
    Mr. Burns. Certainly. I believe our resident inspectors and 
our regional office were informed of the leak or the spill 
Friday evening when Entergy identified it. It was at an amount 
that was actually below the threshold reporting limits, but 
Entergy reported it to us.
    Ms. Lowey. Could I just ask a quick follow up? Before you 
said when Entergy reported it, so there are three resident 
inspectors that are there.
    Mr. Burns. Right.
    Ms. Lowey. There is no way of them knowing or identifying 
the leak until Entergy reported it, is that correct? I just 
want to make sure I am understanding the sequence and the 
process.
    Mr. Burns. I would expect, and I can certainly confer with 
our regional staff, but I would not necessarily expect the 
resident to be present when the spill or the leak occurred or 
something like that. I mean, our inspectors do go through the 
plant. They observe certain evaluations, but they would not 
necessarily have seen that right away.
    Ms. Lowey. I mean, I am going to let you continue with the 
approval of our Chair, but there are three resident inspectors, 
so I just wonder what they are looking for as they are walking 
around there fulltime?
    Mr. Burns. They are looking for any number of things. They 
have a particular protocol, I believe, that we set that an 
inspector goes out and looks at. They may observe particular 
plant operations. They may observe this phase of equipment and 
things like that. They go through the plant at the various 
times to do that.
    Ms. Kaptur. Ok.
    Mr. Burns. Ok?
    Ms. Lowey. But it would not be incumbent upon them to 
identify a leak? They have to wait until someone tells them, is 
that correct?
    Mr. Burns. Unless they had observed it directly themselves. 
After all, the operator is responsible for the operations 
within the license requirements, and is ultimately responsible 
for the safety of the plant. If indicated, we will have 
inspectors, both we have the resident inspectors who make 
observations during their normal rounds in terms of what the 
plant is doing as well as send, as you indicated here, we have 
sent a specialist out there to help with the evaluation of what 
happened and the significance of it.
    Ms. Kaptur. Now, as I understand it, Entergy said to you, 
the NRC, that the radwaste sump pump has been out of service 
since October 2014. Will the NRC inspectors at Indian Point and 
other nuclear power plants begin doing annual or semi-annual 
reviews of all systems at these facilities? I am just puzzled 
about that.
    Mr. Burns. Well, I would expect, again, as part of our 
evaluation of this particular incident to understand how that 
contributed to the tritium spill or the tritium leak. I would 
expect that to happen. We will inspect during outages various 
pieces of equipment and in particular sometimes operation of 
equipment and those types of things during our inspection 
program.
    Ms. Kaptur. Mr. Chairman, lastly, it is since 2007 that 
Entergy has been seeking to extend its licenses for Indian 
Point's two reactors, Units 2 and 3, for another 20 years. Both 
of these reactors have eclipsed their original licensing 
periods. So despite the expiration of their licenses, Indian 
Point can continue to operate until a final decision is made by 
the Nuclear Regulatory Commission. Do you have any updates when 
the commission will make a final decision, and will the recent 
tritium leak impact the final decision?
    Mr. Burns. I believe that a supplemental environmental 
review is due later this year. I can provide you for the record 
what the timing is. I do not happen to know it off hand. I know 
there is a supplemental review. The question on the tritium 
leak. The tritium leak is part of the ongoing oversight process 
for the plant. I would expect actions related to the 
performance of Entergy to be taken account of through our 
normal oversight and evaluative process for that. They would 
not await the license renewal process.
    Ms. Lowey. Thank you, Mr. Chairman. I appreciate the time. 
Thank you.
    Mr. Burns. Thank you.
    Mr. Simpson. Thank you. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. First and foremost, 
thank you for being here today. Thanks for your service to our 
country. After the fall of the Soviet Union some of the nuclear 
materials in some regions are still unaccounted for. There have 
been, as you know, multiple attempts recently by criminal 
networks with suspected Russian ties that have sought to sell 
radioactive material to extremists throughout portions of 
Eastern Europe. These repeated attempts to acquire nuclear 
materials signal, what appears to be, a potential nuclear black 
market that has emerged in several former Soviet states.
    Investigations have revealed that smugglers are explicitly 
targeting buyers who are enemies of the West, and those buyers' 
intentions are to target the West, in particular Americans. 
Considering the recent breakdown in relations between the West 
and Russia, cooperation and information sharing on matters have 
become more complicated.
    Some individuals within Russian organized crime cling to a 
Soviet-era hatred of the West. Islamic extremists groups like 
ISIS, obviously, share that same hatred. Both organizations 
have made clear their intent and willingness to use nuclear 
weapons. This development represents the feared scenario in 
which organized crime and terrorist organizations, like ISIS, 
establish a mutual partnership. What procedures and equipment 
are in place to ensure that if an extremist is able to purchase 
nuclear materials, that they would be prevented from being 
smuggled into the United States? Considering that we have lost 
track of nuclear materials here in the U.S., what is being done 
to ensure bad actors could not acquire the domestic material?
    Mr. Burns. I think the response to your question actually 
crosses over a number of agencies. We may actually have less to 
do with it than some of the others. What we do is we keep in 
touch with the Department of Energy, the Customs Agency, and 
others that might have a role in that. I know, again, this is 
not something that the NRC operates or licenses.
    Mr. Calvert. If the gentleman would yield. That even 
bothers me more because if you have a number of agencies that 
are looking at this is there anything being lost in 
communication between those agencies?
    Mr. Burns. I do not think so. I think we have good 
cooperation and good communications among the agencies. On our 
end, what we can do, as the NRC, is we can do our best with 
respect to licensable radioactive material in the United States 
in terms of protecting sources, assuring that licenses are 
issued only to those who should have licenses. There are 
security aspects to that in terms of the category and quantity 
of radioactive or nuclear material. So that is where I think 
our responsibility lies.
    In the interagency, and I know Commissioner Ostendorff is 
experiencing that, there is, I think, good communication, 
cooperation because we are concerned with that.
    Mr. Calvert. Commissioner.
    Mr. Ostendorff. Thank you for the question, Congressman 
Calvert. I would just add two things here. The NRC, we have 
responsibilities under Federal law to rule on export license 
applications, and we work very closely with the State 
Department and the Department of Energy and the National 
Security Council staff on those matters. The Chairman mentioned 
the interagency, we ultimately meet, typically every 6 months, 
in the Top Secret, Sensitive Compartmented Information, TS/SCI, 
briefing in our SCIF, in NRC headquarters, to receive updates 
on threat assessments for nuclear materials, smuggling, al-
Qaeda, ISIS, ISIL, other jihadist groups, and I think each of 
the commissioners spends quite a bit of time on a regular basis 
getting periodic updates in between these 6-month briefings. 
With respect to the National Security Administration, I used to 
be an official there, 2007, 2009, they had the bulk of the 
programs. For instance, there is a container security 
initiative to use portal monitors to screen containers coming 
into the United States' various ports to detect nuclear 
materials, and I think NSA does a very good job at keeping us 
informed of anything they find of a concern in those areas.
    Mr. Calvert. Well, I just wanted to bring that up. I cannot 
think of anything more important than keeping nuclear material 
out of the hands of those who would harm us. One quick question 
on decommissioning, there is a nuclear facility in California 
near my congressional district, San Onofre. On the issue of 
decommissioning nuclear facilities, why does it take so long? I 
have been told by Edison it is going to take 10 years before 
they would be able to decommission that site. Any comments on 
that?
    Mr. Burns. There are different approaches to it. They are 
actually going at an approach called DECON, which goes toward a 
more immediate, although, as you indicated, maybe a decade-long 
process versus what we call SAFSTOR, which is basically set and 
do it some years later, even 10 years later. But part of it is 
that it allows the reduction of some residual radioactivity. It 
allows them to do it in a methodical way. I do not know that 
there is a magic date or timing they can do it, but it is a big 
deconstruction project. I know, having gone out to the one in 
Illinois, near Gurnee, Illinois, northwest of Chicago, the Zion 
plant, which they are undergoing, and one of the things they 
told me, they are actually at a point it is not radioactive 
material that is the concern, it is actually other heavy metals 
and other types of hazardous materials that you have got to be 
careful about as well. It is not just the radiation, for 
example, if they use lead paint when the plant was built in 
1970 for signage and things like that. So from our standpoint, 
it is a safe approach that they can do; I recognize it may take 
some time.
    Mr. Calvert. Ten years seems like a lot of time, but thank 
you, Mr. Chairman.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. Thank you so 
much for being here. The March 2011 accident at Japan's 
Fukushima Daiichi nuclear power station was caused by a tsunami 
that was triggered by a powerful offshore earthquake. After the 
disaster, NRC required U.S. nuclear power plants to re-evaluate 
their seismic risk. NRC is requiring the nuclear power plant 
seismic evaluations, as I understand it, to be submitted to the 
agency by the end of 2019. Based on the initial seismic screens 
completed in 2015, how many U.S. nuclear plants may be subject 
to greater earthquake forces than they were designed to 
withstand, and in the interim, is NRC requiring nuclear plants 
to make any major modifications to reduce seismic risk before 
the plant evaluations are completed in 2019?
    Mr. Burns. I would have to supply for the record that there 
are a number of them, I believe it is true, I do not know, it 
is a half-dozen or more, we will provide that for the record, 
that had a higher seismic evaluation conducted. What we have 
done, and for example, in California, the Diablo Canyon, I 
think its revised seismic evaluation is due in 2017, and 
Columbia Station in Washington in 2019. What we do expect is 
that they are capable of meeting their current design basis, 
and if they have identified areas which there may be 
vulnerability, that they may be taking additional measures, but 
for the most part, the plants themselves, in terms of their 
design, are extraordinarily robust, so we are satisfied, given 
what we know at this time, that the plants can operate safely 
pending the final outcomes on the re-evaluations.
    Ms. Roybal-Allard. Ok, and if the evaluations show that 
some modifications need to happen, what is the timeline or how 
long would you expect those things to take?
    Mr. Burns. On a plant-specific basis, and again, it would 
be in terms of assessing the significance of what it is, what 
the nature of the outcome is or what the equipment that might 
be affected, but we would establish a timeline, and again, if 
during that time, we would either have interim measures that 
would assure safety, and that could be a variety of things, I 
think.
    Ms. Roybal-Allard. Ok. The decommissioning work that the 
NRC oversees, as has been stated, is critical to ensuring the 
safety of workers and those who live in neighboring 
communities, and in the county of Los Angeles, NRC lists two 
sites that are being decommissioned; first, Magnesium Alloy 
Products of Compton, which used thorium, and second, Isotope 
Specialties of Burbank, which fabricated radioactive sealed 
sources and packaged low-level radioactive waste for disposal. 
After these licenses expired, authorities found radioactive 
contamination at both sites. What is NRC's responsibility for 
ensuring that the safety of the public and the environment at 
these formerly licensed facilities, and also can you provide an 
update on the remediation efforts, and who is responsible for 
the cost of cleaning up the Compton and Burbank sites?
    Mr. Burns. I would be pleased to provide. I am not familiar 
with those two particular sites. There are a number of 
instances in which licenses that may have been terminated, for 
example, and I do not know if that is the case with these, 
under the Atomic Energy Commission, where we have gone back and 
said that there additional remediation needs to be done, but I 
would be pleased to provide you some information that is 
responsive on that.
    Ms. Roybal-Allard. I would just appreciate it, and just in 
a more general question, what is NRC doing to ensure that 
licensed facilities that are closed in the future are held 
accountable for newly identified contamination post-closure?
    Mr. Burns. Primarily what we do in terms of close-out 
inspections, what I would expect us to do is have a thorough 
assessment of the site, understanding what the historic 
operations are, that sometimes the challenge with some of these 
sites is that they may have had historic operations, sometimes 
that went in before there was licensing either under the AEC or 
NRC, so making sure you have good site characterization, that 
you have good oversight of the activities done to decommission, 
and that, I think, going forward, those are the things for 
those areas that are under our jurisdiction that I think can 
help the most.
    Ms. Roybal-Allard. Ok.
    Mr. Simpson. Thank you. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Chairman Burns, 
Commissioners, thank you all for being before us today. I 
represent the 3rd District of Tennessee, that is an east 
Tennessee district. Nuclear energy is important to my district, 
from the TVA Sequoia and Watts Bar facilities in the south to 
the famous X-10 nuclear reactor in Oak Ridge, which is the 
oldest reactor in the world. In my view, nuclear provides clean 
electricity, creates American jobs, and stimulates the Unites 
States economy. Chairman Burns, I am very interested in the 
development of small modular reactors, and this subcommittee 
has made funding for them a priority. As we anticipate an SMR 
application in the next year or so, what is the NRC's plan to 
address the funding, technical, and licensing issues of SMRs to 
support the commercialization?
    Mr. Burns. We expect to receive a design certification 
application from NuScale, which is located in Oregon, at the 
end of this year, and for, I think, about the last two years or 
so, I know it was going on before I came back to the NRC in 
late 2014, our staff has engaged with NuScale to make sure that 
I think on both sides we have a good understanding of 
expectations, in terms of we have an understanding in terms of 
what we are seeing, in terms of the technology, as well as they 
understand our needs in terms of what is needed for the design 
certification, and I think that dialogue has gone pretty well 
and puts us in good stead to receive and act on the design 
certification that we will get. The funding, we do not provide 
the funding for the design, develop and all that, that is 
primarily through the Department of Energy, and I think they 
have received some funding through the DOE. But one other thing 
I would add is, in addition to the NuScale application, I think 
we do expect to receive from Tennessee Valley Authority an 
application for an early site permit. Basically, it is at the 
Clinch River site, and basically what that is, it is looking at 
the site with an assumed technology. It gets you a review of 
some of the environmental issues and siting issues, geology, 
seismology, things like that. So I believe we are receiving 
that this spring, sometime this spring, I think in April.
    Mr. Fleischmann. In your consideration of SMR license 
applications, are there lessons to be learned from the recent 
licensing of Watts Bar 2 and Westinghouse AP1000 plant at 
Vogtle and V.C. Summer nuclear power station?
    Mr. Burns. Probably less so from Watts Bar 2, because Watts 
Bar 2 is completed under the 2-phase licensing process of a 
construction permit followed by an operating license. Now, it 
may well be that if some future applicants are interested in 
going that way, you can use the 2-step or you can use the so-
called 1-step licensing that the Summer and Vogtle have gone 
through, so there may be some things to learn, and I believe 
our staff is doing the knowledge management on that. 
Commissioner Svinicki.
    Ms. Svinicki. Something that I would like to bring to the 
subcommittee's attention, in my time as a commissioner, I have 
occasionally been concerned that agencies like NRC are very 
tradition-bound. We are most comfortable making decisions on 
what we are familiar with, which is the large light water 
reactors like Watts Bar 2, and as we look over the horizon at 
small modular reactors, but maybe even more so to other 
advanced technologies that I know your subcommittee has heard 
from DOE about multiple times, I wondered about our flexibility 
to adapt our regulations to something that looks quite a bit 
different from what we have licensed, which by the way, we are 
cautious about; even those can take quite a bit of time to do. 
So I have really challenged the NRC staff to say, what are the 
measures that could give us confidence when we tell Congress, 
if we get an SMR, we could do this in four years or something, 
half the time of what we have been doing? Something that is an 
odd analogy, I think, is that my confidence was raised that our 
staff has completed a review of a different, it is not a 
reactor, in Janesville, Wisconsin or near there, there is 
proposed to be a medical isotope production facility. That 
applicant came in in medical space, but it was a different kind 
of aqueous reactor, kind of a reactor, quasi-technology, to 
make medical isotopes, and I was impressed, and my confidence 
was increased at NRC's ability to be a little bit more agile 
and adaptable in adapting the regulatory framework to something 
else. Because for the NRC staff, this application and 
technology did not fit neatly at all into the regulations that 
we have, but what they did is, they looked at applicable parts 
of the regulations and said, take this from power reactors, 
this from other materials space, and we were able to find both 
a legal and technical path to do that. I think that was an 
accomplishment for us, because it was something we had not 
licensed before. It is not a perfect solution for SMRs and 
advanced reactors, but I do think it is a demonstration of 
something real in terms of our flexibility.
    Mr. Burns. I agree. Thanks.
    Mr. Fleischmann. Thank you all. Mr. Chairman, I will yield 
back and wait for round 2.
    Mr. Simpson. Thank you. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Thank you all for 
joining us today. What is the future of nuclear power in 
America, or let me rephrase the question, in the world?
    Mr. Burns. The interesting part of the answer to that 
question is, I think if you look, you wind up in worldwide, you 
wind up having to look at different places. Start with the 
United States, right now, we have with cheap natural gas, what 
I will hear from utility executives, distortions in the 
electricity market in terms of how they see their nuclear units 
valued, so you have somewhat an uncertainty. You have units 
being built in the southeast and in regulated markets, and we 
have applications. We just issued yesterday the authorization 
for the combined licenses for South Texas Units 3 and 4, and 
they talk as if they are very serious about that. So that is in 
the U.S. If you look in Europe, my three years there, it was 
extraordinary in terms of how people talked about it. You have 
the Germans with the Energiewende, with turning away from 
nuclear, though buying some French nuclear and buying Polish 
coal generation. You have the United Kingdom going forward with 
its program. You have Eastern Europe going forward in its 
program. Then you move to Asia where you have India and China, 
China on a very aggressive building program, and India, less 
so, but also growing their nuclear generation. Then you have 
the question of so-called new entrants, with countries like 
Vietnam. You have a country like the UAE with 2 units under 
construction and another two, so you have a mixed bag, and I am 
probably not the best fortune teller or forecaster on that, but 
that is what I have seen across the world on it.
    Mr. Fortenberry. Well, the question becomes, maybe you can 
explain if there is any, your interaction with other countries' 
design standards, because to Mr. Calvert's question, the 
reality is, if we are going to have nuclear power, we are going 
to have problems with nuclear science, the waste, the 
technology getting in the wrong hands, the switches being 
flipped to potential military uses. So while I understand that 
is not the fullness of your charge, nonetheless, you are out on 
point creating regulatory atmosphere to ensure safety, but 
also, I would hope, to be helping us think strategically about 
how to prevent non-proliferation of harmful technology and new 
options for dealing appropriately with waste and other 
problems. This is the second part of the question. If you would 
return to the small modular reactor, what does that buy us in 
terms of those questions I just posed?
    Mr. Burns. Well, I think that is an interesting question, 
because some of things, for example, that we will need to look 
at, we have started to look at some of those in the siting, is 
what is the security profile for an SMR? What is, in fact, the 
number of operators that you need in a control room for an SMR; 
that is more of a safety question. But that is one of those 
things that we need to deal with. We have put out, I think, for 
public comment the question on what is the emergency planning 
profile for the small modular reactors. A lot of what you do 
here, and I think partly that is going to be to the extent that 
DOE helps with that, part of it is our engagement, that there 
is in some of the advanced designs, more inherent protection 
from a security safeguards perspective. I think those are 
important things to look at, and I think that is something that 
not just us in the United States, the extent, like there is a 
Generation 4 forum, those are the types of things that they 
will look at as well. Those are good questions; I am not sure 
we have all the answers yet, but what you hear is that there 
are some aspects of that just from the safeguard security 
standpoint that you may have better inherent activates.
    Mr. Fortenberry. Yeah, assuming this is the way of the 
future and these become scalable and easily replicable, it does 
not lessen the deeper, harder questions and in fact it makes it 
worse, not just in terms of your job and making sure the 
immediate site is secure and that there is not going to be any 
significant accident but this larger issue of the problematic 
strategy that is facing humanity or the problems that are 
facing humanity in general about a strategy in which we control 
this technology and all of the potential harm that can come 
from it.
    Mr. Burns. Yes, and one of the things that we can do as NRC 
and we are doing, that NRC does to the extent that DOE and some 
of the broader non-proliferation issues you raise is that we 
are engaged with the International Atomic Agency in terms of 
looking, there is a new form on SMRs there, through my old 
organization, the Nuclear Energy Agency at the OECD. There is a 
multinational design evaluation program where there is 
cooperative and they are starting to look at the SMR.
    Mr. Fortenberry. Mr. Chairman, does he have time?
    Mr. Simpson. The gentleman's time has expired for this 
round.
    Mr. Fortenberry. Thank you.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Chairman. Good morning, Chairman 
and Commissioners. I understand the NRC has been working hard 
to reduce the licensing backlog that has grown over the past 
four years and the NRC prioritizes license amendment requests 
based on the importance to safety, however, some license 
amendment requests do not necessarily impact safety but involve 
improvements in the economic performance for liability of the 
plants.
    Many of these plant changes can only be performed during 
plant outages which occur every 18 to 24 months, which 
highlights the importance of a timely review by the NRC. Delays 
by the NRC in processing license amendment requests can have 
significant impact on the plant's bottom line, and hopefully 
the actual rate that our folks pay, by pushing off significant 
capital improvement projects.
    Safety should come first, but because NRC is the country's 
sole commercial nuclear licensing and regulatory authority, it 
is imperative that the NRC provides timely servicing of the 
licenses it issues. Do you agree that license holders should be 
able to establish and rely on schedules that assume NRC will 
live up to its commitment to process all licensee actions 
within two years and do you believe that the NRC staff should 
adhere to the internal procedures to ensure timely and 
disciplined review of the license amendment requests? And what 
is the NRC's long term strategy for ensuring the capability to 
provide predictable and reliable and timely processing of 
license amendment requests?
    Mr. Burns. I do agree that it is important for us to set 
objectives like the 2 year objective. Again, they may not be 
hard and fast in all circumstances but it gives us something to 
work to. It enhances, I think, communication with licensees and 
the like. What we have been doing over the last couple of 
years, we have been working down the licensing backlog and I 
believe that through 2016, or by 2017, we will have worked it 
off so we have been giving that some good attention and are 
trying to meet those goals and objectives.
    Mr. Valadao. All right, I think I might have time for one 
more, if I am not mistaken, Chairman? One of the goals of 
Project Aim is to ensure adequate sizing of the agency is 
achieved by 2020 with the target of 3,400 full-time 
equivalents. When Project Aim's efforts began, NRC budget was 
well over one billion dollars with 3,778 staff positions. With 
FY16, the NRC was appropriated approximately one billion and 
NRC set a target staff ceiling of 3,600 positions by the end of 
fiscal year.
    Based on the current projections, NRC seems to have met 
that ceiling target at the beginning of this calendar year. 
Your request for fiscal year 2017 again requests a decrease in 
funding as well as a decrease in staff. Because the previously 
anticipated level of reactor licensing did not occur, areas 
that had grown in anticipation of the projected workload 
demand, such as staffing and acquisition of a third building at 
a headquarters complex should be reexamined. Because housing is 
now a major fixed cost that the NRC carries annually in its 
budget, the committee would benefit from better understanding 
what actions the NRC is considering to reduce its housing 
footprint at the headquarters complex once its right-sizing 
efforts are completed.
    Do you agree that the NRC should be reevaluating the need 
to occupy three buildings, especially in light of the staffing 
reduction targets? If so, what are the NRC's plans to right-
size their physical footprint?
    Mr. Burns. Well, a point of fact, we are the minority 
tenant in the third building at this point. The most important 
thing, probably we have in there is our operations center which 
was upgraded a few years ago and we have some staff offices but 
we are the minority tenant. As we look at the overall staffing 
size of the agency, I would agree, we need to look at what our 
footprint is. What do we need in terms of space? And to the 
extent that we do not need, be responsible about the space we 
have and, where possible, reduce our footprint, if it maintains 
our--I think Commissioner Svinicki wanted to add something.
    Ms. Svinicki. Congressman, I was listening very closely to 
the figures in your question and if I heard correctly, I agree 
with all of the figures that you quoted. I did want to offer 
one clarification. I think you quoted 3,400 FTE as the ultimate 
goal for Project Aim in the year 2020. I want to clarify; it is 
accurate that we published that figure. It was a preliminary 
staff estimate at the very beginning of our Project Aim work. 
It is not informed by any of the work that we had done over the 
last 18 months and the Commission had not endorsed this figure. 
The Commission did endorse a figure of 3,600 for the current 
fiscal year as an interim step but I think it is fair to say 
that the Commission does not feel it has adequate information 
to know if 3,400 is the right number so we never endorsed that 
and we certainly have encouraged our staff not to be bound.
    Frankly, I think that, as a personal view, that figure may 
not be ambitious enough thank you.
    Mr. Valadao. All right, well thank you. I yield back, 
Chairman.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Chairman, in your 
testimony, you indicated that the NRC expects to review an 
application for interim consolidated storage in 2017. It is my 
understanding that waste control specialists in Texas announced 
that they may submit a licensed application during the coming 
year. It is also my understanding that there is an Energy 
Alliance in New Mexico that may also, at some point, submit an 
application. I do not thing the time is as clear. Do you have 
enough money in your budget to adequately address one, and 
possibly two applications during the coming year? And if not, 
what are you lacking to make sure that they receive 
consideration?
    Mr. Burns. I think my understanding is that we do have the 
money available in the current budget to address the Waste 
Control Specialists, which, as you indicated, is the first 
expected application. It may require some reprogramming of 
funds and then if it triggers the marks, we would come to the 
committee on it. Because we did not know and did not expect at 
the time the 2016 budget was promulgated, we did not 
particularly plan for it but we think we have the room in there 
for that, and the one in New Mexico I think is not expected 
until '17. It is not in the budget so I think we would have to 
look.
    I think again, my understanding is we may be able to shift 
some funds to be able to cover that but we could make sure we 
are clearer on that for the record.
    Mr. Visclosky. If you could, for the record, that you are 
clear for, if nothing else, the Texas application, assuming 
that it would come online for '16, I would appreciate it very 
much.
    Mr. Burns. Yeah.
    Mr. Visclosky. Just as far as spent nuclear appeal storage, 
what is in the pipeline and how do you expect to prioritize 
different application requirements?
    Mr. Burns. Primarily, the new things are these potentially 
consolidated storage sites. Other sites, I would have to get 
for the record. A number of plants already have the storage 
capacity. They have done the above ground dry storage or they 
have done the dry storage pads and some are working to it. I 
would be pleased to provide what new ones we may be getting 
from individual sites; I just do not have that number on the 
top of my head.
    Mr. Visclosky. But it would not be your anticipation? That 
would be for the coming fiscal year?
    Mr. Burns. Pardon?
    Mr. Visclosky. You would not anticipate those to be coming 
for the fiscal year we are funding. I just want to make sure 
you have enough resources if there are other things that are 
coming over the horizon.
    Mr. Burns. I think we are okay on that but I will check 
back on that.
    Mr. Visclosky. If you could for the record, please. Thank 
you. Thank you very much, Chairman.
    Mr. Simpson. Thank you. Let me ask a couple of questions 
about the budget. First, I would like to thank the Commission 
for the work that you have done thus far to develop the issues 
and issue a supplemental environmental impact statement for 
Yucca Mountain because the Department of Energy seems to refuse 
to do so.
    Can you lay out for us the schedule to complete the EIS 
supplemental and do you have sufficient funds to complete the 
supplemental?
    Mr. Burns. We do have sufficient funds to complete the 
supplemental statement. I anticipate it being issued this 
spring. My recollection was that it is sometime this spring, in 
March.
    Mr. Simpson. Can you tell me what the next steps would be 
after the EIS supplemental and do you have sufficient funds for 
this next step, and if not, what additional funds would be 
required in 2017?
    Mr. Burns. What we have is the remaining carryover that was 
appropriated earlier from the high level nuclear waste fund. We 
have, on the order, about $2 million which essentially we 
have--I believe we have informed the Committee before, targeted 
towards transferring the bulk of the documentation into our 
archival--the so called ADAMS document system, and then that 
expends what we have. The steps, once the staff issues an 
environmental statement. The remaining steps with respect to 
what the agency would have to do relate to the hearing process 
that is required under the act and we have pending, when the 
hearing was suspended, about 288 contentions that would go in 
front of our licensing board and then ultimately the decision 
would be subject to review by the commission.
    We have estimated in the past that to complete a review, 
would take on the order of about $330 million.
    Mr. Simpson. Would that be necessary in the next year 
budget or how long would that take?
    Mr. Burns. No, that would----
    Mr. Simpson. Over what period of time?
    Mr. Burns. It would be multiple years and I am not quite 
sure the breakdown of that.
    Mr. Simpson. Ok. As I mentioned in my opening statement, 
the NRC has taken important first steps towards right-sizing. 
The budget requested for fiscal year 2017 is $19. 8 million 
below the fiscal year 2016 and projects a reduction of 90 FTEs, 
as we mentioned. Before we discuss the right-sizing process in 
greater detail, I have a couple of questions about the budget 
request.
    Do you all agree that the budget request will not impact 
safety?
    Ms. Svinicki. I agree.
    Mr. Burns. I agree.
    Mr. Ostendorff. I agree.
    Mr. Baran. I agree as well.
    Mr. Simpson. Do any of you have any additional comments on 
the actions that you have taken as part of the budget process 
to ensure that safety remains a top priority?
    Mr. Burns. As we develop the budget, I think that is always 
our top priority. We look those things where it is important 
for us to maintain oversight, where it may be important to us 
to have interface. For example, I mentioned our agreement state 
partners, where it is important to be able to move through an 
effective licensing process that assures safety and security so 
I am comfortable with where we are in this budget on that.
    Mr. Simpson. Ok, in your testimony, it mentions $41.1 
million in savings for fiscal year 2017 has been identified as 
the result of the rebase lining. Does that budget request 
reflect any of these savings?
    Mr. Burns. It reflects about $10 million of those savings 
and again partly because the process of our development, as you 
know, the budget development process, these were things we 
identified when we went through the Executive Branch process. 
We were fairly comfortable with the $10 million and what we 
have done and what the staff has identified in the rebase 
lining paper, which I think we have provided to your staff, is 
identified about $30-31 million additional areas, which are 
before the Commission for review right now. We got the paper 
about a week ago but that do reflect some additional, having 
taken a hard look, they reflect some additional potential 
savings.
    Mr. Simpson. I understand that we are in the middle of a 
lot of changes that are going on and so forth. Will you be done 
with that and be able to identify whether that additional $31 
million in savings is a reality in savings that can be achieved 
by the time we do a budget or an appropriation bill? Do you 
think in the next three or four months?
    Mr. Burns. Yeah, I would expect that.
    Mr. Simpson. Donna is looking at me like: ``Two to four 
months. We are talking two months maybe.''
    Mr. Burns. I think that is our intention. I have read, 
myself and my colleagues can speak for themselves, I have read 
the paper, I flagged--I think the staff did a good job but 
sometimes they are just talking in shorthand, even to some of 
us who work within the building and I want to make sure I 
understand what those things are and I have a handful of those 
so that is part of our due diligence and I expect my colleagues 
are probably in the same boat.
    Ms. Svinicki. Yes, Chairman Simpson, I believe to a person, 
it is our intention to act promptly and the NRC staff has made 
very clear to us their desire for a timely Commission decision 
so that we can inform this budget cycle and your work.
    Mr. Simpson. Thank you.
    Mr. Baran. I would just add, so the staff identified 151 
specific items that would generate potential savings and a 
number of those, I think it is 29, were incorporated to the 
FY2017 budget request. The rest of them were not and so before 
the Commission right now is the 151 for our review, and to your 
prior question about are there anything in this budget that we 
feel would adversely impact safety? I think that is a key part 
of our review of these 151 items. I want to take a close look 
at those and make sure we are not doing anything that is going 
to relax regulatory oversight of licensee performance and 
safety.
    That, for me, is going to be a top priority in looking at 
those 151. I think a lot of them are going to make a lot of 
sense. There are a few of them that could involve reduced 
inspection hours, for example. I would give those a hard look.
    Mr. Simpson. Ok.
    Mr. Ostendorff. I would say that I have looked at the 151 
and I have discussed with my staff just this week. Although the 
Commissioners were paying proper attention to this, when I look 
at the reactor oversight program in last year, for instance and 
the enhanced oversight for Arkansas Nuclear One and the Pilgrim 
Plant in Massachusetts and our baseline inspection program 
activities that Commissioner Baran is referring to. It is not 
apparent to me that any of these proposed reductions would 
negatively impact our oversight but we need to dot a couple of 
``I''s and cross some ``T''s here.
    Mr. Simpson. Thank you. Ms. Kaptur.
    Ms. Kaptur. I would like to yield to Congresswoman Lowey 
for a final question and then I will----
    Mr. Simpson. Ok.
    Ms. Lowey. Thank you for your gracious hospitality and 
thank you Mr. Chairman as well. Chairman Burns, I just wanted 
to bring to your attention, some questions regarding the Aim 
pipeline Spectra, which as an energy company, as you know, is 
constructing the Algonquin Incremental Market Expansion, the 
Aim project, which would expand the natural gas pipeline, which 
runs just 100 feet from vital Indian Point Structures. This is 
a great concern to me and many of my constituents and I 
strongly believe that the NRC has not adequately investigated 
the risk, nor responded substantively to the concerns that have 
been raised.
    I remain particularly disappointed in your conclusion that 
a further independent risk analysis, beyond NRC's internal 
analysis is unnecessary. So my question is, does the presence 
of a potentially dangerous pipeline impact the security 
procedures NRC mandates at a nuclear power plant and what steps 
does the NRC plan to take to ensure the Indian Point Evacuation 
Plan is updated to reflect the additional risk of a pipeline in 
the vicinity?
    Mr. Burns. Congresswoman Lowey, we have looked at the 
pipeline issue. In fact, our staff met with one of the persons, 
Mr. Cooper, last week on it. Our evaluation is that there is 
not an adverse impact on the Indian Point Plan. Having said 
that, I believe we would look at what the impact might be and I 
would have to consult with our staff in terms of what they have 
done or what additional action might be required because of the 
analysis that they have done on what is called the security--if 
there is an impact or a potential impact on the security 
barriers. I do not know the answer to your question immediately 
but I can ask our staff to inform us and inform you of that but 
that, again, would be our primary. Looking at it, we would be 
concerned of--our concern is assuring that there is not an 
adverse impact on the safe operation of the plant or equipment 
or barriers involved or security barriers at the plant.
    Ms. Lowey. So, I am just trying to understand this. Does 
the presence of a potentially dangerous pipeline impact the 
security procedures the NRC mandates at a nuclear power plant?
    Mr. Burns. The impact of a pipeline on a facility that 
could have--that has, for example, an explosive--here the 
question is basically a rapid explosion and release from that 
pipeline, those types of things are taken into account and are 
looked at when new projects come in where an existing site is 
or are taken into account in the licensing of a new facility 
and what our staff does is make evaluation, whether or not it 
has an adverse impact from the ability--in terms of the ability 
to shut down the plant or protect the plant or something like 
that.
    Ms. Lowey. So then the question is are there steps that the 
NRC plans to take to ensure the Indian Point evacuation plan is 
updated to reflect the additional risk of a pipe line in the 
vicinity.
    Mr. Burns. I would have to ask and consult with the staff 
and would be pleased to get you an answer for that.
    Ms. Lowey. I would appreciate that and then one other 
question that I wondered with regard to Indian Point we talked 
before about the multiple safety issues at Indian Point. The 
recent tritium leak, transformers, elevated moated 
temperatures, temperature issues on the seals of the reactors 
and in the last two years energy has blamed vendor failures for 
major malfunction that resulted in shutdowns at Indian Point. I 
just wondered to other nuclear power plants experience so many 
vendor failures at this rate and has the NRCC thoroughly 
evaluated these vendor failures at Indian Point.
    Mr. Burns. We look at as part of our review what the 
attributed cause of a failure or a violation or some sort of 
transient at the plant and I could not speak right now as to 
whether or not Entergy is blaming vendors more than another 
licensee may. Ultimately the licensee is responsible for the 
safe operation of the plant. It may have issues in terms with 
respect to its vendors but ultimately they need to have 
processes in place that ensure the quality of the material that 
they are installing in the plant as well as maintaining the 
plant.
    Ms. Lowey. And lastly and I think this is an issue that has 
come up over and over again. If a fifty mile area around Indian 
Point were to be evacuated every resident of West Chester 
County, New York City, even parts of Long Island would be 
forced to evacuate. Quite simply there is no way to move all 
those people safely. So for many of us Indian Point's 
evacuation plan leaves much to be desired relying on buses to 
get residents away from the potential in the event of an 
emergency. The plant was built but not allowed to go into 
operation because there was no feasible evacuation plan. Does 
the NRC actually believe the evacuation plan for Indian Point 
is feasible and could you share what the NRC is doing to work 
with nuclear power plants in densely populated regions to 
improve evacuation plans?
    Mr. Burns. Well we certainly work with a Federal and state 
partners with respect to emergency planning and emergency 
preparedness around nuclear power plant sites. Ultimately those 
entities, other Federal entities such as FEMA and the state are 
responsible emergency preparedness backgrounds. We have found 
that the emergency plans for the Indian Point plant meet 
Federal requirements but we continue to work with as I say with 
Federal and state partners in terms of improving and exercising 
those plans.
    Ms. Lowey. And lastly really lastly do you have any update 
on when the commission will make a final decision of 
relicensing and I wonder whether the recent tritium leak will 
impact that decision?
    Mr. Burns. Our evaluation of the tritium leak will go into 
our normal oversight process and the consequences or the 
significance of the leak would be taken into account as part of 
our day to day evaluation and oversight of operations. My 
understanding about the Indian Point renewal proceeding is that 
there is a supplemental environmental statement that is due out 
this spring, later this spring. There are potentially some 
additional hearings with respect to that and there could be a 
decision later this year but I think rather than--let me make 
sure we supplement that for the record because I think there is 
more time. There happens to be an unusual situation. I am 
actually recused from the decision on the renewal because of my 
prior role as senior staff counsel at the agency some time ago. 
But I would be pleased to get you the information that you 
want.
    Ms. Lowey. Thank you very much Mr. Chairman for your 
indulgence. I thought you were recused because you moved to 
West Chester County. Thank you very much.
    Mr. Fleischmann. Thank you Mr. Chairman. Commissioner 
Ostendorff I wanted to hear about your upcoming visit to my 
district to speak at the advanced reactor summit at the Oak 
Ridge National Laboratory and then I am going to have a follow 
up question sir but before I do that I wanted to convey to you 
my sincere thanks and appreciate not for the work only that you 
do at the NRC for the past 6 years but for all you have 
accomplished for the people of Tennessee in our country and 
your service at the House Arm Services Committee, at the NNSA 
and of course in our great United States Navy, sir.
    Mr. Ostendorff. Thank you sir. I am flying out this 
afternoon to Knoxville. I will be speaking at 8 o'clock 
tomorrow morning delivering a keynote speech on advanced 
reactor technology at Oak Ridge National Laboratory. The key 
messages I will be delivering will be discussing the NRC's 
readiness to receive license applications for small modular 
reactors and other non-light water reactor advanced 
technologies. I will be talking about the experience we had 
with our current fleet that is under construction in Georgia 
and South Carolina as well as Watts Bar and the NuScale 
experience that was discussed by colleagues here and also will 
be talking about our experience in non-light water reactors 
technologies over the last 30 years. I am looking forward to 
engaging with the folks at Oak Ridge.
    Mr. Fleischmann. Thank you sir. A follow-up question, there 
is concern over the future of licensing nuclear technologies 
which are venture-funded start-ups. The NRC's current process 
for licensing is not compatible with this new funding model. 
How does the NRC plan to meet this challenge?
    Mr. Ostendorff. Thank you for the question Congressman. Let 
me just talk a little bit about the experience we have had so 
far to date in pre-application meetings with NuScale. Again as 
the Chairman mentioned we are expecting a license from NuScale 
in December of this year. Our staff has been working very 
closely in pre-application meetings with their executives, 
scientists and engineers. Our staff has approved what we call 
design specific review standards that would guide our staff's 
review of an actual license application. I think a lot of the 
technology issues (whether or not electrical power is required 
to meet certain safety requirements, the use of passive safety 
features, new design aspects) have been addressed and will 
continue to be addressed by our staff. Mike Johnson who is our 
Deputy Executive Director for operations for reactors and 
Jennifer Uhle who heads our new reactor office have also been 
discussing the use of a step wise approach to provide 
incremental decisions back to potential investors through our 
work in pre-application meetings with an applicant or potential 
applicant to give them partial answers based on submittals that 
would deal with one aspect of a design. So I think we are 
making good progress in that area and I am looking forward to 
seeing applications coming in.
    Mr. Fleischmann. Thank you sir. My next question is for all 
of you all if you would like to participate I encourage that. 
The Oak Ridge National Laboratory is the home to CASL, the 
Consortium for Advanced Simulation of Light-Water reactors. 
CASL uses modeling and simulation to improve the performance 
and safety of commercial nuclear reactors. I am interested in 
knowing what kind of relationship you have with CASL and 
encourage you to take advantage of the valuable work being done 
at ORNL?
    Ms. Svinicki. Congressman thank you for the question. I 
have had the opportunity to visit Oak Ridge during my service 
as a Commissioner. I did want to note that you mentioned the X-
10, the historic facility. I will say that as a bit of a nerd 
about science and someone who has studied nuclear science it 
was amazing to stand in that location and think about the 
atomic pioneers of the United States. So I am glad we have that 
type of preservation of facilities like that and I commend the 
folks at Oak Ridge for realizing that is a part of our history. 
My only regret is we could not get every middle school science 
student to come through there. I did meet with the researchers 
in CASL and they are an impressive bunch but I think very 
significantly not only in terms of what is happening in Oak 
Ridge CASL is a consortium and it involves research 
institutions across the country, academic and DOE national labs 
and I think that kind of synergistic leveraging is how we can 
afford to do the cutting edge science that we need to do. It is 
leveraging virtual collaboration across the country through 
high speed communications tools and getting time on super 
computers at various DOE labs. But I was energized about it, I 
did listen to the presentations with an eye of saying how could 
NRC leverage some of its research needs, I am not sure at my 
level I walked away with any dazzling ideas of my own about how 
that could be done but I think that the CASL consortium is 
moving our cutting edge knowledge on nuclear science in the 
right direction.
    Mr. Fleischmann. Thank you does anyone else wish to 
comment?
    Ms. Roybal-Allard. The NRC is organized into four distinct 
regions which oversee all licensees and facilities and while 
some of these regions have experienced nuclear reactor 
decommissionings others have seen an influx of nuclear power 
plant constructions. As part of the overall project game plan 
to enhance operational efficiencies have you looked at ways to 
incorporate these regional differences into future plans for 
the NRC and does it continue to make a sense to think about the 
NRC in terms of this regional distribution?
    Mr. Burns. I think the current regional distribution does 
make sense. Sometimes you get some questions about whether it 
might make more sense to say move the oversight of a particular 
reactor into a different region because you have other reactors 
operated by the same company in that other region. We once had 
five regions in the NRC. About twenty years ago we eliminated 
Region 5 which was primarily the West Coast and it is now 
overseen by our Region 4 that operates out of Dallas. What we 
have done with some of the regional offices is we have actually 
consolidated some activities into those regions. I am satisfied 
about where that is now. For example our Region 2 office out of 
Atlanta is doing new reactor construction over sight at the 
Vogtle and Summer plants and at the Watts Bar plant. They also 
do the fuel facilities across the country. Our Region 1 and 
Region 3 offices because that is where the bulk of the 
materials licensees that are still under direct NRC 
jurisdiction they have responsibility for that. So I think in 
the past we have taken some advantage of that leveraging in 
efficiency by consolidating some of those activities when the 
activity is not as prevalent in one of the regions. For 
decommissioning that is an interesting question but I think 
right now because you have activity in the various regions it 
probably makes sense to continue with that model. Because--in 
most of the regions that there is ongoing working in that area.
    Ms. Roybal-Allard. To improve the transparency and to 
simplify how the NRC calculates and accounts for fees and the 
timeliness of communicating fees which is a key process 
strategy of Project Aim. What specific measures has the NRC 
taken to improve transparency and engage with the regulated 
community and what actions have been taken to simplify how the 
NRC calculates these and what still needs to be done?
    Mr. Burns. We have been holding public meetings with mostly 
fee payers are probably most of the folks that come to that 
meeting as you would expect so our chief financial officer has 
been doing that. She is responsible for the development of the 
fee rule. We have been doing some things to align the fee rule 
more closely to our budget process and budget request so I 
think that helps transparency because you are not trying to 
interpret two different ways of looking at it. So those are 
some of the steps. We will be publishing soon the Fiscal Year 
2016 rule probably about the beginning of March. Again I think 
having some public outreach on that it takes some work but I 
think we are getting better at it.
    Ms. Roybal-Allard. Thank you.
    Mr. Fortenberry. Thank you. I am going to return to the 
earlier question particularly as you brought up the interaction 
you had with the International Atomic Energy Agency and 
standards setting worldwide. I see the IAEA as growing not only 
in relevance but prominence and necessarily so given the 
trajectory of nuclear and nuclear threats. The mission of the 
agency seems to be shifting from one of ensuring safety to one 
of ensuring nonproliferation and that is a very important 
shift. So explain your interaction with--this is a mysterious 
question to me how we do provide funding for them through a 
variety of means. Does any of that come from your agency?
    Mr. Burns. I will take the last question you asked. I think 
only indirectly in the sense that we provide experts who may 
attend meetings. Some are our technical experts. I attend the 
general conference that is held once a year as part of the US 
delegation. So my understanding, that's the primary way that 
they direct. The rest of it is through primarily the State 
Department budget. The Department of Energy probably has this 
in a similar way in terms of support. But I think primarily the 
funding comes through the State Department's support for 
international organizations. The first part of your question, 
our engagement again primarily is on civil nuclear safety, 
civil nuclear security and where that has interfaced with 
nonproliferation. IAEA has always had in a sense that dual 
role. In many ways when it was founded coming out of President 
Eisenhower's atoms for peace speech in the early 1950s part of 
the idea was to move down from nuclear weapons but make the 
availability of atomic energy for civilian purposes available 
and necessary. That is the primary place that we play a role in 
terms of participating in some of what I will call standards 
making activities. We also do that through the NEA and a good 
example of where standards and this is more on the--I will give 
you an example both on what I call a purely safety side as well 
as a security side. We adopt the IAEA transport regulations. 
They are guides and then we and DOT will adopt them and that 
helps in terms of protection of material both from a safety and 
security standpoint. The other thing for example and source 
security one of things going on before 9/11 because I think as 
Mr. Calvert noted it came out of the problems identified with 
basically abandoned material in the former Soviet Union. But 
then after 9/11 the new concern about terrorists getting 
material so there was an IAEA code of conduct which the US has 
subscribed to and in many ways our PAR 37 which is for source 
security reflects those types of ways of trying to protect and 
provide security over sources. So that is a quick illustration 
about we contribute, where we try to use the standards that are 
developed.
    Mr. Fortenberry. All of the questions I have asked are 
pointed at the need for all of to think strategically about I 
think to your earlier point we all do this we tend to get 
captured by what is in front of us rather than what ought to be 
or could be. Because of your clear leadership in terms of 
setting policy or enforcing policy that to me dictates a 
certain necessity of relying on you as well for strategic 
advice in this regard.
    Mr. Ostendorff. If I could say NRC staff frequently 
presents NRC-US industry best practices at IAEA conferences, 
workshops. We have staff that participates in leading missions 
to other countries to help try to show best practices to other 
countries trying to develop standards. I had a chance last June 
to give a major speech in Vienna talking about our cyber 
security practices--what we do in the United States--to the 
international community. Other Commissioners do similar 
outreach in their speaking engagements so I think we are very 
much aligned with your notion that we take a strategic 
leadership role.
    Mr. Fortenberry. Thank you.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, I began my questioning today, 
Chairman Burns, with asking you to grade the nuclear power 
industries safety and security for 2015 and you gave it a 
pretty good grade. In view of Congressman Lowey's questioning 
about the tritium leaks at Indian Point as we begin 2016 how do 
you think the industry is doing compared to 2015?
    Mr. Burns. It may be too early to tell but I think for the 
most part we have seen continued performance. The Indian Point 
issue is one we are following up on, but I would note again 
that we were informed of it by the licensee at a reporting 
below what was the mandatory reporting threshold. They are 
obviously in a highly charged environment up there and they are 
closely watched. But we will see issues in performance. I think 
we are on top of it and overall so far about six weeks into the 
year generally good performance.
    Ms. Kaptur. I want to ask a question following that on 
Project Aim and the relationship of that to corporate support 
and how we are ensuring the safety and security of our nuclear 
power production in this country. Can you expand on your 
comments so far about how you intend to ensure that project 
maintains or improves current safety and security requirements?
    Mr. Burns. Yes. Under Project Aim one of the other things 
that we have done besides the rebaselining report is we as a 
Commission approve what is called a strategic workforce 
planning and why that is so important I think is because it is 
having our human resources office in coordination with all of 
our staff technical offices focus on what are the technical 
skills we need to maintain as an agency so we can do those 
things we are expected to do. Inspect. Review license 
applications. Learn from operating experience and the like. 
That is one of the keys and that came out of Project Aim. When 
we talk about corporate support one of the things we were 
looking at through Project Aim is how to be more effective in 
providing the support to the staff, corporate support and 
overhead type activities. It is your computer, it is your 
office space you are in, it is the training. It may be the 
training that you undertake. We need to make sure our people 
are supported with those things, but what we have identified 
and that is what we are going to look at in this rebase lining 
report. I think primarily you are looking at a lot of areas 
where you may get administrative type efficiencies. We need to 
be careful as Commissioner Baran said that some of those that 
have the interface with the safety mission to make sure that 
making a decision--no we do not need to do that, that we are 
making a good, well informed decision.
    Ms. Kaptur. That is a concern because Commissioner Baran 
inferred that there might be fewer inspections. He kind of 
hinted at that. And in view of Ms. Lowey's situation and my 
personal experience--horrendous experience over 3 decades of 
service now with two massive problems at a nuclear power plant 
that I represent I have to tell you I am very concerned about 
the industry at a point where natural gas prices and oil prices 
are impacting what is happening across the energy industry. And 
some of these plants from a operating standpoint are facing 
additional pressures and economic pressures in the market place 
and so I am very worried about investment in equipment, 
personnel and so forth. And how does a tritium leak happen at a 
plant? How is it possible that the core cover--the reactor head 
at a plant in Ohio was eaten through completely by the boric 
acid reaction with the steel? How is that even possible to a 
point where it was quite dangerous?
    And so I am very worried about how you are protecting the 
safety of the public in view of what is happening in the 
marketplace. Do you want to comment on that?
    Mr. Burns. Where I think we maintain our presence and our 
oversight--particularly through our resident program sites--
when we have incidents such as Congresswoman Lowey described at 
Indian Point where we send out specialty inspectors and have 
that type of reactive inspection that is where we are providing 
substantial value in the inspect area and those are the types 
of things we are not pulling back under Project Aim.
    Maintaining that core staff, undertaking that 
responsibility remains at the centerpiece and the central point 
of our activities.
    Ms. Kaptur. Well Mister Chairman you also in your budget 
you talked about training and staff and so forth and I in my 
first round asked about trained personnel. Your budget does not 
include an appropriation for the integrated university program 
for high level nuclear engineers and I asked you about other 
trained personnel who are actually on the ground in these 
plants moving between plants and how they are trained. I am 
going to--and there is nothing specific in the budget on that, 
but I am going to ask you for your regions to provide for the 
record the types of relationships the NRC has for its training 
programs with various apprenticeship programs, community 
college programs, through its integrated university program 
with universities.
    I want to know what you are doing because I think the 
pipeline is very haphazard. And I can tell you for the plant 
that I represent if it were not for the workers--and these were 
not nuclear engineers that went into that plant in the 1980s 
and the 1990s we would have had a nuclear mishap there.
    So that training is so important and because of their work 
we were able to remediate two very serious situations in both 
decades requiring an enormous investment by the private sector 
to upgrade those plants.
    I have fought for so many years unsuccessfully in this 
Congress to have more robust nuclear training programs. And I 
will tell you it was the plumbers and pipe fitters, it was the 
electricians that risked their own lives not knowing what was 
happening that saved us. And I want to give them more primacy 
in your budget and more direct relationships for training. Just 
know that. I continue to work for that. I would love to have 
your cooperation, but I will ask for that information for the 
record.
    I am going to turn a little bit here to another question. 
Can you tell me do you maintain records of the waste heat that 
is generated by your various nuclear power plants around the 
country or could you obtain it for me, the ones that you 
regulate. If something is coming out of a big stack what is it 
and how much is it?
    Mr. Burns. I would have to give you something for the 
record on that.
    Ms. Kaptur. All right, very good. And finally a simple 
question and I do not want to go over on my time, Mister 
Chairman, on Ukraine, does the NRC have any relationship or 
collaboration ongoing with instrumentalities inside the nation 
of Ukraine?
    Mr. Burns. Yes and I ask Commissioner Ostendorff to 
supplement my answers since he visited Ukraine last year, but 
we do have some bilateral arrangements with them and we provide 
a cooperation and advice to them and I know I will pass it to 
Commissioner Ostendorff because he was there last year.
    Mr. Ostendorff. Thank you. The answer to your question is 
yes we do.
    Ms. Kaptur. Ok.
    Mr. Ostendorff. And at several levels. We have had 
Commissioner visits, various Commissioners. I was the most 
recent one there in June of last year working with a regulator 
and talking about the importance of an independent regulator 
with technical competence. We have had our security folks go 
over there to provide offers of assistance for security 
training. There is a video teleconference that occurred just 
this past fall between our senior staff and Ukrainian regulator 
staff to look at questions they have about trying to resume 
construction of the Khmelnitsky Plant about 4 hours west of 
Kiev. And how did we look at similar resumption of construction 
activities at our Watts Bar plant in Tennessee.
    And I think we have a very healthy dialogue going on right 
now. We as a commission will have meetings with their head 
regulator Mr. Bozhko here in about three weeks when we have our 
annual regulatory information conference. He is coming to that 
in Rockville so I think that relationship is very alive and 
robust.
    Ms. Kaptur. I would ask for more specificity on that either 
privately or for the record.
    Mr. Ostendorff. Sure, we can provide more details.
    Ms. Kaptur. I do have another question Mister Chairman but 
I want you to have the ability to rotate to other members.
    Mr. Simpson. Mr. Visclosky, if you would like to go ahead 
and ask the other question and I can wrap it up.
    Ms. Kaptur. Ok, this is really my last question and that 
concerns the continued storage of spent nuclear fuel. The 
commission extended the length of time assumed to be safe for 
storage of spent fuel at reactor sites from 30 to 60 years and 
I am very interested in your opinion as to how that will impact 
the safety and security of the public. It assumes that we 
cannot find a storage site for this material.
    Mr. Burns. Yes, madam. That decision that you refer to 
relates to an environmental review that we are required to do 
with respect to licensing. It is not a decision in favor of 
extended storage. What it says is that from an environmental 
standpoint, from a safety standpoint it can be safely done, it 
can be safely done. That decision is actually in litigation 
here.
    Ms. Kaptur. I was going to ask you about that.
    Mr. Burns. Yeah, it is in litigation here and I think in 
the D.C. Circuit Court of Appeals.
    Ms. Kaptur. If the challenger succeeds in their argument do 
you believe the court should side with the challengers and what 
would be the impact to the rule and by extension operating 
plants.
    Mr. Burns. Well, I think the court should side with the 
agency on that. They are challenging our decision. I think the 
four of us are comfortable with the decision we made. It is 
hard for me to speculate what the court--if the court agreed 
even in part with the petitioners it is hard for me to 
speculate what that would mean--that they may remand it to the 
agency for further evaluation, they may issue some sort of an 
order. I would not want to speculate too far because there is 
multiple things that the court could possible do.
    But we are confident that we reached an appropriate 
decision on the matter that was put before us and again I want 
to emphasize it is not a decision that was intended to reach in 
effect a license for an interminable period of time or to 
encourage that type of approach to ultimate treatment in 
handling of nuclear waste.
    Ms. Kaptur. Thank you very much and thank you Mister 
Chairman. Thank you all for your testimony today.
    Mr. Simpson. A couple of questions, one, what are your 
estimated carry over balances at the end of this year?
    Mr. Burns. I believe at the end of this year--there is none 
from fiscal 2016 if I am articulating this right. We plan to 
fully obligate for '16. We have some carry over from prior 
years. I believe the total is maybe up to about $25 million--
about $13 million fee based. That is what I understand.
    Mr. Simpson. So this budget request does not assume use of 
any of those funds in the budget request that you currently 
have as carry over funds?
    Mr. Burns. Yes, that is correct. It does not.
    Mr. Simpson. Secondly, on the rule making, and frankly I 
would like to commend the Commissioner for choosing to modify 
the NRC stats for the proposal on rulemaking so that it fully 
reflects the direction we provided in the Omnibus. Rulemaking 
is significant authority under the law and the Commission 
should assume the responsibility of that authority early in the 
process as you all have mentioned you are starting to do in 
your testimony. Do you expect that we will receive the rule 
making plan no later than the March 15th deadline and that it 
will reflect the requirements outline of the Omnibus.
    Mr. Burns. Yes, I do expect you will get it by that date 
and it will conform to the language. It will be consistent with 
the language provided in the report.
    Mr. Simpson. The committee received a report in January 
that indicated that the Commission now has 43 proposed rules 
pending instead of 93. Can you please discuss what happened to 
change the number of the rules and do you expect the number to 
reduce further once the new rulemaking plan is implemented?
    Mr. Burns. Actually I have been talking to my colleagues 
about supplementing that report. The report that we gave you 
focused on what was expected to be worked on in fiscal 2017. I 
think the number is higher. We are going to provide you a 
supplemental report. What we did not include in that report is 
some things like petitions for rulemaking and other things.
    We need to get you some more up to date and better 
information about that. The other aspect just to highlight one 
other, there are some things that if you look at what is 
technically a rule making activity in front of the agency 
includes some things that are sort of long suspended, there are 
no activities on it, but I think in the interest of full 
disclosure and transparency we are going to give a supplement 
to that report.
    Mr. Simpson. Is there any challenge in not having a fifth 
member of the Commission or decisions being postponed because 
there are splits of two to two or anything like that because we 
do not have a fifth commissioner that has been approved?
    Mr. Burns. I have not experienced--I think we worked well 
together. I do not know of anything we have put off because we 
do not have a fifth commissioner.
    Ms. Svinicki. As the longest serving current member of the 
Commission I would note I have served on a Commission of four, 
Commission of three, a Commission of five, back to four again. 
Five works well and Congress set us up at five for the kind of 
natural advantages you are talking about. It does help clarify 
outcomes, but I think actually the pace of doing the business 
before our agency I have to say candidly I am extremely 
impressed with how effectively I think this group of four even 
with the disadvantage of maybe a 2-2 and that has occurred. I 
do not mean to indicate that has not occurred since we went 
back down to four, but there are ways we have of determining 
that outcome. Often it goes back to staff delegated authority 
so I would say that maybe not speaking to whether or not we get 
a fifth, but I think this four is gosh-darn impressive.
    Mr. Simpson. Thank you, Ms. Kaptur do you have one other 
thing?
    Ms. Kaptur. Yes, I just want to reiterate if I might to the 
Chairman and the members that based on what is happening in the 
marketplace with energy prices I would urge you to consider 
developing an economic model that can anticipate the impact on 
given firms economic performance based on what is happening in 
the energy markets and the likelihood that they would not be--
they would be less likely to invest because of what is 
happening and to have a rating that you look at and you can 
identify out of the dozens of plants that are operating because 
I have a concern that there is going to be cost cutting and a 
lot of things are going to have to be done that might impact 
safety, so I would just urge you to consider that suggestion. 
Thank you.
    Mr. Simpson. Let me just say in conclusion thank you all 
for being here and I am not one who is frankly easily impressed 
but I got to tell you in all honesty I have been impressed by 
you all. I appreciate the fact that you have tried to follow 
the Congressional direction or intent that we put in the 
language and tried to work with us on that. I know of a lot of 
agencies in the Federal government that could learn a lesson 
from the way that you have implemented this last budget and 
have been working with Congress. I appreciate that very much. I 
do not expect that you all agree on everything. If that were 
the case three of you would not be necessary, but it seems to 
me that you hash things out and try to come to a solution and 
that when you come to a solution you all say okay, that is what 
we are going to do and I appreciate that because it restores 
the credibility that had been deteriorated in previous years in 
the NRC and the one thing that is very important with the NRC 
is your credibility. Not only what you do but your credibility 
around not only this country, but around the world.
    I appreciate the work that you do. I look forward to 
working with you as we implement this budget, as we continue on 
to progress with Project Aim and trying to right size the 
agency. I say that as one who supported increases in the NRC 
budget over the years when we saw the nuclear renaissance 
coming and we wanted to make sure that we had the personnel and 
everything so we were ready to license these things. 
Circumstances have changed so I appreciate the fact that you 
are willing to recognize that and work with us to maintain the 
right size of the agency and look forward to working with you 
and implementing this budget as we move forward. Thank you all 
for being here today.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Wednesday, March 2, 2016.

                  DEPARTMENT OF ENERGY, APPLIED ENERGY

                               WITNESSES

FRANKLIN ORR, UNDER SECRETARY FOR SCIENCE AND ENERGY, DEPARTMENT OF 
    ENERGY
JOHN KOTEK, ACTING ASSISTANT SECRETARY FOR NUCLEAR ENERGY, DEPARTMENT 
    OF ENERGY
CHRISTOPHER SMITH, ASSISTANT SECRETARY FOR FOSSIL ENERGY, DEPARTMENT OF 
    ENERGY
PATRICIA HOFFMAN, ASSISTANT SECRETARY FOR ELECTRICITY DELIVERY AND 
    ENERGY RELIABILITY, DEPARTMENT OF ENERGY
    Mr. Simpson. The hearing will come to order. I would like 
to welcome our witnesses, Dr. Franklin Orr, Under Secretary for 
Science and Energy, John Kotek, Acting Assistant Secretary for 
Nuclear Energy, Pat Hoffman, Assistant Secretary for 
Electricity Delivery and Energy Reliability, and Christopher 
Smith, Assistant Secretary for Fossil Energy. This past summer 
the President announced ``Mission Innovation'', a pledge to 
double the investment into clean energy research and 
development over the next five years. Together, your programs' 
budgets represent the majority of where these increases would 
take place in order to meet the President's goal. An ``all of 
the above'' strategy would propose that all of the programs 
within the ``Mission Innovation'' category would receive a 20 
percent raise each year in order to attain the goal of doubling 
clean energy research and development in the pledged five year 
period.
    However, that is unfortunately not the case. In fact, the 
EERE budget receives a 50 percent increase when comparing funds 
in the ``Mission Innovation'' category to last year's level. 
This generous and unbalanced increase is proposed while the 
budget request reduces Nuclear's clean energy activities, and 
drastically reduces total funding for Fossil. In looking at the 
overall request it is clear that ``Mission Innovation'' is 
another attempt by the Administration to provide massive 
increases to the EERE budget at the expense of other Applied 
Energy technologies. A more balanced approach would fund 
emerging energy sources and support the reliable energy sources 
that we count on today.
    Each of you has an important role in managing and 
developing the future of these diverse energy sources. I look 
forward to hearing how your vision supports a balanced approach 
and continues to make investments in our energy future. Please 
ensure that the hearing record, questions for the record, and 
any supporting information requests by the subcommittee are 
delivered in final form to us no later than four weeks from the 
time you received them. Members who have additional questions 
for the record will have until close of business on Friday to 
provide them to the subcommittee office. With that, I'll turn 
to my ranking member, Ms. Kaptur, for her opening statement.
    [The information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. Kaptur. Thank you, Mr. Chairman and good morning. Dr. 
Orr, great to have you back here. Secretary Smith, again, and 
Secretary Hoffman, thank you for being here today, and Mr. 
Kotek. We are so glad that you are all here today and thank you 
for being here to present your 2017 program request. I am very 
sorry that Dr. Danielson could not be here today. I know all of 
our prayers go out to him and his family during this very, very 
trying time.
    The research and development of energy technologies your 
programs have generated is revolutionizing everything around 
us, so we are living it in real time. The Vehicle Technology's 
office works to find ways to lightweight our cars, allows us to 
stretch each gallon of gas. Your new building codes are making 
our homes and places of work more efficient and more 
comfortable. The unbelievable growth of the fracking industry 
which originated from your research and has brought America 
back to the forefront of the world's energy producers, and has 
significantly reduced our dependence on foreign oil truly is 
transformative. And the boom in renewable energy is 
breathtaking, and I am so proud to have a leading silver 
company in our district that is reaping the benefits, First 
Solar. I was there at its birth and I have seen its growth, and 
I know its future is going to be exponential.
    As Secretary Moniz noted yesterday, there are now 208,000 
direct jobs in the solar industry. Two hundred and eight 
thousand. If you had asked somebody 30 years ago would that 
even be possible they would think that you were some science 
fiction movie.
    These accomplishments in your work are truly bringing 
America into its new future. I am just glad I am given the 
opportunity to live during years to witness it. Too few 
Americans recognize just how important the role of the 
Department of Energy is in protecting our national security, in 
addition to being one of our most important tools to deal with 
the changes in climate that affect our environment. Our coastal 
dwellers certainly know that, and people in other parts of the 
country do too, such as those of us on the Great Lakes that 
have seen the very difficult challenge of algal blooms threaten 
our fresh water systems.
    With that in mind, I am happy to see that in your final 
budget request of this administration your goals are just as 
ambitious as ever. Our Nation has made significant strides 
towards a new energy reality. Yet, they are but the first steps 
in the marathon of reaching energy independence for our 
country, and thus strengthening our national security and 
achieving carbon neutrality. The energy innovation championed 
by your offices holds the key to unlock the full potential of 
America's modern clean energy economy, and we look forward to 
hearing your goals for advancing our Nation's sustainable, 
diversified, and self-reliant energy future.
    As I said to the Secretary when he was up here this week, 
one can look no further than my district where in our region we 
see a company like Nature Fresh from Canada come and make a 
$175 million investment in a new, I think about 200 acre, 
undercover production for vegetables using the CO<INF>2</INF> 
off of North Star Steel. I am telling you, this thing is 
delivering tomatoes and peppers to Kroger Company this month 
for the first time. It is astounding to witness the changes, 
the way our private sector is transforming based on a new 
energy future. So I am just so excited about what you do and we 
look forward to your testimony today. Mr. Chairman, thank you 
for the time.
    Mr. Simpson. Thank you. Dr. Orr.
    Mr. Orr. Chairman Simpson, Ranking Member Kaptur, members 
of the subcommittee, thanks for the opportunity to testify on 
the Department of Energy's 2017 budget request for the applied 
energy programs. Before I get started with the details I would 
just like to say thanks for all the support that you provided 
in the Consolidated Appropriations Act of 2016 which, of 
course, we are in the middle of working hard on now.
    Joining me today, of course, are my colleagues. As Ranking 
Member Kaptur noted, Dave Danielson was called away for a 
family emergency, but the Deputy Assistant Secretaries are here 
with us, and if there are detail questions they will be able to 
help us get past those.
    As we meet here today, our Nation stands at an important 
point in the transition to a clean energy economy. Cost 
reductions and technological improvements are leading to 
increased deployment of clean energy technologies. If you just 
look at the last 7 years, the cost of utility scale portable 
tag solar power has declined by 59 percent. The cost of power 
purchase agreements for wind power fell 66 percent, and 
deployment of energy efficient LED lights went from 400,000 
lights to over 35 million with a corresponding reduction in 
price of 90 percent. So that tells you something about what 
some combination of research and technology developments and 
deployment at scale can really do.
    Yet, work obviously remains to enhance the energy security 
in U.S. clean energy competitiveness while we work on global 
climate goals at the same time. It is in this spirit that the 
President is joining in an unprecedented global initiative 
across 20 nations to commit to doubling public clean energy 
research and development known as Mission Innovation. This is, 
of course, complemented by a private breakthrough energy 
coalition, and no doubt, lots of other investors as well. A 
private sector-led effort to mobilize patient capital to 
support clean energy technology is emerging from the R&D 
pipeline. It is an opportunity to bolster the innovation 
ecosystem that has been so productive for this country over the 
years.
    The Department of Energy Science and Energy programs invest 
in all stages of innovation across a diverse portfolio of clean 
energy technologies. This work is aimed at fundamentally 
enhancing American economic competitiveness and securing 
America's long term energy security in an environmentally 
prudent manner. The National Laboratories are key contributors 
to this work, and they provide the Nation with strategic, 
scientific, and technological capabilities that are very 
important to our future. The applied energy programs make use 
of the expertise that exists in the labs and, of course, 
strengthen it going forward. At the same time, they work with 
partners across government and industry to research, develop, 
demonstrate, and deploy innovative clean energy technologies.
    The Department's 2017 request takes the first step in our 
effort to double the clean energy R&D effort over 5 years. It 
includes key new initiatives such as the regional energy 
innovation partnerships, a desalination hub, national-lab focus 
initiatives including small business partnerships. I will also 
mention the request is built on technological foundations that 
came from our 2015 quadrennial technology review. I am forced 
to advertise for that because it was a lot of work. It 
actually, of course, has been hugely important as we thought 
about all the different ways we could invest the research 
portfolio. So it is based on kind of an analytical systems 
based analysis that really did play an important role in our 
budget debates.
    The overall science and energy request is $12.9 billion 
which is $2.8 billion above the fiscal year 2016 enacted level. 
The applied energy portion of this request is $5.1 billion to 
advance the state of technological capability and enable the 
clean energy future. And as the Chairman noted, this is a big 
part of what is counted in the Mission Innovation area. In 
fossil energy this means continuing to develop our carbon 
capture and sequestration capabilities, and improving the 
performance of natural gas infrastructure. In nuclear energy we 
are moving forward on licensing small modular reactor designs, 
advanced reactors, and implementing the President's nuclear 
waste management plan with consent-based siding. I am sure we 
will talk more about that as we go forward.
    In the renewal space this means continuing to drive down 
the costs of solar, expand the deployment of wind power, and 
take advantage of the Nation's hydropower and geothermal energy 
resources. As I know, the Secretary has noted for you a number 
of times, in the end it is about driving down costs, so energy 
is woven through every bit of the fabric of modern societies, 
and societies that do a good job on making the cost be low and 
be competitive will be ones that thrive going forward.
    New in this year is 21st century transportation initiative 
to scale up clean transportation R&D that involves some things 
that we have worked on already, but continues the effort on 
batteries, biofuels, and automation. In energy efficiency, it 
means increasing the efficiency of home appliances, but also 
making industrial process and manufacturing more efficient as 
well. Again, those reduce costs in ways that benefit the whole 
economy.
    Critical to bringing all these clean energy technologies to 
homes and businesses across the country is the Nation's power 
grid. And we are continuing to invest in this through our grid 
modernization initiative and through advances in energy storage 
and cyber security. To leverage the expertise the department 
holds across these programs we are also working to continue to 
build productive links across the agency. One of the ways we 
have done this is through cross cutting initiatives. The 
current initiatives include efforts on the energy water nexus, 
exascale computing, supercritical CO<INF>2</INF>, subsurface 
science, clean energy manufacturing, and grid modernization.
    We introduced this model in fiscal year 2015 and a number 
of those efforts have grown and matured since. A good example 
is the grid modernization cross cut which has led to a proposal 
of a grid modernization institution, and also our recent 
announcement of $220 million in grid modernization projects to 
be spent over the next few years. Building on the crosscuts' 
successes so far this year, we are also introducing a new cross 
cut on advanced materials. I would be happy to talk about that 
more later if you wish.
    Today the Department's portfolio investment will drive 
innovation and technology advancement that is essential for 
economic growth enabled by affordable, clean, and reliable 
energy. And with the increased momentum on the international 
stage I believe we will look back on this period as one of 
significant acceleration in the transition to a clean energy 
economy. The fiscal year 2017 budget supports this transition, 
and my colleagues and I would be pleased to answer questions 
that you may have about the request, so thank you for this.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
     
    Mr. Simpson. Thank you. Do others of you have opening 
statements?
    Mr. Orr. No.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much. I wanted to 
ask Dr. Orr, first on sustainable water utilities, your budget 
request includes $9 million for work in energy efficient 
resource recovery in water supply and waste water 
infrastructure. I also note you have a desalinization 
initiative. Desalinization does not affect the Great Lakes, but 
I will tell you, algae does. Particularly in Lake Erie, but 
recently in the Ohio River last year. And when I asked the 
Secretary the other day about this issue of the Great Lakes 
versus the coasts, salty water versus fresh water the answer he 
gave was, well, look at our proposal for regional centers.
    But I am asking you, in terms of what our urban water 
systems are facing in places like Toledo, a place called Carol 
Township, Ohio which had to shut down its water system a couple 
of years ago because of algal blooms. What Sandusky faces, 
Loraine, and ultimately, Cleveland. This is a big issue for us. 
The algae is being produced because of excess of nutrients. But 
I am really interested in how the Department of Energy might 
look at this region to deal with the daunting challenge, 
certainly we will see it this year, of a watershed that is 
being heavily impacted by algae, and where our utility plants 
are spending enormous amounts of money. Not just on chemicals, 
but on electricity to do what they have to do to provide pure 
water, and frankly, treat the waste water. So my question is, 
for the $9 million for your work in energy efficient resource 
recovery in water supply and waste water infrastructure can you 
outline what you are hoping to achieve with this funding? And 
if I can get you a little bit to think about the Great Lakes I 
would sure appreciate it.
    Mr. Orr. We could actually have a good time with this topic 
for a long time but I suspect our time will be limited but I 
will just say a couple of things. One, that this question of 
how we take water that, I mean one extreme is ocean water but 
there is a lot of stuff in the middle, there is produced water 
from the Utica shale in Ohio that is less saline than ocean 
water.
    There is, you mentioned the waste water treatment area. In 
one sense, waste water contains a series of nutrients and 
chemicals. The nutrients that you mentioned that come from 
fertilizer use are one thing and so the possibility exists to 
recover some of those resources that can be useful at the same 
time that we are purifying water, the place where the desal 
idea comes in is that there are kind of multiple steps in 
getting to a pure water stream or a water stream that can be 
useful for agriculture or for cooling at a power plant and so 
on.
    And we are really trying through this initiative to look at 
each of those pieces so particularly the water that is in 
preparation for--that might come from waste water or non-
traditional water, dealing with the energy requirements that 
are in the waste water streams as well, those really fit in 
this whole question of how we use energy and water together so 
I think that they are very much in the purview of the energy 
and water nexus.
    Ms. Kaptur. This is not under your energy and water 
initiative, this is a separate----
    Mr. Orr. But I am actually making the argument that they 
really are connected because the way--I mean right now, if you 
just take the ocean water as one thing, there is plenty of 
water but you spend energy to get the salt out of the water and 
that is really true of any other material that is in the water 
that we do not want to be there and algae fits within that, so 
thinking about the energy use of all of these processing steps, 
particularly the early ones where you would have impacts across 
the whole country and not just in drought places.
    Ms. Kaptur. We each represent a place and I would urge you 
as you think through how this initiative, along with the energy 
water nexus initiative is going to work, to seriously look at 
Lake Erie. It is the shallowest of the Great Lakes and because 
of climate change, without ice cover in the winter, there is 
more evaporation and because we have the largest watershed in 
the entire Great Lakes that dumps into Lake Erie with all those 
nutrients, we have a huge problem and the amount of those 
nutrients is increasing. This cannot continue, it simply cannot 
continue and we have now had alarming things happen with our 
freshwater systems; meanwhile the plant operators are spending 
more and more on electricity to do what needs to be done to 
provide a freshwater supply to people so it is really at a 
tripwire stage.
    Mr. Orr. And this is actually a place where I actually do 
agree with the Secretary that one of the ideas behind the 
regional efforts to understand the combinations of energy and 
water use is really because there are these differences. The 
specific applications that you are talking about are ones that 
involve a combination of energy and water that is quite 
different from what might exist in Arizona for example so the 
regional focus in those modeling efforts is a chance to look at 
those kinds of problems.
    Ms. Kaptur. And a lot of what I have read about algae, 
usually what goes on is they have to produce new algae to 
create fuel where you are looking at biofuels but here you have 
this stewpot that is already out there. I do not know if we can 
collect these materials; that is another issue but I would like 
to stop them from flowing into, we actually need to arrest them 
from flowing into the lake.
    Mr. Orr. We probably want to look at the upstream 
fertilizer use too as another way to get at some of the same 
problems.
    Ms. Kaptur. And the resource recovery issue which you kind 
of hinted at, I read an article recently about phosphorous over 
the next--already we are in a phosphorous deficit situation 
globally and what it is going to require would be phosphorous 
recovery in order to help our farmer that needs a bit of 
refinement maybe on the second round you can talk a little bit 
more about how you view the energy water nexus, what progress 
you have made since it was first discussed in the 2014 report 
and I will wait for the second round to do that. Thank you, Mr. 
Chairman, thank you.
    Mr. Fleischmann. Thank you Mr. Chairman and good morning 
everyone. It is good to see you all again and I appreciate all 
of the kind words in our earlier visit about Oak Ridge and I 
represent the third district of Tennessee and I am going to 
start with you, Ms. Hoffman because Chattanooga is also a very 
large city--I was pleased to hear of your visit last week at 
the Oak Ridge National Lab for a roundtable discussion on the 
Department of Energy's grid modernization initiative with a 
number of electric power officials from my Congressional 
district.
    I was particularly glad that you met with representatives 
from both Chattanooga and Oak Ridge and other localities in 
between. Could you please talk about the grid modernization 
initiative, both the challenges and opportunities for our 
country, what lessons have been learned between the partnership 
between Chattanooga, the electric power board with its smart 
grid, Oak Ridge National Lab and the Department of Energy, 
ma'am?
    Ms. Hoffman. Thank you very much, Congressman. I really do 
appreciate it and I did enjoy the visit to Oak Ridge and having 
a roundtable discussion with a lot of stakeholders in the 
region.
    The grid modernization initiative is a strategy that the 
Department has pulled together looking at the integration of 
renewable resources, energy storage, Microgrids, data 
integration and one of the things that we are trying to do is 
work very closely with the regions where they are at to how 
they can expand some of their capabilities in advancing the 
grid activities.
    Some of those include partnerships with buildings and 
looking at that data and how the data can improve the 
efficiency and the operations of the electric grid but also 
looking at how it can improve better customer services so some 
of the activities in the regions, the importance of the grid is 
very apparent with the electric power board at Chattanooga and 
some of the projects that they are looking at from a Microgrid 
point of view as well as their data integration for reliability 
and resilience.
    Mr. Fleischmann. Thank you so much. Mr. Kotek, the small 
modular reactor program will help promote our leadership in the 
use of nuclear power worldwide and represent significant 
investment in first of a kind engineering for small modular 
reactors in the United States. Can you please update the 
subcommittee on the progress made towards preparing for the 
eventual commercialization of SMRs and what is your assessment 
of the current market for this emerging industry, sir?
    Mr. Kotek. Thank you very much for the question. Very 
pleased with where we stand with the current work we have going 
on and the SMR program, our request this year, for fiscal 2017 
will complete our funding commitment to new scale for the 
development and certification activities for the new scale 
design.
    We expect to see them submit a design certification 
application to the Nuclear Regulatory Commission by the end of 
this calendar year. In terms of potential users and a market 
for that technology, as you may know, we are currently engaged 
in some site specific work looking at particular locations that 
our utility partners may want to use for construction and SMR, 
one of course is TDH site in Tennessee. The other is a 
construction called UAMPS, Utah Associated Municipal Power 
Systems which is looking at a series of potential sites in the 
west, including a couple of sites at the National Laboratory 
Site.
    I was very pleased that a couple of weeks ago, we were able 
to reach an agreement with UAMPS on a site use permit that 
would allow the private entity to potentially use locations on 
National Laboratory site which could offer them advantages in 
terms of site characterization data, access to infrastructure 
and other benefits.
    So we are seeing in the U.S., utility interest, as you may 
know there are several states that are now starting to consider 
SMRs as a potential vehicle for them to meet future electricity 
demands.
    We are also hearing more interest internationally in the 
potential use of SMRs, which may offer very attractive low 
carbon, actually zero carbon life cycle alternatives for 
countries with maybe smaller electrical grids where it does not 
make sense to build two units of 1,000 megawatts each or 
something.
    Of course, I expect that interest to firm up more as the 
new scale design goes through the design certification process 
and is a product which can actually be ordered which is still 
several years down the road but I am very pleased with the 
progress thus far so thanks for the question.
    Mr. Fleischmann. Yes, sir. I have another question for you, 
sir. I know you have had a few visits to the Oak Ridge National 
Lab this past year and I hope you have had a chance to see the 
nuclear facilities that support the Office of Nuclear Energy 
and the Office of Science.
    It has been challenging that ORNL has not received adequate 
nuclear infrastructure funding in the administration's budget 
request for many years.
    I understand this is a complex situation but now the office 
of science is having to fund more than its fair share. On a 
related issue, the lab's nuclear activities generate low 
volumes of liquid radioactive waste. This waste is processed by 
the office of environmental management as part of Legacy Waste 
Management on the Oak Ridge reservation.
    I am told the systems used to process this waste will be 
decommissioned and this will require ORNL to develop and 
operate a new radioactive liquid waste treatment system.
    If this system is not operational by 2020, ORNL's nuclear 
missions are at risk due to the lack of a waste disposal 
capability. Is there a path forward on this problem, sir?
    Mr. Kotek. Thank you, sir, for the question. Everything you 
just talked about, really, touches on the question of funding 
for those facilities.
    Of course, that has been an issue that we have dealt with, 
both this committee and the counterparts on the Senate over the 
last couple of years. This year, we have gotten, I believe the 
number is 26 million dollars in the Office of Science budget, 
up from I think it was 12 in last year's request so there has 
been an attempt by the Department to address the funding 
challenges there.
    With respect to the question of fair share, as an example, 
what we call the doors open costs for the facilities that we 
have in Idaho at the Idaho National Laboratory, we fully fund 
those out of the nuclear energy budget even though NNSA science 
and other programs might use those facilities, they will pay 
for the incremental costs of their programs but in terms of the 
base operating cost, say the door is open, waste management, et 
cetera, I think it is fair to say that we have taken a similar 
approach here with the facilities at Oak Ridge and the Science 
budget. I think our science counterparts are here this 
afternoon, is that right?
    Mr. Orr. Yes, we will be back this afternoon.
    Mr. Kotek. And so they may have more that they may want to 
add on that subject at that time, thank you.
    Mr. Fleischmann. Thank you, sir. One final question, Dr. 
Orr, I would like to talk about the success of the 
manufacturing demonstration facility at ORNL. They are doing a 
terrific job and have attracted a number of businesses that are 
coming to work and solve big manufacturing problems.
    The Department of Energy budget goes into some length about 
mission innovation for clean energy.
    The budget proposes this as a new initiative to establish 
regional innovation and partnerships called Regional Clean 
Energy Innovation Partnerships.
    Can you please tell me how the advanced manufacturing 
office and the MBF might fit into this initiative with the lab 
and the University of Tennessee, the MBF and the advanced 
composites institutes?
    We already have a lot of original capabilities, how would 
these play into the proposed initiative, sir?
    Mr. Orr. Well we will certainly continue the very 
successful effort that is in the advanced manufacturing arena 
and the composite at Oak Ridge is a prime example of ways that 
you can take the scientific capabilities of a place like 
Oakridge and make them available and build an ecosystem around 
them.
    The regional partnerships overlap in some ways and not in 
others but the idea there is that if you take assets like 
universities and entrepreneurial communities and national labs 
that are distributed around regions in the country, that they 
will look at the combination of energy challenges and 
opportunities that they have and those challenges and 
opportunities will be different depending on where you are. If 
you are in Maine, then maybe it is wind, offshore or not, and a 
whole variety of approaches that fit in the area there. If you 
are in Southern California, it is a different energy challenge 
and a different set of opportunities to deal with and a 
different set of assets to put to work. The idea would be to 
create some non-profits that would manage a local energy 
ecosystem research effort that would benefit that area and 
would undoubtedly have benefits beyond as well but to take 
advantage of both the heterogeneity around the country and the 
creative juices of all the people that can work on things that 
matter for their areas but we will still continue to invest in 
things like the advanced composites institutes because those 
have their own ways to contribute in a more specific way.
    The regional partnerships would be technology neutral in 
the sense that they would go beyond the specific application.
    Mr. Fleischmann. Thank you, Dr. Orr. Mr. Chairman, I yield 
back.
    Mr. Simpson. Ms. Royal-Allard.
    Ms. Roybal-Allard. Thank you all for being here. The DOE's 
Weatherization Assistance Program is a critical program that 
helps low income families retrofit their homes to become more 
energy efficient, ultimately reducing the cost of their energy 
bill.
    In fact, the DOE evaluation of the Weatherization Program 
found that a single family--a home saved, on average, $283 per 
year.
    Meanwhile, DOE's Building Technologies Program works to 
advance technologies and practices to make buildings in the 
U.S. energy efficient.
    To ensure that beneficiaries of the Weatherization 
assistance program are receiving the most up to date and 
effective building technologies, does collaboration exist 
between the weatherization assistance program and DOE's 
building technologies program?
    Mr. Orr. Indeed, one informs the other and we are certainly 
wanting to do the best job we can in terms of both providing 
efficiently and at the same time taking advantage of what we 
have learned on how to do this across the building space.
    Kathleen, do you want to add anything to that? This is 
Kathleen Hogan who is the Deputy Assistant Secretary here and 
has this in her purview.
    Ms. Roybal-Allard. Ok well let me just add to that and 
maybe you can answer. Once the building technologies program 
identifies effective technologies, how quickly are they 
introduced into the market and how are they adopted by the 
Weatherization Assistance Program?
    Also, if you could maybe comment on what sorts of new 
building technologies you are phasing in for the Weatherization 
Assistance Program in 2017?
    Ms. Hogan. Sure, so as Dr. Orr spoke, there is a lot of 
collaboration between these two efforts and when we work with 
the Weatherization Program, the thing to keep in mind is that 
when the community action agencies that field the cruise to go 
in and do the audit look at the opportunities in those homes, 
they do have to identify opportunities that have a positive 
savings to investment ratio so we are always talking about the 
technologies that are up and coming and what can deliver on 
that positive savings to investment ration in low income homes 
so there have been any number of technologies but also sort of 
improved practices because some of the things that are 
providing the greatest savings in weatherization are things 
like improved insulation, improved home ceiling, just really 
getting the things that are, you know, letting the conditioned 
air leak out of the home, the really low cost measures that can 
give sort of the deeper savings to the low income homes.
    I think some of the technologies we are looking at, include 
things like windows, higher efficiency air conditioning, type 
measures. I think we are also looking at the opportunity for 
renewable energy in the regions of the country where that can 
make sense as well.
    Ms. Roybal-Allard. Thank you. According to the DOE, 
addressing soft costs like financing, permitting installation, 
labor inspection, another non-hardware cost provides the 
greatest opportunity to spur strong U.S. growth in solar 
deployment in coming years.
    In an effort to make solar deployment faster, easier and 
cheaper, the DOE's Solar Market Pathways, which began in 2014, 
is a program that supports solar related projects.
    In fiscal year 2017, the DOE plans to build upon the 
success of the Solar Market Pathways program and supports six 
to ten new awards. How do they activities proposed in 2017 
apply to the Nation as a whole and are you ensuring this 
research is not replicating or subsidizing work that is more 
appropriate in the private sector.
    Mr. Orr. Thank you for the question, it is an excellent 
one. I think that the cost evidence indicates that the hardware 
costs have come down more quickly than the related costs, and I 
know this to be true from my own experience installing solar 
cells at my house in California, and that there is an 
opportunity on both sides. We have not given up on the 
fundamentals of photovoltaics. We know that there is still more 
to be done there, and there is some really exciting work with 
perovskites, for example, that could lead to real cost 
reductions in the future.
    But at the same time a parallel effort like the one you 
described which looks all the ways that the process slows down 
and, therefore, costs more, these are regulated at State and 
local levels and so, in one sense, creating some best practices 
and a competition amongst places to figure out how to 
streamline the process, offers some ways to get to a more 
efficient process and, therefore, to lower cost. So we think 
that the appropriate thing to do is to work on both sides of 
the equation because we know that this can be done more 
efficiently.
    Ms. Roybal-Allard. Mr. Chairman, I am not sure if I have 
time for another question or not.
    Mr. Simpson. Go for it.
    Ms. Roybal-Allard. Go for it? Ok. Dr. Orr, the budget 
request contains a new request for funds to support the SMART 
Consortia Initiative within the Vehicle Technologies Office, 
yet does not expand on these efforts. The SMART Consortia 
Initiative is part of the Smart Cities efforts announced by the 
President last year to invest in technology collaborations to 
help local communities reduce traffic, foster economic growth, 
improve the delivery of city services, and manage the effects 
of climate change. Can you outline what exactly the vehicle 
technologies office proposed to fund in support of this effort?
    Mr. Orr. Mm-hmm. So, I am going to have to ask for help on 
that, but I will start by saying that one of the things that we 
learned in doing the Quadrennial Technology Review was thinking 
about energy systems offered some ways to be much more 
efficient. And if you think about cities and the way we have 
complicated systems that supply electricity, some more that 
supply water, that deal with wastewater, and that move all of 
us around, and all of those are linked together in interesting 
ways, so figuring out how to look at those systems as systems, 
and look for the efficiencies that come from being able now to 
deploy sensors and use advanced computing to manage these 
systems, that there are real opportunities there that we are 
only kind of just beginning to figure out how to work on. So we 
are taking this area as one example of ones where we can make 
some progress and learn how to do it better at the same time.
    So, let us see, Reuben, I guess you are the right one. This 
is Reuben Sarkar.
    Mr. Sarkar. Reuben Sarkar. Thank you for the question. Just 
to build on what Dr. Orr had said, within DOE and within the 
transportation sector, we do not exactly have a program called 
Smart Cities, per se. Smart Cities is the vernacular that is 
used by a number of agencies to describe data-driven cities, 
and the ways that we can use controls and information to make 
cities more efficient.
    What we do have is a Smart Mobility program that is going 
to be part of our Transportation as a System program, and 
builds on our component level of research which looks at the 
efficiency of an individual vehicle and takes it up to the 
level of how do we make future mobility systems more efficient 
when we think about things like connected and automated 
vehicles, a multimodal transportation, and the convergence of 
IT systems into cars.
    And so our Smart Mobility program is a multi-lab consortia, 
part of our Transportation as a System program, and it is very 
complementary to the work that is being done by other agencies, 
like DLT and their Smart Cities challenge, but it looks very 
specifically at how do we optimize the energy benefits that we 
get when we look at all of these future mobility systems, these 
new business models that are coming, both in the movement of 
goods, and, as well, in the movement of people.
    Ms. Roybal-Allard. Ok. What did you do to ensure that you 
did not duplicate any efforts from the Department of 
Transportation? Was there some coordination?
    Mr. Sarkar. Yes. So we do both joint program briefings in 
which DOT comes and briefs us on their efforts and then we 
brief them on ours. We also recently hired a lab M&O contractor 
from the National Renewable Energy Lab from DOE and we embedded 
them with DOT on their Smart Cities team. And we use that 
person as the liaison to make sure that we are coordinating our 
activities and that what we are investing in is a very high 
value to what DOT is investing in.
    Ms. Roybal-Allard. Ok. Thank you.
    Mr. Sarkar. Thanks.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and welcome. Dr. Orr, I 
have a question about energy efficiency programs, and much of 
the focus on energy efficiency goes towards large power 
consumption devices, such as appliances and motors through the 
Energy Star programs. But the proliferation of consumer 
electronic devices means their energy consumption is adding up 
to a very significant level, especially if you go global. 
Furthermore, the vampire devices that continue to draw power 
even when they are not in use are adding to consumer utility 
bills and our overall energy usage as well as our resources. 
So, what is your office doing to address this ever-growing 
concern that I have?
    And then with regard to energy efficiency in manufacturing, 
saving energy cannot only reduce cost, but also reduce climate 
and environmental impact. What is your office doing to help the 
Nation's small- and medium-sized manufacturers to become more 
efficient?
    Mr. Orr. Well, you are absolutely right that energy 
efficiency is something that offers lots of benefits and often 
ones that pay off economically with shorter payback times than 
lots of the other investments, so it is a really important 
area. I am going to ask Kathleen Hogan to talk about the 
specifics of the appliance efficiency standards with respect to 
how they apply to the so-called parasite or vampire devices, I 
guess, is what they are called.
    But I will note that, in general, that the efficiency 
standards that we have worked on have had a real impact in 
saving lots and lots of money for consumers and, at the same 
time, reducing greenhouse gas emissions. So it is an area that 
really does deserve considerable effort and we will continue to 
do that.
    Kathleen.
    Mr. Honda. In your response would you also address where we 
are at in improving the energy process, the Energy Star 
program? Because I think that there are ways that we can double 
the efficiency, but I do not know where we are at and what 
needs to be done, whether it is going to be industry-driven or 
Energy Department-driven.
    Mr. Orr. Well, the one thing I would say there is that in 
establishing the energy efficiency standards we actually do 
work quite closely with industry. It is a process that Kathleen 
can describe in more detail.
    Mr. Honda. Thank you.
    Ms. Hogan. Yes. Terrific. So, as you point out, this is a 
big problem, and one of the reasons it is a big problem is 
because there are so many types of devices that are out there. 
So you are always looking for the common elements where you can 
find energy efficiency opportunities, and that is really where 
the appliance standards have come into place. We have had 
appliance standards for external power supplies or things that 
have, you know, that power supply element. We can work with 
industry to find the appropriate standards there.
    We also have an ongoing rulemaking for battery chargers, 
sort of another area to look for improved efficiencies. We 
also, in our fiscal year 2017 budget, are proposing a new 
research and development area for miscellaneous electric loads 
that would leverage the great work we are doing in our advanced 
manufacturing office around something called wide bandgap 
materials, or also called, potentially, sort of like 
semiconductors. It is the next generation of semiconductors, 
right. So the extent that we can make semiconductors much more 
efficient, we can really drive down the energy use of all of 
these miscellaneous energy loads, so an exciting opportunity 
there.
    Mr. Orr. Say a word, Kathleen, too, about the business 
competitions for reducing energy use and the energy-efficient 
businesses.
    Ms. Hogan. Just working more broadly with industry to drive 
down their loads.
    Mr. Orr. Yes. Yes. But we have also worked with a variety 
of businesses to challenge them to reduce their energy 
consumption as well, and then publicize what they do.
    Ms. Hogan. That is right.
    Mr. Honda. So, perhaps, to the chair, I request that we can 
get together and sit down and go through the myriad of efforts 
that is going on, and also maybe look at converting that into 
cost savings in terms of the kinds of fields that is necessary 
to generate just--that will be saved because of this 
efficiency. I have a question on waste energy. Dr. Orr.
    Mr. Orr. Mm-hmm.
    Ms. Hogan. You know, I just checked the Zero Waste Energy 
Development Company operates the first large-scale commercial 
dry fermentation anaerobic digestion facility in the United 
States. This facility can process 90,000 tons of organic waste 
per year. That is just about wet waste. It generates about 1.6 
megawatts of clean energy. Now, this type of facility not only 
keeps tons of wet garbage and green waste out of landfills, but 
also diverts mixed construction waste and debris for recycling 
and reuse. Replicating this innovative approach to recycling 
and landfill diversion will move our country to a more 
sustainable future.
    Can you explain to me how DOE intends to help both maintain 
our existing WTE infrastructure and capitalize on the potential 
of the WTE technology in meeting the Nation's renewable energy 
and GHG emissions goal.
    Mr. Orr. Well, I cannot explain it to you, but I bet one of 
my colleagues can. I would just say that being able to do that 
kind of thing, this is kind of the putting together of 
technologies that offer combinations. So they are kind of 
hybrid things that really do--just as a credit to a bunch of 
smart people.
    But, Reuben, can you help us on this?
    Ms. Hogan. Ok, Reuben is a smart guy, huh?
    Mr. Sarkar. Yes. In our bioenergy program, we have included 
both municipal solid waste as well as wet waste streams as part 
of our feed stocks that we are having for our next-generation 
pilot and demonstration programs that will be coming soon. And 
so we have bio solids to bio power represented in the next 
pilot and demonstration programs.
    Ms. Hogan. Well, we have one already established. How do we 
go about replicating and scaling up this kind of a process 
where you are actually doing 90,000 tons a year? And that is 
only a portion of our city. And if we can incentivize or create 
more programs like this, we generate the process where we avoid 
landfills, filling and base, avoid the smell and odor, and 
things like that. Is there a place where we can go to to use 
this as an example for replication?
    Mr. Sarkar. Yes. And maybe, just so I can clarify, our 
integrated bio refinery program, which is part of our 
demonstration and market transformation program, we will be 
conducting both pilot and demonstration-scale plants, so taking 
things from lower-scale, less integration, and moving them up 
into larger-scale facilities.
    And the goal is that demonstrating at a higher scale will 
then lower the technical risk and will provide access to more 
bank financing or financing through the loans program. And our 
goal is that once you demonstrate the lower risk of a 
technology and the viability, then you are able to then 
replicate those plants at others.
    Ms. Hogan. But if we are able to do that already, what is 
the next step?
    Mr. Sarkar. Within the bioenergy program, we fund only up 
through the demonstration-scale facilities and not all the way 
into the commercialization phase for plants. I can follow up 
and get you a more clear answer.
    Mr. Orr. And I would just say that, you know, in the end, 
it is about cost, so continuing to work to reduce costs means 
the ability to deploy more widely, that when municipalities see 
that it is in their interest to do this, they will.
    Ms. Hogan. To the chair, if I may, can we invite you to 
come down to the district and look at this, so you can help me 
articulate better how we do this, so replicate this throughout 
the other communities in the near future?
    Mr. Orr. Yes. We will look to figure out some way to do 
that.
    Ms. Hogan. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I apologize that I am 
late. We are having hearings around here everywhere, at the 
same time, but we cannot help that. But I have a couple of 
quick questions.
    Obviously our grid, our electric grid, and I apologize if 
this question has already been asked, has become more complex 
over the years and certainly we have more challenges, extreme 
weather events, and now we have all these different sources of 
power, solar cells on everybody's roof, changing the dynamics 
on how the grid operates.
    I hear from the various electric providers that this is 
causing them all kinds of engineering problems and so they need 
to make various fixes to it. So I guess the question would be, 
how is the grid today? Do you look at it as resilient and 
capable of doing this job in the future?
    Mr. Orr. I would say that we are partway through the 
process of modernizing the grid to be as effective as it can 
be. Partly through the Recovery Act, for example, we install 
lots of sensors known to the technical experts as synchro 
phasors, but these tell us about voltage and frequency and kind 
of the state of the grid. That helped us be able to identify 
problems as they were developing and respond to them more 
quickly. But there is actually quite a lot more that we can do.
    As the fraction of renewables grows, as more distributed 
generation appears, that offers both some challenges and some 
opportunities. As we use storage to provide batteries or flow 
batteries or some things like that as a way to provide some 
balancing on the grid, those are all opportunities that we have 
to figure out how they work, both physically, but also from a 
market standpoint, and so our Office of Electricity is working 
hard on these things. I'll ask Pat to join me in responding 
here just for a moment. It is the reason we have created our 
Grid Modernization Initiative and our Grid Modernization Lab 
Consortium. We have 14 of our national labs working on various 
components on this, and we have a 5-year, multiyear program 
plan that is aimed at really improving services, improving 
efficiency, and at the same time, making the grid more reliable 
and resilient and able to recover more quickly when bad things 
do happen. So it is a very important effort for us.
    Pat, do you want to add to that?
    Ms. Hoffman. Yes, I would, thank you. Thank you, 
Congressman, for the question, and I think the grid is 
undergoing a transition, and like any transition, we have to 
help with the process as we move forward. California has 
reached its first 10,000 megawatts per hour ramp rate in 
California. Also, we have had a request for 1.3 gigawatts of 
energy storage on their system. I think California represents a 
leading edge of what is to come. The reason the Department of 
Energy did the Grid Modernization Initiative was really to take 
a look at the integration of distributed energy resources, 
renewable technologies, but also find a way to effectively 
integrate that, but to deal with some of the challenges that 
are occurring on the system. So part of the budget request, 
which is looking at grid modernization, which is the 262 
request from OE and the budget request that is coming from 
EERE, we are integrating those aspects of renewable energy 
resources, looking at energy efficiency, looking at how we can 
better manage demand on the system. So these are great 
opportunities to provide the flexibility that the grid 
requires, but it is a work in progress and it is efforts that 
we will continue to work on.
    Mr. Calvert. Ok. I appreciate that. One other quick 
question, I know we spend a lot of time talking about solar and 
wind. We have some automobile companies that are, especially in 
California, moving forward with hydrogen technology, especially 
Hyundai has some technology that they are excited about, but, 
obviously, the infrastructure, just as we had with electric 
cars, is woefully not there. There is no way to power up your 
Tesla as you are going up the 5 freeway in California. So are 
there any plans for hydrogen vehicle infrastructure and where 
do you see hydrogen vehicles going? Do you think that it is a 
workable technology? I know Mercedes is putting a lot of money 
into that.
    Mr. Orr. Yes, I am going to pass to Reuben here in a 
moment, but I will say that this is one of those really 
interesting areas where there is a real competition. If you 
think about an electric vehicle, there, you are storing the 
energy on the vehicle in a battery, and then that drives an 
electric motor. A fuel cell vehicle is one where you store the 
energy in the hydrogen and then put that on the vehicle and 
then use a fuel cell to convert that into electricity to drive 
the vehicle. So they are competing technologies.
    There is interesting progress on both sides, and we will 
see what that diversity in the marketplace provides. There are 
now charging stations are appearing around the country. I would 
say overall on the hydrogen side, they are probably more 
limited on the hydrogen side for now than the electric side, 
but it is definitely a competition. Reuben, do you want to add 
to that?
    Mr. Sarkar. Yes, I will just build on it a little bit. As 
mentioned, hydrogen builds on an electrified platform, so there 
is benefits for electric vehicles as is for hydrogen. We do 
work in two areas. One, as you mentioned, there is already 
vehicles on the road, and so we are actually supporting the 
deployment of those stations in places like California. Through 
our H2USA public-private partnership, we have about 45 
companies and agencies involved in developing the expeditious 
process for rolling out those stations in places like 
California, first on examples, working on safety codes and 
standards, trying to get standard reference designs for 
stations. We have developed equipment that can qualify stations 
very quickly and enable us to actually deploy those hundred 
planned stations much more rapidly. Then on the research side, 
we continue to drive down the cost of fuel cell systems on 
vehicles by lowering the amount of precious metal catalysts and 
things that we have onboard the vehicle, and at the same time, 
lowering the cost to store hydrogen off the vehicle at 
stations.
    Then lastly, the biggest nut that we are working on 
cracking is renewable hydrogen from advanced sources. We 
already can make renewable hydrogen from solar and wind today, 
and if we can push down the cost further through advanced 
water-splitting technologies, you have an opportunity to really 
deeply decarbonize transportation, and so we work on it both on 
the deployment side with the cars today as well as on the long-
term research side.
    Mr. Calvert. Good. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. First, let me ask, following up on 
the grid and modernization of the grid, we act as if we own the 
grid; we don't. The grid is privately owned by private utility 
companies. What is our role in helping modernize the grid? When 
you say ``we are partway,'' what do you mean? The private 
sector is partway? What is our role in helping the private 
sector do this? I understand there are BPA and TVA but the line 
that comes to my house is owned by Idaho Power.
    Mr. Orr. You are exactly right that it is complicated. The 
players range from utilities that generate the electricity in 
both investor-owned and the regulated utilities. There are the 
wires themselves and the transmission and then the distribution 
system, which often can be owned in separate ways, and then 
there are the regional balancing authorities that make sure 
that there is enough generation on the grid and that the whole 
thing is operating and stable. You are absolutely right that we 
are not the regulator, but, in some ways, that gives us a way 
to be a convener for the conversation amongst all these 
players. There are regional differences and some significant 
efforts going on to understand how it should work in particular 
markets. We can participate in all those conversations in a way 
that is harder for the Federal Energy Regulatory Commission to 
deal with or the state public utilities commissions. We can 
help conduct that conversation, and we can do research on the 
components that they need to do all this at the same time that 
we recognize that maybe the only thing that is more complicated 
in its regulatory approach is water, I think, because that goes 
right down to the community level. But, nevertheless, I think 
it is both an opportunity for some experimentation and some 
demonstration of what we need to learn, and the challenge as we 
figure out how to make it all work together.
    Pat, correct whatever I said that was wrong.
    Ms. Hoffman. Thank you, Mr. Chairman, for the question. 
With respect to the grid, yes, it is owned majoritively by the 
utilities and other entities out there and we do not own the 
grid. The issue that it comes down to is, how do we invest in 
new technology while minimizing risk for those entities? So 
there are a couple things that as utilities are looking at the 
integration of whether it is wind, it is how do they evolve 
their system to be able to keep pace with the demands of the 
new technologies that are coming on the system, so a couple 
things.
    With respect to grid technologies, we want to help reduce 
the cost of the technology. We want to de-risk the technologies 
so that the grid operators can install these technologies more 
cost-effectively based on rate payers and consumers and----
    Mr. Simpson. But, ultimately, it is up to them to install 
it.
    Ms. Hoffman. It is up to them to install it, but we can 
help bring down the cost and we can bring down the risk. The 
other area is that the grid is a network system, that Idaho 
Power is connected to the Western Interconnect, and there are 
issues that would affect Idaho Power would affect the rest of 
the Western Interconnection. So how do we look at those systems 
issues from a wider area so that the utilities can advance 
their technologies but also be a part of the system so that 
they do not affect the rest of the system as they invest in 
these technologies? So those are a couple things that the 
analytics that we do support where technologies can be best 
placed on the system, the value of the technologies, and how we 
can improve the resilience of the grid writ large.
    Mr. Simpson. Tell me about the Grid Modernization 
Institute. What exactly will it do? I think you have requested 
$14 million for that in the budget.
    Ms. Hoffman. So thank you for the question. The Grid 
Modernization Institute is a core part of our mission 
innovation area with the Office, but what we would exactly like 
to do is focus on high-risk components that we need to have 
manufacturing in the United States to support. I know that, at 
least some of the numbers that I have seen, is the utilities 
will invest probably close to a trillion dollars over the next 
20 years in upgrading components on the electric grid. What we 
would like to do with the Manufacturing Institute is take a 
look at some of those high-risk, hard, difficult-to-manufacture 
components and focus the Institute on investing and 
manufacturing for those type of devices or components. For 
example, one might be magnetic materials to help with cores and 
transformers. Transformers are a very difficult component to 
manufacture. We need more transformer manufacturing in the 
United States. Another area might be in the wires, the 
transmission and distribution wires of low resistivity 
materials so that we can actually get additional capacity and 
more efficiency in our transmission and distribution system. So 
those would be the efforts and the topics. We would run some 
workshops to fine-tune whether this is the best topic, but this 
is just an example of some of the things that we would look at.
    Mr. Simpson. So you would do research into those arenas?
    Ms. Hoffman. Yes, yes.
    Mr. Simpson. Mr. Smith, not to leave you out of this 
conversation, since fossil fuel seems to be the major source of 
energy in this country, let me ask you a couple of questions.
    Your office proposes to increase the STEP program, which 
seeks to realize more efficient electrical power generation 
from the use of a super critical fluid in the generation 
process. The increase would fund the initial design and 
construction of a pilot facility to demonstrate the use of this 
fluid.
    Due to the more near term deployment of this technology in 
the fossil energy field, the STEP initiative has been managed 
out of your office. However, coordination efforts are still 
ongoing with the Office of Nuclear Energy and Solar Energy 
Office in EERE.
    Can you update the committee on those coordination efforts 
and describe how they are incorporated in the long-term plan in 
this technology?
    Mr. Smith. Thank you very much, Mr. Chairman. So, in Dr. 
Orr's introduction, he talked a little bit about the cost 
cutting initiatives that cut across the offices within the 
Department of Energy.
    So, this is actually an excellent example. We do have a 
cost cutting initiative which is for the Supercritical 
CO<INF>2</INF>, the STEP initiative. That is co-chaired by the 
Office of Fossil Energy and the Office of Nuclear Energy, so we 
work very closely on that initiative.
    Nuclear Energy released an RFP in the first quarter of 
2016. That is going to then feed into the work that EERE is 
doing. We are going to have a FOIA that we put out some time in 
March leading ton an award that will be made some time in the 
fiscal year, probably in September. The hope is that we will 
move forward on construction some time in the following year. 
So, again, very close collaboration between the Office of 
Nuclear Energy and the Office of Fossil Energy.
    We have noted that this technology is applicable to 
renewables, it is applicable to fossil energy, it is also 
applicable to nuclear energy. When you look at the different 
fuel sources used, the greatest efficiencies for a 
Supercritical CO<INF>2</INF> we expect to occur in the 
temperature ranges that would be fossil applications, so that 
is why the highlight has moved from nuclear energy to fossil 
energy.
    Again, we work very closely with the Office of Nuclear 
Energy in executing this project, and in doing the research 
together.
    Mr. Simpson. John, do you have anything to say on that?
    Mr. Kotek. No, other than just to echo what Chris said. It 
is working very well from our perspective, and of course in 
addition to that cooperation, we have a little bit of work 
looking at the specifics of how you would link up a nuclear 
system through an energy conversion system like this. So, a 
little bit of work there, but the most of what we are doing is 
in cooperation with his office.
    Mr. Simpson. Mr. Smith, the Bipartisan Budget Act of 2015 
directed DOE to complete a strategic review of the Strategic 
Petroleum Reserve and to develop and submit to Congress a plan 
for modernization of the reserve.
    What is the current status of the review, and do you expect 
to meet the deadline of early May?
    Mr. Smith. Mr. Chairman, thank you for the question. 
Certainly, we do expect to meet or exceed that deadline for 
May. We are working on that right now, and expect to get it to 
the committee shortly.
    Mr. Simpson. I know this is before the report comes out but 
do you anticipate there would be recommendations for fiscal 
year 2017 in the report, and if so, if it is the May deadline, 
it may be too late because we are moving with the budget as 
quickly as possible.
    Mr. Smith. Understood. So, we understand there is a May 
deadline that was input in the language. We also understand 
there is an opportunity to influence the ongoing process. So, 
we do expect to be able to move more quickly than May to get 
something back to the committee. In fact, that process has 
started within the Department of Energy and in our 
collaboration with OMB. So, that is ongoing in real time as we 
speak. We expect to be, as we noted in our congressional 
justification, submitting an amendment to our budget very 
shortly.
    Mr. Simpson. The Bipartisan Budget Act of 2015 established 
an Energy Security and Infrastructure Fund. That authorization 
allows appropriations' acts to direct the sale of up to $2 
billion worth of oil from the reserve and to use the proceeds 
for the construction, maintenance, repair, and replacement of 
strategic petroleum reserve facilities.
    The budget request does not include use of this 
authorization, however. The budget request includes an increase 
of $45 million or 21 percent for the Strategic Petroleum 
Reserve. It is described as necessary to address the backlog of 
major maintenance activities.
    Why did we not use the fund that was created to do this in 
the budget request?
    Mr. Smith. There are two areas that we are looking at 
funding, our base budget, including the additional $45 million, 
which is to handle deferred maintenance, which we see as being 
essential for the immediate operation of the Strategic 
Petroleum Reserve.
    So, this is the ongoing maintenance and deferred 
maintenance to ensure that the Petroleum Reserve is able to 
operate as it is intended.
    In addition, we are expecting to submit an amendment to the 
fiscal year 2017 budget, which will be for modernization of the 
Strategic Petroleum Reserve. That would include life extension, 
and that would also include modernization of----
    Mr. Simpson. Somebody is calling ``bull'' on that.
    That is wind energy.
    Mr. Smith. But I would also include the modernization of 
docks and to increase the distribution capacity of the 
Strategic Petroleum Reserve. That is the scope of the work that 
would be included within the budget amendment.
    Mr. Simpson. Ok.
    Mr. Orr. A simple way to think about this is we need to 
keep the dern thing operating in order to sell the oil that it 
takes to generate the income to do the big picks.
    Mr. Simpson. Mr. Kotek, I have not called you that in a 
long time.
    Mr. Orr. Has he called you worse?
    Mr. Simpson. No, I have never called him worse. I just have 
known him for a long time. What is the general health of the 
Advanced Test Reactor in Idaho, and has it adequately been 
funded to provide maintenance and upgrades necessary for it to 
last, and what projects and upgrades to the ATR are still 
outstanding but are not proposed in this year's budget request?
    Mr. Kotek. Thank you, sir, for the question. Of course, the 
ATR is central to both my programs in the Office of Nuclear 
Energy and to the work of the Office of Naval Reactors.
    One of the first things that I got into deeply when I came 
back to DOE about this time last year was to ensure that we had 
a plan in place to adequately invest in the long-term safe and 
efficient operations of that reactor. Both we and the Office of 
Naval Reactors see a need for that facility out until the 2050 
time frame.
    So, what we have done is we have worked cooperatively with 
the Office of Naval Reactors and with the laboratory to put in 
place a 5 year rolling strategy focused on improving the 
reliability and predictability of ATR operations.
    Of course, the Congress in the fiscal 2016 budget provided 
additional funds beyond what we had already requested, which we 
will use to accelerate some of the work that we had identified 
in that plan.
    We have in our request for this year fully funded the 
activities that we had identified to be conducted in fiscal 
2017 as part of that plan. The increase we received in fiscal 
2016 came after we had put the 2017 plan in place.
    We will work with Naval Reactors and with the contractor to 
ensure that those funds are spent efficiently and at the 
highest priority for the long-term safe operation of the ATR 
because it is just essential to a wide range of DOE missions.
    Mr. Simpson. In this year's request, the Integrated Waste 
Management Systems account is proposed to fund two distinct 
activities, storage and transportation R&D and consent-based 
siting activities.
    In previous years, the focus of the Integrated Waste 
Management Systems account was on a generic research and 
development applicable to Yucca Mountain and other waste 
solutions.
    Does this new proposal still maintain this focus, and how 
much of this research and development applies specifically to 
Yucca Mountain and how much applies to an interim storage 
facility?
    Mr. Kotek. Thank you, sir, for the question. The $76.3 
million we have for the Integrated Waste Management System is 
roughly split 50/50 between activities focused on consent-based 
siting and then work on nuclear fuel storage and 
transportation, which would be applicable regardless of what 
site was chosen for the ultimate storage or disposal of fuel.
    Of course, we do not have anything specifically tied to 
Yucca Mountain in our request, but we are looking at being 
ready to transport fuel, for example, when we are in a position 
to start moving fuel, for example, from shut down plant sites 
to consolidated storage, which of course, we have set as a 
priority.
    On the consent-based siting side, about $25 million that we 
have requested would be intended to be used for grants to 
states, tribes, local governments, potentially others that are 
interested in learning more about what it would mean to host a 
facility, either for storage or disposal, and either for 
civilian waste or defense waste repository sites, to help them 
understand what those challenges might be so that they can 
decide for themselves whether they might be interested in over 
the long term becoming what we call a ``willing and informed 
host.''
    Mr. Simpson. So, I guess your legal counsel has made a 
determination of how far down that road we can go before we get 
the roadblock of not allowing the department to look at interim 
storage?
    Mr. Kotek. Well, the language in our request in the fiscal 
2016 request speaks to continuing to lay the groundwork for the 
consent-based siting process, and of course, what we are 
embarking on now is a series of public meetings and other 
activities designed to get input from states and others as to 
what should be considered in the design of a consent-based 
siting process.
    For the fiscal 2017 request, we have in our language 
specifically said we now want to move forward with 
implementation of that process.
    Of course, as you point out, there is a need for new 
legislation to do a number of the things that we have included 
in the administration's strategy, assure access to the Waste 
Treatment Fund, setting up a new organization, an independent 
organization, and other things.
    Mr. Simpson. Well, I would just add I am not opposed to 
that. We are going to have this type of thing regardless of 
what happens with Yucca Mountain. We have to face that reality 
at some point in time, that we need a facility, more than one 
facility, as a matter of fact.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I wanted to go back, 
Dr. Orr, to the issue of municipal utility systems, and ask, do 
you or any of your colleagues have any example at DOE on where 
the department has worked with a local municipality to make 
their energy use more efficient by reducing their energy costs 
for water and wastewater treatment?
    And in doing so, integrating the full range of Department 
of Energy technologies that might involve a new conduit, grid 
modernization, on-site installation of renewable energy 
technologies, including sensors, and implementing wastewater 
resource recovery so that we can recover essential elements, 
such as phosphorus, in the organics that result at the end of 
the treatment process?
    Do you have any example literally where the department has 
put its full weight behind transforming a community's utility 
system?
    Mr. Orr. Well, it is an excellent question and I need to 
ask for some help. Kathleen, are you on the hook for this one?
    Ms. Hogan. So, we have a number of engagements where we are 
assisting states and municipal governments through a variety of 
programs that we have, focusing on their water treatment and 
wastewater treatment to improve energy use.
    So, one very applicable technology is combined heat and 
power, right, where you can get the biogas recovery from 
anaerobic processes, trap the energy, use it on-site, and get 
substantially reduced energy bills for that wastewater 
treatment facility. We also have been working through our 
renewable energy program and have some solar applications.
    I think, as you are highlighting, that is not necessarily 
the full soup to nuts type of thing that can happen at a 
wastewater treatment facility, but we are trying to think 
through as part of the energy-water nexus what would be a 
fuller suite of opportunities for the Department of Energy to 
engage in, as well as with our partner agencies. So, certainly 
EPA would have an important role in these types of efforts. So, 
we have some of this thinking underway.
    Ms. Kaptur. First of all, thank you for the fine work you 
do, and I hope you keep thinking along those lines because as I 
said to the Secretary, one thing I have noticed, I have served 
on almost a majority of the subcommittees of the Appropriations 
committee in my career, and one of the startling facts for the 
Department of Energy as critical as your work is, I have found 
a remarkable lack of sensitivity to place, and your authorizing 
legislation probably does not give you full weight in that 
regard.
    I have found lots of separate programs, but no integration, 
and certainly at the community levels at which we work, and I 
think Congressman Honda was referencing some issues this 
morning, and I think the chairman was.
    I think your department has in some ways been cordoned off 
from that kind of thinking to relate to regions and places. I 
think you have a lab perspective, which is critical for the 
work that you do, but it is a little bit hard to integrate your 
programs, and I do not think it serves America as well as it 
could.
    If you need additional authorizing power, let us know. I 
think when you create something like an energy-water nexus that 
gives you the ability to integrate.
    Along those lines, let me also ask about the weatherization 
program. Congresswoman Roybal-Allard asked about the program. 
Again, here, do you have any examples of communities that have 
benefitted from weatherization assistance in accessing it 
through the states, but have developed robust local 
partnerships that use all of DOE's energy programs to help 
revitalize and target those dollars to neighborhoods, not just 
individual homes, but integrating your technologies along with 
those weatherization programs through workforce training and 
development, in places where these investments are made, 
accessing historic preservation, which is not your job but it 
exists out there, grid modernization, where it is possible, 
recapture of waste energy where possible, installation of 
renewables where it is possible, sensors where it is possible.
    So, again, will you target that weatherization in a way, 
even though it is a smaller program, where it really can have a 
major impact?
    I will just say in one of the regions I represent, there is 
a historic neighborhood. Unfortunately, the weatherization 
program, it comes in and does its thing, but what it could do 
if it could link these other assets that you have and other 
partners--it could do so much more.
    It seems to be unable to do that because the dollars flow 
through the state and the state is a long way from 
neighborhoods, at the local municipal level, let's say.
    So, do you have any examples where that broader approach 
has been taken, to your knowledge?
    Ms. Hogan. So, I would again say this is an active 
conversation at the department. We understand the importance of 
addressing communities as holistically as possible.
    I would point to one of the parts of our budget which is in 
the Office of Weatherization and Intergovernmental Programs. We 
are asking for a community oriented program where we could 
integrate this more holistic thinking in terms of solving the 
issues that are facing communities and really focusing on 
neighborhood revitalization opportunities where clean energy 
can really help be part of that goal.
    Ms. Kaptur. Literally, I represent neighborhoods where 
there is waste heat right near these homes, and there is no 
thinking about how to work with industry. The weatherization 
program comes in here, it does not connect at the local level.
    So, I would urge you. We put extra money in the budget for 
2016 for weatherization. I do not know if your authority allows 
you to try to create some pilots around the country where you 
try to integrate programs. Please let me know if something 
prevents you from doing that. I do not think you are having 
maximum impact.
    Ms. Hogan. We will certainly take those words. Again, we 
are thinking through how to field an effort with partners 
across the country so we can bring those partnerships together. 
The weatherization program does have very strict rules in terms 
of when money is put into the weatherization program.
    It goes out in formula allocations to help the states, with 
the community action agencies, to deliver the weatherization 
services, and I think we look at the weatherization program as 
a very important network and set of activities that are 
happening in the community, but we agree with you about the 
importance of a broader set of partnerships that can leverage 
that or bring other things to the table to help these 
communities.
    Again, we are actively thinking this through and would love 
to come back and talk with you once we have done a little more 
thinking.
    Ms. Kaptur. Thank you for your openness to that very, very 
much. I think we could do something to modernize what is 
happening out there in the country.
    Finally, in terms of industrials, to change the subject to 
industrial assessment centers, Dr. Orr, I am glad to see the 
ongoing support for these. I would like to hear a little bit 
more about it, but I wanted to put this on the record this 
morning.
    I probably represent one of the largest automotive 
platforms in the country. I represent the largest Chrysler Fiat 
plant on the continent, with the manufacturer of the Wrangler 
and the Cherokee. I also represent General Motors' sole 
transmission facility, where we have moved from V4 to V6 to V8, 
and we are going up to V10, and becoming more energy efficient, 
serving all of its product lines.
    I represent GM's plant at Parma, Ohio, also. I think all of 
my automotive plants would benefit by your expertise in helping 
them save on their energy bill. Those components going to the 
Cruze, one of our most efficient GM vehicles. I represent 
Ford's breakthrough EcoBoost plant at Brook Park, very 
important in the energy efficiency of Ford, and also I 
represent their heavy truck plant at Avon Lake, Ohio, that was 
repatriated from Mexico.
    So, it would be great to have some kind of a forum where we 
could look at the combined energy use. One of the GM plants has 
put a solar roof on their facility. To help these companies, 
which can go global at any point and outsource their 
production, to look at energy and figure out hey, what can we 
do here to secure this manufacturing, critical manufacturing, 
for our country.
    So, if there is something you could do through this 
industrial assessment center to look at corridors like this. 
Just down the road is the General Dynamics tank plant. You 
know, we have big manufacturing in our region.
    Ask the question of how can the industrial assessment 
centers be used to help small and medium facilities look for 
energy savings opportunities?
    Mr. Orr. I actually would like to ask Kathleen to respond 
to that, if you do not mind.
    Ms. Hogan. We can take that on. Certainly, the industrial 
assessment centers have the opportunity to help small and 
medium facilities look for energy savings opportunities 
generally within the region, right? So they are a regional-type 
center. In addition to the industrial assessment centers we 
have efforts, as Dr. Orr was referring to earlier, where we 
will work directly in partnership with major companies to help 
them better understand and manage their energy use through 
things like our better buildings, better plants effort. And we 
have had tremendous success working in partnership and helping 
these organizations find savings on the order of 20 percent to 
25 percent, you know, over a set of years as they, you know, 
strategize over the right investments to make. So we are happy 
to engage in this conversation.
    Ms. Kaptur. Every day when I am home I drive by the--and I 
am not criticizing--I am just reporting that the Chrysler 
facility, Chrysler Fiat facility at Toledo there is a big 
methane plume that just keeps burning off. And I see that and I 
go, is this really the best thing we can do? And I keep looking 
at what is going on across the region in these big plants, and 
so I will look forward to that, and I thank the Chairman for 
his forbearance on this. It is really important to our area.
    Mr. Simpson. I have not heard a problem here that a small 
modular reactor could not fix. Mr. Fortenberry.
    Mr. Fortenberry. Speak about the problem of small modular 
reactor, I do not want to go there on this one. I want to talk 
about renewable energy in a macro sense in terms of both 
capacity and the storage issue, and then implementation in a 
micro sense, the distributed generation, even down to the home 
owner level. I live in Nebraska. We get about 7 percent of our 
energy from wind. The surrounding states vary from 20 percent 
to 30 percent. We have got a little bit different model for 
energy generation in that we have a public power system and 
some transmission infrastructure challenges that I think have 
precluded the rapid development of wind.
    But, nonetheless, the cost of wind has come down 66 
percent, I understand. What do you foresee, in terms of your 
own research, in terms of potential further declines in wind to 
make it even more competitive? And then the storage issue, 
research on the storage issue? And then integration of wind as 
well as solar on a micro level along with the micro storage 
issues? What is research looking like, the trajectory of 
research in that regard?
    Mr. Orr. I will ask my colleagues to join in here in a 
minute, but let me start by saying that one of the primary 
reasons for investing in the grid modernization initiative that 
is one of our key cross cuts, and I would say the best 
developed of our cross cutting efforts, is because that effort 
integrates a lot of the things that you just talked about. It 
aims at being able to accept deep penetration of intermittent 
renewables and other kinds of distributed generation. It aims 
at providing a variety of balancing options, so one of those, 
of course, is storage. Grid scaled, battery storage is one way 
to provide that, and sometimes scale of works.
    Mr. Fortenberry. Incentives for demand or incentive pricing 
for catch of demand?
    Mr. Orr. Yeah, so that is a place where we need a better 
market mechanism to recognize.
    Mr. Fortenberry. So basically you run your dryer at night?
    Mr. Orr. Well, yeah.
    Mr. Fortenberry. And get a credit for that?
    Mr. Orr. And in my case, at my house in California, I have 
time of day pricing.
    Mr. Fortenberry. Oh, good.
    Mr. Orr. And I do have some solar cells in the backyard, so 
I fixed it so that we do not run the dryer in the high cost 
period of that.
    Mr. Fortenberry. Right.
    Mr. Orr. I mean, it is an interesting system of systems, so 
particularly, we have micro grids that might generate power, 
mostly on their own, and be able to deal with a crisis, for 
example, or a disruption. But then be able to come back online 
in a reliable and straightforward way.
    Mr. Fortenberry. So define microgrid?
    Ms. Hogan. Well, microgrid, it could be as small as a good 
sized building, but it is often and could operate on its own.
    Mr. Fortenberry. I mean, I think that is where we are at in 
terms of we shifted to the concept of distributed generation 
and there has been some mild implementation of that. In 
California it is more possible with solar than where I live. 
But at the same time, you know, if it was cost affordable, 
feasible, why not think about, particularly in new home 
construction, becoming your own micro energy farm through a 
combination of not only wind and solar micro wind, but also 
geothermal? I understand there might be on the horizon solar 
panels that basically look like windows now that are 
translucent, and that takes care of this problem of aesthetics 
as well.
    Anyway, just speak briefly, if you could, to the 
technologies that are on the horizon for storage that will 
further empower integration of renewables into the overall 
portfolio and then drop prices that make it more feasible for 
micro systems to develop? I mean, where are we at in this? That 
is the core of my question.
    Mr. Orr. Yeah. We are in the middle of that process. In 
terms of batteries per grid scale, there are some things called 
flow batteries, for example, that you would not want to put 
these on a vehicle, but where they basically do an 
electrochemical reaction and store the products in tanks. You 
need space to do this, but you can do really big quantities. 
But people are looking at other kinds of battery storage and 
battery chemistries for that sort of thing as well.
    That is different from the other end of the scale where, on 
a vehicle, what you care about is the weight and volume of that 
battery and it is much smaller, so.
    Mr. Fortenberry. So what is the time horizon on the 
integration of these technologies in reality into the market 
system?
    Mr. Orr. Well, Pat Hoffman's troops are busy. We have a 
significant boost in the energy storage for some demos in 2017 
to go test some of these ideas. So Pat could tell you more 
about that if you want to, but we are in progress. Behind the 
meter side of things, there are companies out there that now 
will sell you storage, you know, 5/10 kilowatt hours that might 
allow you to generate power from your solar system at your 
house during the day and then use that to power your house at 
night or to----
    Mr. Fortenberry. Or just through the accounting 
methodology?
    Mr. Orr. Well, yeah. And, again, if it involves time of day 
pricing there would be incentives to be able to shift your load 
there. So it will be very interesting to see how the market 
values these things and how this plays out. But the technology 
pieces are starting to be there.
    Mr. Fortenberry. Well, I mentioned this to the Secretary, 
and I will defer to you in just a moment. I integrated a 
geothermal into my home. My home is about 25 years old. So I 
was glad to do that. I want to make advances in this regard. 
The payback period is probably on the outlying end of the 
spectrum, 10 years. It might be as early as seven. But this was 
made possible by tax credits, state loans, as well as rebates 
from the manufacturer given the timing I put in, and rebate 
from a local utility. It is complicated frankly.
    Mr. Orr. Yeah, yeah.
    Mr. Fortenberry. And so if you wanted to do this in a much 
more aggressive way, moving your home toward, in effect, being 
an energy farm, integrating solar geothermal smart metering, as 
well as the possibility of micro wind, is complex. Are there 
models out there in which this is being done successfully? Even 
in the area of the country where I live?
    Mr. Orr. Well, this is a good example, I think, of why we 
would think about these things as systems. That is something we 
are trying to do a better job of. But you're absolutely right 
that reducing that complexity would aid deployment, and I would 
also argue that we need to continue to work on cost reduction 
because if the research can help us give you that geothermal 
heat pump setting at a price that doesn't require the various 
complex programs to help get them deployed, then that will work 
too, so we need to work on the cost side. Pat, do you want to 
add something?
    Ms. Hoffman. Thank you Congressman, I would just love to 
add a couple points. I mean, our energy storage program at 
$44.5 million is looking at reducing the cost of energy 
storage, but also getting the deployment of energy storage out 
there, partnering with the states, looking for opportunities of 
deployment of energy storage whether it is on the grid, but on 
the distribution level. We also have a $30 million budget line 
for our smart grid that is looking at microgrids. Looking at 
the integration of technologies of the distribution system. And 
I think that is really important as we start optimizing 
generation. As you have discussed, how do we get a small 
ecosystem in pulling together technologies?
    But in addition to that, we have to work on the 
institutional issues which is looking at what we are calling 
distribution level reform to get that, to simplify the 
complexity.
    Mr. Fortenberry. Yeah, I will work on that for you. You 
just get us the technology, okay? I agree.
    Mr. Orr. Ok. It is a deal.
    Mr. Fortenberry. Changing cultures and carrying forward 
legacy costs, and it is complicated. I get it. But when do you 
think this technology, I know it is hard to predict, on a 
larger scale what we have talked about, being more fully 
integrated, what is your trajectory? Are we looking at two 
years? Twenty-five years?
    Mr. Simpson. You will be dead.
    Mr. Orr. We can beat 25 I think for sure. We will have some 
demonstrations and, for example, in remote communities in some 
parts of the country microgrids are already functioning for 
those.
    Mr. Fortenberry. Without providing too much work on you, 
would you write up just a brief summary of some of those models 
that are out there?
    Mr. Orr. Sure, sure.
    Mr. Fortenberry. I appreciate it. Thank you, Mr. Chairman.
    Mr. Simpson. That is exciting. I want my home to be a place 
where I come and kick off my shoes and turn on a fire and read 
a book and do not worry about any of this stuff. And I want to 
dry my clothes whenever they are wet. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. I have a question about 
the national network for manufacturing innovation, and then 
NNMI HUBS. The Department of Energy hosts three of the seven 
existing HUBS right now. One in Raleigh, another in Knoxville, 
and one is to be determined, I believe. So being from Silicon 
Valley I really appreciate how important it is that we focus on 
advanced manufacturing and potentially game changing 
technologies to ensure that the next Silicon Valley is right 
here in the United States.
    So I was curious though, what is the current status of 
DOE's NNMI Centers, and what are some of the successes from 
these centers? Then how many DOE-led centers do you envision in 
the full national network of 45 planned HUBS? Then, in your 
opinion, would these centers develop without seed funding from 
the agencies?
    Mr. Orr. So thank you for an interesting and complicated 
question, but let me do the specifics first. So, as you 
observed, we have three in progress. We are working on defining 
two more for this year, and then we requested in fiscal year 
2017 funds for a sixth. So that part is in progress. The 
question of whether things like this would develop without the 
kind of initial funding to get them going. I mean, there 
certainly are some efforts to that effect. I think the 
experience so far with the advanced composites manufacturing at 
Oak Ridge and with the wide bandgap semiconductor that one is 
earlier, and so we have more to do to see how that goes.
    If the topics are chosen well and the institutional 
leadership is good then there really can contribute in 
interesting ways be bringing people together to work on, 
largely, the precompetitive kind of things that then can have a 
much broader impact. And I would just say that the advanced 
manufacturing area, particularly the additive manufacturing 
area, is on that because it has both advantages for energy 
efficiencies, advantages for the quantity of materials that get 
used, and for the kind of speed of the cycle time of developing 
some new process or part. All of those are things that really 
can benefit manufacturing across the whole country. The areas 
that Pat Hoffman mentioned for the grid kinds of applications 
are another one where there would be specific national benefits 
that really do make sense.
    So I think that imposes on us the responsibility of doing a 
good job of thinking through the topics where they make sense, 
and where there is an appropriate government role it is not 
necessarily to do all the commercial activities. It is really 
to figure out where it makes sense to invest taxpayer funds.
    Mr. Honda. The issue of seed money, so when the President 
announced his desire to see this thing deploy and grow, it 
seems like the seed money comes from the different agencies 
such as Department of Defense had to put up the seed money for 
the flexible hybrid electronics concept which is beginning to 
establish itself and create a new arena of technologies. Are we 
encouraging agencies to put up money also in their own budgets 
or do they have to see a benefit for their investments by their 
agencies in order for them to create this bottom line?
    Mr. Orr. I am not sure I am the right guy to answer this 
question, but I think we have been encouraged to think about 
where they make sense for the kinds of activities that we do. I 
am less certain about how that has gone for other agencies, but 
we have definitely been encouraged to think through where we 
can contribute.
    Mr. Honda. Well, the Department of Defense, they put in $75 
million and private industry put in the rest, a quarter of a 
billion dollars. And I think that they saw a lot of benefits 
for folks who have solutions to problems that they are looking 
for, and the DOD has problems for which they are looking for 
solutions, so that marriage seems to be pretty good in terms of 
the area of flexible hybrid. Would something like this be 
applicable to energy storage? Because we are only looking at, 
it seems like it is only lithium, but there must be other forms 
of technologies that we have looked at that need some research 
that we can invite people to come together through a process 
like this.
    Mr. Orr. So there I would say that we actually have some 
other activities that I think fill that role. We, for example, 
have an energy storage hub. JCESR at Argonne is the center for 
energy storage research. It is funded specifically to look at 
advanced battery chemistries that have higher energy densities 
and lower weights and good durability.
    We also get at the fundamentals of that through quite a 
number of our energy frontier research centers that look at 
some combination of electrochemistry and nanostructured 
materials. So we do have that covered. We have also, actually 
at the other end of the innovation spectrum, we have funded 
through the loan programs office some activities with regard to 
battery manufacturing. So I do not know of anything involving 
one of the NNMIs, but we do have a lot of activity in the area.
    Mr. Honda. Through DOE you probably help us remain 
competitive in a global competition in innovation. Is there 
anything that DOE is focused on on next generation 
manufacturing?
    Mr. Orr. Well, the six centers are manufacturing 
institutes. The three that we are working on already and the 
three more that are in our budgets or plans are exactly aimed 
at those kinds of issues, so we do have that in our portfolio.
    Mr. Honda. So we can talk a little bit more about that 
later on?
    Mr. Orr. You bet.
    Mr. Honda. Ok. Last question, Mr. Chairman. On this topic 
of weatherization, it seems that there are statutes already in 
place, but the statute does not seem to incorporate or 
encourage the integration of solar. If weatherization is about 
saving costs to individuals, fixed income folks, poor 
neighborhoods and places like that, in hardening the building 
from losing heat, why don't we in this whole discussion of 
reinventing ourselves, why don't we incorporate the wording 
that would allow solarization as part of the cost savings for 
these homes? And at the same time, become more efficient and 
save the home owners or the users' pocketbook? It seems like 
they both will do the same thing, but solar would have a larger 
application cost as a country from east coast to west coast?
    Mr. Orr. It is an excellent question, of course. So as I 
understand it, we already have examples of solar thermal that a 
solar hot water heater as being included in the weatherization 
side. And I think it has allowed that any technology where we 
can show a positive savings over cost is a possibility for 
inclusion in that. Kathleen, is that correct?
    Ms. Hogan. Yes.
    Mr. Honda. Solar heating for water is through solar uptake 
or through dark pipes?
    Mr. Orr. No, it would be through dark pipes. So it is a 
question of this balancing of cost and savings to the consumer, 
and as the costs continue to come down that seems like a real 
possibility to me.
    Mr. Honda. Not to be argumentative, but it seems like 
placing solar on these homes would reduce the cost if we 
maintained certain kinds of credits or helping cap agencies to, 
you know, put these in on a long term basis. Cost savings to 
the home owner or the dweller over time it seems it would----
    Mr. Orr. And those have to exceed the cost of installing 
the system, so I think it argues, again, for this idea that 
continuing to work hard to bring down costs both on the 
permitting side and the hardware side is a way to make these 
things more widely available. And that is really true across 
the energy spectrum.
    Mr. Honda. So do I hear you saying that it is not possible 
until we can come up with a point where cost savings would be 
greater than the costs?
    Mr. Orr. If I said that I did not mean to.
    Mr. Honda. No, I am just asking.
    Mr. Orr. I think it is within the power of these systems 
now to be able to do what you are suggesting. Now, there might 
be just the sort of institutional inertia that afflicts all of 
us, but I think it is possible where the cost targets can be 
met.
    Mr. Simpson. Our chairman can help us with that. Thank you.
    Mr. Orr. You bet.
    Mr. Simpson. Ms. Kaptur, do you have anything else?
    Ms. Kaptur. I actually do, Mr. Chairman, I do. I do. I 
wanted to ask about the offshore wind demonstrations and Dr. 
Orr, could you give us an update on the status of those?
    Mr. Orr. Sure.
    Ms. Kaptur. And when we could expect a decision on 
advancing some of the proposals.
    Mr. Orr. Yes, we have five offshore wind projects that are 
in various stages of working through their milestones and 
requirements. The next three are in the second period of that 
and two more are alternates and are in the primary period. We 
will evaluate all of those this spring and we expect the next 
decision point is in May.
    Ms. Kaptur. All right. I thank you for that clarification. 
On regional energy innovation partnerships, how do you see 
these partnerships coalescing?
    Mr. Orr. So partnerships, well we are imagining a 
competition that in a particular region that a variety of 
institutions, it could be industry, it could be universities, 
it could be a national lab would band together to create an 
entity, probably a 501(c)3, that would organize the research 
program, manage the funds, get them out, would not be a 
research provider but rather would be a research organizer. 
That we would select them competitively and then they would 
select competitive proposals which could be by members of the 
consortium, but with appropriate attention to conflict of 
interests of course along the way. But these would be focused 
on areas of regional interests and innovation at the regional 
scale. But at the same time would take advantage of the 
intellectual assets that exist in the area.
    Ms. Kaptur. And you would have to wait for your 2017 budget 
in order to implement that? There is nothing in the 2016?
    Mr. Orr. Yeah, that is right.
    Ms. Kaptur. Ok. On vehicle technologies, let me ask, do you 
have examples of where, successful examples of where natural 
gas has been integrated now into major fleets, truck fleets and 
are they cost competitive?
    Mr. Orr. I know there is quite a bit of, there are truck 
fleets around that do that now. Rueben, do you want to say a 
word about that?
    Mr. Sarkar. Rueben Sarkar, yes, through our Clean Cities 
program and through our national Clean Fleet partnerships, 
where we have partnered with a number of large corporations 
like Frito-Lay, Coca-Cola, and others, we have seen a 
considerable amount of natural gas deployment and have done a 
number of case studies to demonstrate the benefits of natural 
gas deployment. I don't have the exact numbers offhand, but we 
do track how much natural gas penetration we have had through 
our efforts, and how much petroleum displacement we have 
achieved. And we continue to do a lot of activity on the 
deployment side of the equation. We also do a lot of research 
and demonstration on the dual fuel side in the Class A truck 
space to see where we can displace additional diesel through 
implementation of dual fuel technologies as well.
    Ms. Kaptur. All right. What about public fleets, bus 
systems, or post office vehicles? Do you have any--is there any 
activity there on the natural gas side conversion?
    Mr. Sarkar. We have not done as much on the deployment side 
in the public transit sector. That normally goes to DOT. We do 
provide technical assistance, case studies and information that 
a lot of people make good decisions about adoption of 
alternative fuels, but not as much deployment and research on 
public transit. And then your second part of the question was 
on----
    Ms. Kaptur. Post office vehicles.
    Mr. Sarkar. Post office. We engage with the post office to 
advise them on technology adoption as part of their RFP 
proposals. But we do not direct it. We generally provide them a 
basis for information, whether it is alternative fuels for 
electrification or natural gas. But we don't actually fund 
deployment activities with the U.S. Postal Service.
    Ms. Kaptur. Does your legislation not allow it?
    Mr. Sarkar. I would have to check on that. Normally, we are 
in an advisory capacity and that the U.S. Postal Service does 
their own separate RFPs the way it is structured, and all we do 
is provide assistance and guidance.
    Ms. Kaptur. Ok. I appreciate that very much, and my final 
question will be Dr. Smith, or Secretary Smith has sat there 
today and has not been asked very many questions.
    Mr. Simpson. I know he is disappointed by that.
    Ms. Kaptur. And in view of the emphasis that is being 
placed in other places in the budget, what can you tell us 
about fossil fuels and your priorities in this budget?
    Mr. Smith. Well, thank you for the question. So the center 
of our research and development budget is on carbon capture and 
sequestration, which we think is still a very important part of 
the challenge of ensuring that all of our sources of domestic 
energy including coal and natural gas are relevant in future 
energy systems. Our budget has a slight increase from last 
year, going from $869 million up to $878 million. The coal 
capture systems are also going up slightly, total capture 
budget for coal going from $131 million to $139 million.
    In addition to the coal capture budget, we have added a 
line for capture for natural gas systems and would like to 
point out that that indeed is in addition to the existing 
budget for coal capture systems. So we have maintained our 
focus on coal capture and in addition, we will be doing some 
additional research and development on capturing CO<INF>2</INF> 
from natural gas fired systems. That will benefit our 
understanding of how to reduce emissions from coal as well. So 
that's the center of our program for----
    Ms. Kaptur. Where are the majority of those coal capture 
systems installed? Where are they?
    Mr. Smith. Well, so this is a new area of innovation in 
terms of deployment. There is a couple of major demonstrations 
that the department is working on, one in Mississippi and one 
down in Texas. There are of course coal fired power plants 
throughout the United States which will be the candidates for 
retrofitting so that you can take those systems and reduce the 
greenhouse gas emissions that are coming out of the coal fired 
systems. So there will be coal fired power plants throughout 
the United States that will be candidates for this technology.
    Ms. Kaptur. I thought of one other question, Mr. Chair. 
Does the Department of Energy have a list, by state or region, 
of waste heat, facilities generating a great deal of waste heat 
and what type of waste heat it is.
    Mr. Orr. Good question. I do not know if we have it by 
waste heat, but we certainly do have a nationwide list of big 
CO<INF>2</INF> sources and they are pretty likely to be 
connected. So it wouldn't be hard to get you, actually EPA 
maintains a list of the--and we do have a list. I am sure we 
have a list of all the power plants around the country. So they 
would be a primary location to go look for thermal energy that 
was not being captured.
    Ms. Kaptur. And what about steel plants?
    Mr. Orr. Steel plants would also be candidates there. I am 
sure----
    Ms. Kaptur. What about refineries?
    Mr. Orr. Your refineries, well, we certainly know where 
they are. The refineries, because they use so much energy 
internally, they tend to be more organized around making sure 
that they can use the waste heat that they generate.
    Ms. Kaptur. What about 100 megawatt natural gas plant?
    Mr. Orr. Sure, there is a lot of thermal, sort of low-grade 
thermal energy that comes out of the cooling of the downstream 
end of the steam turbines.
    Ms. Kaptur. I am very interested in--this is very hard 
information to obtain, I would like to let you know. And it is 
very important for our region's economic growth to know where 
these waste heat sources are. But where does one go? Do you 
have to call every company?
    Mr. Orr. I bet that EIA, the Energy Information 
Administration, they must be able to estimate----
    Ms. Kaptur. Where they might be.
    Mr. Orr. Yeah, I would think so.
    Ms. Kaptur. All right. Thank you.
    Mr. Orr. We will have to do some checking to make sure I am 
not promising something I cannot deliver, but let us look at 
that.
    Ms. Kaptur. All right. Thank you so very much. Thank you, 
Mr. Chair.
    Mr. Simpson. You bet. One source of heat waste is that 
hamburger waiting in my office. I am going to have to reheat 
that. Didn't the INL just convert all their fleet to natural 
gas or haven't they done that? Last year your office, John, 
developed the GAIN Initiative to make it easier for industry to 
utilize the department's state of the art infrastructure in 
order to help commercialize advanced nuclear technologies. Can 
you update the committee on those efforts in the previous year 
and what kind of activities will be supported in 2017?
    Mr. Kotek. Yes, thank you, sir. And that initiative, I 
should point out, grew out of some really good work done by the 
Idaho National Lab, I think as I taught Alan back there, who 
led an effort to work with Oakridge and some of the other labs 
and universities to work with this community of innovators in 
advanced nuclear that has grown up over the last several years. 
You may have seen their recent reports talking about dozens of 
small companies capitalized to the tune of more than $1.5 
billion in private money and is now trying to work both fission 
and fusion concepts towards commercialization.
    The input we received from those companies was that the 
thing they needed the most out of DOE was the ability to access 
the capabilities that exist within the system, the reactors, 
the hot cells, the data and the codes and the brainpower that 
exists within the DOE system. And so GAIN was set up to 
establish a very convenient, streamlined way for these 
companies to access that series of capabilities. So what has 
been happening over the last several months is building on the 
work that we did through our nuclear science user facilities 
where university researchers and others can come in through a 
single portal and access capabilities around the system, we are 
now working to build that to make it easier for industry to 
use.
    Because of course when you bring industry in you have got 
more challenges, like intellectual property protections that 
you have got to deal with. So we are building on that. The 
Idaho National Lab, Oakridge and Argonne are kind of at the 
core of this and are working together to get in place a series 
of agreements that we need to have so that we can provide rapid 
access into the system for these private companies.
    Now, we are also hearing interest from international 
partners. And of course we do a lot of collaborative R&D. Other 
countries are coming to us and saying hey, we have got 
capabilities that may help fill in gaps in the U.S. 
capabilities, maybe we can come up with some sort of 
international arrangement. So we're trying to round that out. 
In the budget specifically, we have got a million and a half 
that is tied just for GAIN administration. We have got another 
couple of million dollars that we would assign for the 
continuation of this voucher program. You may have seen just 
yesterday we announced the first round of availability of 
funding. Just a couple million dollars, we expect to award 
maybe ten vouchers. But maybe $200,000 apiece roughly speaking, 
provide these companies some funding again to serve as the lab 
side of the project so they bring $50,000, we bring $200,000 
and all of a sudden they've got $250,000 worth of access to the 
labs, an idea which I should say really EERE and Dave 
Danielson's shop pioneered. We just learned from it. It has 
been really through the coordination efforts that Dr. Orr's 
office has gotten us all engaged in.
    So those are the types of things we will do under the '17 
budget to try and help some of these companies get to the point 
where they can commercialize some of these advanced designs. So 
pretty exciting times.
    Mr. Simpson. Great. Thank you all for being here today. Let 
me tell you just briefly the challenges we are going to face in 
this committee and I explained this to the Secretary yesterday, 
is that the budget submission by the administration calls for 
about a $650 million increase over last year. But in the energy 
and water environment that we have to deal with here, they use 
some, for lack of a better term, gimmicks to get the $650 
million increase.
    I am not saying it is unique to what they have done. I have 
seen it happen time and time again with every budget submission 
from every administration and every governor that I have ever 
seen and that is kind of the way it works. But we have to deal 
with it in reality when we put the budget together. So we are 
going to have difficulty there.
    Second, the Mission Innovation Initiative has a 21 percent 
increase or a couple billion dollars and then they underfunded, 
the Army Corps of Engineers by over a billion dollars, which we 
are going to have to find somewhere. They know that they can 
underfund it because we are going to plus it back up because 
Congress is not going to sit still while it goes down a billion 
dollars.
    That is the challenge we face in trying to address both the 
overall budget and address this Mission Innovation Initiative 
and try to find the resources for that. Within our committee, I 
am certain that there is going to be some rebalancing of how 
those funds go in this Mission Innovation Initiative as we put 
this budget together. We look forward to working with you to 
address that. Pass our best along to Mr. Danielson. We wish him 
and his family the best. We know that there are more important 
things in this world than being here before the committee. So 
we certainly understand that and wish him the best. And lastly, 
John, I would not say this if Mr. Fleischmann's staff was not 
here. When he says to look at NE's budget and how much of it 
goes to Oak Ridge, remember they have the Science budget. So do 
not be taking too much of that and sending it to Oak Ridge. Oak 
Ridge is a great place, a great laboratory. It does great work. 
Years ago, I was sitting in a presentation by one of our 
weapons laboratories and they were going through their budget 
over the last 20 years and how it used to be funded by weapons 
activities almost 100 percent. Over the years, as weapons 
activities money had decreased, they had increased funding from 
Science. They were very proud of that, and I am going wait just 
a minute. You are taking that money from other laboratories 
when they do not have access to the weapons money that you 
have. So it is a challenge between the laboratories, but it is 
a good challenge. Be real careful there. Thank you all for 
being here and thank you for the work you do. It's both 
challenging and excited. So we look forward to working with you 
as we put this budget together. We're adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Wednesday, March 2, 2016.

                     DEPARTMENT OF ENERGY, SCIENCE

                               WITNESSES

FRANKLIN ORR, UNDER SECRETARY FOR SCIENCE AND ENERGY, DEPARTMENT OF 
    ENERGY
CHERRY MURRAY, DIRECTOR OF THE OFFICE OF SCIENCE, DEPARTMENT OF ENERGY
    Mr. Fleischmann. Good afternoon. Mr. Simpson has asked me 
to get things started for today's hearing. So I want to welcome 
everyone. I would like to welcome all the witnesses. Dr. 
Franklin Orr, Under Secretary for Science and Energy, and Dr. 
Cherry Murray, Director of the Department of Energy's Office of 
Science. Dr. Orr, it is good to see you again. It was great to 
participate with you at Lab Day on the Hill last fall. What a 
great turnout we had to see firsthand the great work our 
national labs are doing to solve so many tough national and 
international problems.
    Dr. Murray, thank you for coming by to meet with me in 
January. I appreciated that so much. It is great to have you 
here. This is your first appearance, I believe, before our 
subcommittee, and thank you both and welcome.
    Dr. Orr and Dr. Murray, the budget request provides $5.6 
billion for the Office of Science, a 4 percent increase over 
last year's level. The Office of Science has helped usher in 
some of the most important scientific breakthroughs in the 20th 
century and will continue to support important innovations in 
the future. However, the balance between supporting core 
research activities that maintain U.S. leadership in energy 
sciences while also planning for new experiments will be one of 
the major challenges you face as we move into the next phase of 
scientific discovery.
    The request assumes that the Office of Science Research, 
Operation and Construction goals can be met, but increasing 
budgets are not a given. Your challenge is to ensure that the 
new facilities don't come at the expense of your research 
mission. I look forward to discussing with you both how the 
Office of Science will make these hard choices and continue to 
ensure our country's leadership in the scientific community.
    Dr. Murray, please ensure that the hearing record questions 
for the record and any supporting information requested by the 
subcommittee are delivered in final form to us no later than 
four weeks from the time you receive them. Members who have 
additional questions for the record will have until the close 
of business Friday to provide them to the subcommittee office. 
With that, I will turn to our ranking member, Ms. Kaptur, for 
her opening statement. Ms. Kaptur.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Ms. Kaptur. Thank you very much, Mr. Chairman. You look 
good in that position. And we want to welcome back Dr. Orr and 
Dr. Murray for being with us today and for the very laudable 
job that you both do.
    The United States is known and respected around the world 
as a leader in innovation. Scientific research continues to 
yield important discoveries that have changed the way we live 
and work from cell phones to high yield props to biotech 
medicines. At the United Nations Climate Change Conference in 
Paris, President Obama joined world leaders from 19 other 
countries to launch Mission Innovation. The initiative seeks to 
double Federal clean energy, research, and development 
investments government wide over the next 5 years.
    As part of this effort the Office of Science receives an 
increase of $276 million from this year's funding levels. I 
hope you will share your thoughts on how this effort will 
support innovation in the public sphere. We must harness the 
work of our best and brightest to drive domestic growth and 
help make American manufacturing globally competitive. While 
the value of funding scientific and other research is well-
established, Federal resources remain limited and will remain 
so for the near term, it appears. Research, especially in 
science, can provide enormous value, but it is a long term and 
sometimes indirect investment that is too easily sacrificed for 
short term concerns. It would be helpful to hear from you about 
the long term consequences of this kind of underinvesting in 
science and research. We need to understand the tradeoffs that 
we are making in the name of budget scarcity.
    Scientific exploration can sometimes provide opportunities 
for immediate benefit. In certain cases tools and equipment 
designed for research can be applied to manufacturing processes 
to increase efficiency or improve product quality.
    Advanced devices and computers can help advance our 
understanding of basic science and help companies find 
solutions to challenging technical hurdles. With this in mind, 
I want touch briefly on the National Labs which are rightly 
viewed as a National Asset, and aren't they that.
    Coming from an area without a National Lab, as most members 
do, I continue to wrestle with how the labs can play a 
significant transformational role for organizations beyond 
their boundaries and help jump start American innovation, 
including in manufacturing, but not solely there, in other 
parts of the country. I hope you will share your thoughts on 
this and the other questions I posed, and I look forward to 
your insight, and I thank you, Mr. Chairman, for the time.
    Mr. Fleischmann. Thank you, Ranking Member Kaptur. Dr. Orr, 
your opening statement.
    Dr. Orr. Thank you very much Representative Fleischmann. I 
appreciate a chance to talk to you and others of the 
subcommittee again this afternoon. I will just thank the 
subcommittee for the support you provided. As I said earlier, 
at the Applied Energy hearing, for the support you provided in 
the budget this year. We are working hard on that, and we look 
forward to working with you as we work on this next budget.
    So I am glad to have Cherry Murray with me today. She is 
the confirmed Director of the Office of Science, confirmed in 
December, and I can tell you that based on a year of experience 
in office there is more than enough for all of us to do, so I 
am very glad to have her with us. The Office of Science, of 
course, if the labs are a crown jewel for the country, the 
Office of Science is really the keeper of the crown jewel, and 
indeed, a tremendous asset to the Nation.
    It supports research on the frontiers of science to enhance 
our understanding of nature, and also to advance the energy, 
economic, and national security of the United States. We stored 
in the Office of Science ten of the 17 national labs, as I know 
you know, and 28 state of the art national science user 
facilities. This enterprise supports more than 24,000 
researchers at 300 institutions across the Nation, including 
some in Ohio. I will note that you folks are definitely users 
of the national labs. These are really fundamentally not only 
to the science enterprise, but also to our industry.
    The ability to use the x-ray light sources, for example, to 
characterize materials at the smallest scale, the Spallation 
Neutron Source at Oak ridge. There are facilities that allow us 
to evaluate materials for the most advanced energy 
applications. A favorite example for me is the little turbine 
blades made by additive manufacturing. You can use the 
Spallation Neutron Source to image the residual stresses that 
are in those little turbine blades, and if those are 
appropriately handled that turban blades will hold together in 
the aircraft engine the way it is supposed to. Really, the 
science facilities have plenty of applications in industry as 
well.
    The President's request, as Chairman said, is $5.672 
billion, and we have that as a 6.1 percent increase from the 
fiscal year 2016 enacted level. The request takes the first 
step in fulfilling the government's Mission Innovation pledge. 
As the ranking member observed, an initiative across 20 nations 
to double public clean energy research and development over the 
next 5 years. The effort is complemented by commitments from 
private investors through the Breakthrough Energy Coalition. 
And no doubt, other investors as well.
    To continue global momentum and accelerate clean energy 
technology development, the Department's requests aims to 
further accelerate the Office of Science's innovative work that 
puts America at the forefront of the global clean energy race.
    Basic research supported by the Department's Office of 
Science will be crucial to enabling that transition to a low 
carbon secure energy future. Fundamental research is the key to 
developing truly transformative technologies that could 
radically change the energy landscape. It provides the 
scientific foundations for clean energy innovation through use 
inspired fundamental research on energy production, conversion, 
storage, transmission, and use. And actually many of the things 
that we talked about in the hearing this morning trace their 
origins to fundamental work that was supported by the Office of 
Science in its earliest days.
    The increased investments as part of Mission Innovation 
will support a broad-based strategy for accelerating the 
innovation process. The strategy emphasized investments 
targeted to support innovative platforms for early stage 
research and technology development. An example of this would 
be the successful Energy Frontier Research Centers. We have 32 
of those, if I remember correctly now, but this will enable us 
to fully fund up to five new awards in the area of subsurface 
science with an emphasis on advancing imaging of geophysical 
and geochemical signals. The subsurface plays important roles 
across the energy spectrum, so that would be a value there.
    The request also sustains DOE's role as the largest Federal 
sponsor of basic research in the physical sciences. DOE 
supports fundamental research and scientific user facilities in 
a variety of scientific disciplines, from nuclear and high 
energy physics, to basic energy and biological research. The 
research conducted in these areas helps us achieved predictive 
understanding of matter and energy on microscopic scales, as 
well as complex phenomena such as the plants, climate, and 
biological systems.
    In funding this cutting edge research the request continues 
science's tradition of successfully building and operating 
world class facilities that enable researchers from across the 
country and the globe to conduct groundbreaking research. This 
includes design for a reconfigured, international long base 
line neutrino facility hosted at Fermilab. Initial construction 
for the Deep Underground Neutrino Experiment in South Dakota, 
and continued construction of the Facility for Rare Isotope 
Beams. The request also builds on the success of the Bioenergy 
Research Centers with additional funds to expand technology 
transfer activities during the last year of the tenured 
program.
    An area of priority for all of us with relevance across the 
whole innovation chain is high performance computing. U.S. 
leadership in science and industry is, of course, crucial to 
sustaining American economic competitiveness and developing new 
technologies in energy and other fields. In line with the 
President's national--strategic computing initiative our goal 
is to produce an exascale super computing environment capable 
of meeting 21st century scientific challenges by the mid-2020s.
    Finally, I will mention that my job as Under Secretary is 
to foster productive links between the science and energy 
programs. And one way we have done this is by establishing 
cross cutting initiatives to accelerate progress on key 
national priorities. The expertise in the Office of Science 
provides the scientific underpinnings for several of these 
cross cuts including the energy water nexus, exascale 
computing, and subsurface science. This year there is an 
additional cross cutting effort proposed on advanced materials 
for energy innovation.
    So altogether, the Office of Science's budget supports path 
breaking discovery while advancing American competitiveness and 
leadership in scientific research. Thank you for the 
opportunity to talk here today and to answer questions, if we 
can do so.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Mr. Fleischmann. Thank you, Dr. Orr. I know that many of 
the members have questions for both of you all. I am going to 
begin by recognizing Ranking Member Kaptur for 5 minutes.
    Ms. Kaptur. Thank you so much, Mr. Chairman. This committee 
has been ensuring support for American manufacturing for a 
number of years, and the department's budget request continues 
to have a significant emphasis on this area. Drs. Orr and 
Murray, how do the major science facilities, such as Light 
Sources, support American manufacturing, and have you made any 
changes since last year to increase support for American 
industry?
    Dr. Orr. So thank you for that question. I actually was 
thinking about some version of that question as I mentioned the 
idea of using the x-ray light sources to characterize advance 
materials of all kinds. If you think about the energy systems, 
what they do is they convert some primary energy resource, 
could be wind, could be sun, could be fossil or nuclear 
resources into energy services like electricity or heat or 
transportation.
    Almost every one of those, if you think about the process 
of building more efficient energy conversion methods, at their 
heart, they are fundamentally material sciences processes. They 
might require higher temperatures or pressures. They might 
require standing up under other harsh environments. They need 
to last a long time. They need to be cheap to produce, and they 
need to perform successfully.
    So one of the ways that we can get there is to use our 
ability now to control material structures at very small scale, 
so nanostructured materials are one version of that. When you 
couple that with understanding material properties of being 
able, for example, to design catalysts that are everywhere in 
chemical processing, and batteries, and fuel cells, and to 
predict those properties computationally when we can do those 
things effectively then we can design new materials that will 
serve us well, and figure out how to do that with cycle times 
that are shorter than the might otherwise be.
    So the fundamental science that goes with these things is 
an essential component of being able to get to advance 
manufacturing methods. Now, there is lots to do in between, and 
of course, that is the variety of our programs. In the end, the 
ability to use the user facilities to characterize all kinds of 
systems and to study their properties at the smallest scale, 
those enable practically everything else.
    Ms. Kaptur. I am going to push you a little bit, Doctor. 
The question related to your reply here is what thoughts do you 
have on how the Department of Energy and the National Labs can 
improve their interaction with industry? I am going to give you 
a real life example of what happened.
    Dr. Orr. Ok.
    Ms. Kaptur. Because I attempted to work with your labs. I 
will not say which ones, and I come from part of the country, 
as I said in the prior session, with a massive manufacturing. 
Massive. But we also have agriculture. And as I looked at the 
amount of jobs that have been outsourced from our region. 
Actually, in Indianapolis Carrier just announced it is moving 
to Monterrey, Mexico, 2,100 jobs. I thought how are we going to 
grow jobs here? One area where we can is in agriculture, but 
industrial agriculture.
    So, 2 years ago I went to one of the labs and I said, look, 
I need your help. Here is an example of an industry where we 
need material science to develop a better four season canopy, 
more energy efficient, more light sensitive in the sense the 
wave lengths matter, frequencies matter in the production of 
plants. And I said, so I want you to help me design a new 
envelope because for us to be successful we cannot have a third 
to a half of the bottom line being energy. We have got to 
figure out how to control the energy issue, and we have got to 
have robust plant life in there, and we have got to cut the 
carbon footprint because we cannot keep shipping half our 
fruits and vegetables from California. We have got to empower 
other parts of the country, and we can do it because we have 
the water.
    It took almost a year and three quarters, and one of your 
famous labs got back to me and said, this is not our job. This 
is the Department of Agriculture's job. Well, I was very 
disappointed because the Department of Agriculture is using old 
technology. But what happened was the private sector did 
something incredible. They just invested $200 million or $175 
million, a company from Canada in our region, to build a state 
of the art, not new material science, but using the materials 
we have rather well, and the waste heat off of a steel company 
called North Star, CO<INF>2</INF>, 200 acre greenhouse 
undercover. It is going to supply Kroeger Company which just 
bought Harris Teeter about a year and a half ago.
    That one place is going to expand exponentially because of 
what is going on in the environment. But I sort of look back at 
that experience with DOE and think to myself, and I am not 
blaming you. I am not blaming anybody. Again, it is a 
resistance to place and to dealing with reality on the ground, 
trying to apply this high science to real production, and I 
still place the challenge out there for my region of the 
company. Help us cut the energy use in these industrial 
agriculture facilities from one-third to half to less than 10 
percent. How do we do that and measure the nutrients, water? 
Work with light rays in a manner that is off the charts, so 
that we target a certain type of ray to a certain type of 
plant?
    I ask myself, do we really need light permeable coverings 
or could we do this in rooms like this. There is a lot of LED 
lighting going on now that we are using for plant production in 
some of our cities. So I really want DEO involved in this. I 
think it could help to give rebirth to the Great Lakes. So I am 
not being selfish here. I am trying to be innovative, but that 
is a real thing that happened with DOE, and now we are saying 
can DOE and DOA work together? Why should we waste 2 years on 
this? I mean, what a waste of time. We should have had 
cooperation like that. And so I point that out as a concern to 
mine. So my question is, what questions do you have on how the 
Department of Energy and the National Labs can improve their 
interaction with industry?
    Dr. Orr. Yes, so I am sorry. I meant to answer that the 
first time around, but I got off on nanostructure materials. 
One of the things we actually are part of doing as part of my 
office is to work on better ways to do that. So we established 
a new Office of Technology Transitions, for example, and we are 
implementing a requirement of the Energy Policy Act to 
establish a Technology Commercialization Fund that will help 
provide some support for interactions like this with the 
National Labs.
    And then we have also just created a Clean Energy 
Investment Center that is a way to help industries see more 
quickly into the National Lab system for ideas that they might 
want to engage upon. And also to streamline the cooperative 
research agreements that we use to foster these kinds of 
interactions when it makes sense to do so. So we recognize that 
the process of dealing with industry is slower than it should 
be and we are working to try to change that.
    Ms. Kaptur. Well, I would just make a formal request. When 
you are ready, hopefully it will not take 2 years, to find a 
way for your agency to interact with our major growers in our 
part of the country. And by the way, that particular corridor 
stretches from Erie, Pennsylvania to Kalamazoo, Michigan to all 
of Northern Ohio. It is a massive production platform with 
fresh water, and we need four season solutions because of what 
is happening with climate.
    And then earlier, I had asked about the automotive 
platform, the manufacturing. If you could find the right people 
within the department somewhere I would bring everybody 
together who cares about energy in the industrial agriculture 
field, and in vehicular manufacturing to see how they could 
relate to you. Because we do not have a lab in our area.
    Dr. Orr. Well, we talked about this some this morning, but 
we do, in fact, have quite a lot of interaction with the 
vehicle manufacturers. Again, part of it through the light 
weighting kinds of activities. Partly in all things like 
SuperTruck and various efficiency moves and so on, so we do 
work with the automotive manufacturers, the vehicle 
manufacturers quite a bit in a variety of ways.
    Ms. Kaptur. I will just end with this, Mr. Chairman. One of 
the automotive plants I represent which is a big one, the North 
American president of that operation I was with him at a ribbon 
cutting. I said, what can I do to help you? He goes, help me 
figure out what to do about energy in this particular plant. So 
I just put that out there.
    Dr. Orr. Yes, it is your right.
    Ms. Kaptur. A practical request.
    Dr. Orr. It is a good opportunity to the extent that energy 
reduction can be achieved they often payback very quickly. It 
was not in your district, but I visited a plant, a General 
Mills plant in Ohio that makes Cheerios, and I could observe 
that they contribute usually to national sanity because anybody 
that has a toddler, you put them in the high chair in the 
restaurant with a batch of Cheerios, and then everything is 
okay for a while.
    Anyway, but they managed to reduce their energy use in the 
plant by doing the kinds of things that you talked about. Waste 
heat recovery, using waste heat in one part of the plant 
somewhere else, reduce their energy use by about 25 percent. 
Some if it was lighting. There were a variety of things that 
they did, but by paying careful attention they could make 
substantial reductions, and so that is a good thing to do.
    Ms. Kaptur. Thank you very, very much. Thank you, Mr. 
Chairman.
    Mr. Fleischmann. Thank you, Ms. Kaptur. I am going to have 
a question for Dr. Orr and then a question for Dr. Murray, and 
then we will continue with our other members. Dr. Orr, several 
years ago short-sighted changes were made to the management 
structure at the Department of Energy Oak Ridge Federal office. 
These problems have removed incentives for the many Department 
of Energy program offices to work together in an integrated 
way.
    The program offices actually like this setup because it is 
easier for them to focus on their own priorities. But this 
works against the best interest of the tax payers, and stifles 
the kind of innovation and integration that the department 
strives to foster in its management emphasis. The changes have 
also resulted in serious conflicts with elected officials on 
top Department of Energy priorities.
    Yesterday, I asked Secretary Moniz to take a close look to 
find an incremental solution to reconnect these important 
program offices. My request of you, sir, is I ask you to join 
in this effort to work with me to find a solution. Will you do 
that, sir?
    Dr. Orr. Sure. I am happy to do that.
    Mr. Fleischmann. Dr. Murray we heard Dr. Orr refer to high 
performance computing in his open remarks and I thank you for 
your prioritization. I was very pleased to see the Department 
of Energy's budget request includes continued investments to 
advance exascale computing and that the department has created 
a more rigorous project management structure to keep this 
effort on track to develop and deploy an exascale system by the 
mid 2020s. I know the department has a program called CORAL to 
jointly purchase a next generation of leadership class 
computing systems that will deliver capabilities and better 
energy efficiency which are key milestones on the path to 
exascale. What will it take to make sure that CORAL systems are 
the fastest and most powerful super computers in the world when 
they come online in 2018? How many petaflops will they need in 
order to be the best in the world's systems?
    Dr. Murray. Thank you for the question. Of course exascale 
computing is absolutely essential for our national security and 
our economic security as well as putting us at number one in 
science. So it is a very high priority for the country and 
certainly the department. One of the things that it will take 
to put CORAL machines at a very high level of performance is 
what we have in place now which is a collaboration with 
industry, a collaboration between NNSA the national security 
part of the Department and Office of Science together working 
with industry to develop these machines. This is not just a 
purchase of a machine it is actually codevelopment. One of the 
things that is going to be critical and you of course know that 
the first CORAL machine is slated to go into Oak Ridge.
    Mr. Fleischmann. Yes, ma'am.
    Dr. Murray. Which I would say is one of our flagship office 
of science facilities. The three laboratories who are working 
on this machine are Oak Ridge, Argonne and Lawrence Livermore. 
As you may be aware I was Deputy Director at Lawrence Livermore 
back some years ago so I know the capabilities of the people in 
the NNSA. These machines are critically important for our 
stockpile stewardship mission. They are also critically 
important for doing the best science and as Dr. Orr said we can 
have much better understanding from the atomic scale up to the 
size of a turbine blade in our materials simulation where we 
can simulate them in conditions that we do not wish to have in 
the laboratory such as turbine blades blowing apart for example 
and in order to do this we need to have the project mindset and 
a goal in mind. The goal for the CORAL machine that is going 
into Oak Ridge will be around 200 petaflops and that will put 
it as a world class. As you are all aware we are in a neck-to-
neck fight with the Chinese on machine speeds. We want capable 
machines that do not just do flops but actually run programs 
that are dealing with big data as more and more of our science 
and more and more of what industry needs is big data which 
means machine learning and it probably means new architectures. 
So I am very, very--it is one of my highest priorities is to 
make sure that this stays on track and this is why we are 
projectizing it.
    Mr. Fleischmann. Thank you Dr. Murray, Mr. Visclosky.
    Mr. Visclosky. Thank you very much Mr. Chairman. For either 
witness, if you could tell me what a crosscut program is for 
the department?
    Dr. Orr. Sure, I can do that. These work on problems that 
really demand expertise that come all the way across the whole 
department to have a variety of applications that do not just 
fit in those specific organizational approach that we have. And 
an example would be our grid modernization effort. On the one 
hand it is about how the transmission and distribution system 
works but it also involves the fundamentals of high performance 
computing in optimization kinds of setting and simulation is a 
very complex phenomenon. Another would be there are water and 
energy nexus because water gets used in all kinds of energy 
applications and at the same time it also we use lots of energy 
to move water around. Forty per cent of the water that is 
withdrawn from our lakes and rivers goes to the downstream end 
of a power plant for example.
    Mr. Visclosky. I appreciate that explanation. According to 
the testimony in the office, there are 32 energy Frontier 
Research Centers, two Energy Innovative Hubs, three 
bioengineering research centers, and five crosscut programs. In 
the 2017 budget, apparently there will be five more energy 
frontier research centers added, industry linkages for the bio 
energy research centers will be expanded, and there will be an 
enhanced role for the crosscut programs in the office.
    Dr. Orr. That is correct.
    Mr. Visclosky. That is a lot of irons in the fire. Who 
coordinates the priorities as far as research and the 
consistency of research given that you are at the Department of 
Energy? So there are lots of things going on here.
    Dr. Orr. There are a lot of things going on and we would 
argue that is a good thing. In the Office of Science, for 
example, the energy frontier research centers are a mechanism 
that we have used to bring together teams of people to work on 
use-inspired applications. The example I used earlier was the 
material science side of things----
    Mr. Visclosky. When you say ``use inspire'' what does that 
mean?
    Dr. Orr. Well, that means a place--so I will give you an 
example. I mentioned earlier that catalysts appear in all kinds 
of devices: the fuel cells, batteries, chemical process 
industries and those kinds of things and so a use-inspired 
effort would be one where we develop our ability to go from 
absolutely first principles and calculate the performance of 
some exotic combination of metals or some configuration of the 
catalyst that make it more effective so to go from first 
principles to do that. Now it is use inspired in the sense that 
once you can do that then you can design all kinds of things 
for specific uses.
    Mr. Visclosky. So who ends up coming up with those ideas 
and who is coordinating that pure if you would and applied 
research and how often at some point do you say this is not 
working out and we have a finite number of dollars in our 
budget and we are going to cease and desist?
    Dr. Orr. Well, the Office of Science, and I am putting 
words in Cherry's mouth here, but the Office of Science 
evaluates Energy Frontier Research Centers periodically, 
sometimes they are extended and sometimes they are not so that 
is one version of this and they think hard about the priorities 
going forward and where there are good opportunities for new 
ones.
    Mr. Visclosky. Is there one office someplace that looks at 
all of these?
    Dr. Murray. Well, that would be me I think or actually Pat. 
So the Office of Science has a prioritization method which is 
tried and true that it has used for at least 20 years when I 
was on one of their--in fact it was Pat's basic energy sciences 
advisory committee. So they have Federal advisory committees, 
they report to me on every one of our programs. We--the 
programs charge the basic energy sciences for the energy 
frontier research centers with the prioritization of what is 
important, what are the scientific gaps. So we do not do 
applied research, we do a fundamental research.
    Mr. Visclosky. So it is your office. There is a proposal on 
the ledger for five more projects. Were people sending requests 
in, was it internally generated where there were 20 proposals 
and you picked five?
    Dr. Murray. No everything that we do is competed, and 
everything that we do is carefully thought out with either 
subcommittees of these advisory committees holding a large 
number of workshops. For example the basic research needs 
workshops are now probably about 40 of them and from those 
workshops there was one on subterranean. What is it that we as 
the industry or science or anybody in the world cannot do in 
the subsurface right now? A large number of workshops then 
written up with the priorities of the scientific community 
including industry coming in. From that we provide a funding 
opportunity announcement that says here is what was found at 
this workshop, we cannot do the imaging of subsurface well 
enough, give us your proposals. A bunch of proposals will then 
come in and then a panel of scientists will make a selection 
and then we review them annually.
    Mr. Fleischmann. Thank you Mr. Visclosky. Before I go to 
Mr. Fortenberry, Dr. Dehmer it is good to see you again, thank 
you for being with us today. Mr. Fortenberry.
    Mr. Fortenberry. Thank you. We are in the final phase of 
the Bioenergy Research Center funding what has been the 
outcome?
    Dr. Orr. Well, I would say of the ones that I have visited 
they each have very interesting results and a lot of positive 
contributions. There is the Great Lakes Center that has worked 
on a variety of plant systems there is the UC-Berkeley Lawrence 
Berkeley effort that has worked on various bioenergy systems 
really quite a lot has been accomplished and maybe I will ask--
--
    Dr. Murray. I was just going to look up my statistics but 
as I recall there have been something on the order of 800 
invention disclosures, two hundred and some to industry, nine 
companies spun off and more coming. There have been engineered 
microbes that are now in the industry. There are new processes 
and new software for simulating how to do bioreactors.
    Mr. Fortenberry. Are there plans to propose continuing this 
funding?
    Dr. Murray. The funding in fiscal year 2017 it will be the 
last year of these bioengineering research centers the tenth 
year and the intention is in that year to recompete new 
bioenergy but also biomanufacturing centers. The centers could 
propose to continue I mean they could certainly enter the 
competition but the thought is that a new competition is right 
for it now.
    Mr. Fortenberry. Define biomanufacturing.
    Dr. Murray. For example, it would be wonderful if we could 
engineer microbes to manufacture polymers. So right now we use 
oil. We are going to run out of oil at some point. If we could 
use corn stover instead and use yeast that is manufactured or 
one of the really interesting science tidbits is someone is 
actually manufactured diatoms in the sea to be part of a 
manufacturing process starting with methane and adding OH to 
it. If we can figure out how to acquire life forms that can 
manufacture for us because frankly if you look at things like 
spider silk they do a really good job of manufacturing really 
strong materials so that is the idea.
    Mr. Fortenberry. So we can call it spider competition.
    Dr. Murray. Exactly.
    Mr. Fortenberry. How much has been spent on the ITER 
Project?
    Dr. Orr. I will have to get back to you with the exact 
number we have but it is not currently lodged in my brain.
    Mr. Fortenberry. Well it is a big number. It has had its 
problems. What is its potential?
    Dr. Orr. So maybe I can just say a word about where we are 
in that process. As you observed there have been some issues of 
schedule and cost. They have a new director who has put in 
place some new systems to look at all that. They have a new 
proposed time scale as being reviewed by the member countries 
and----
    Mr. Fortenberry. How is the coordinating entity, who is the 
coordinating entity?
    Dr. Orr. It is the ITER organization.
    Mr. Fortenberry. So how much do we refine or impact that 
culture?
    Dr. Orr. Well I think we had a lot to do with arguing for 
significant changes in the way it operated and a much more 
rigorous cost estimation and time estimation process and we 
also asked for an independent review of both of those things 
which is underway now.
    Mr. Fortenberry. So you know the difficulties of design by 
committee and then add on that design by international 
committee and you have a recipe for potential stagnation. And 
then it is an unknown outcome here I recognize it is 
experimental on frontier type research but it has been going on 
a long time and it does not seem to have produce any positive 
results.
    Dr. Orr. Well they are definitely under construction of the 
facility and the United States is well along the way in meeting 
our commitments.
    Mr. Fortenberry. Well let me ask you about our own domestic 
experiments--are they showing any promise in this area?
    Dr. Orr. Yes we continue to work hard on the fundamentals 
of behavior of high density, high temperature plasmas and those 
are part of building the understanding it will take to design 
future machines. I think it is still true in terms of getting 
to the DT burn the deuterium tritium reaction ITER is still the 
best opportunity out there to get to that but it is a big hard 
problem and a big complicated machine to do that so our 
strategy so far has been to try to add some rigor to that whole 
process and do what you said which is to build a project 
management culture as part of that that will deliver that on 
time and with stable costs.
    Mr. Fortenberry. And what are the projections for or the 
timeline for completion for experiments and potential outcomes?
    Dr. Orr. Yeah, mid-current projection for timeline is first 
plasma by mid-2020s so say 2025 and then DT burn in the 2030s 
range.
    Mr. Fortenberry. All right thank you.
    Mr. Simpson. Mr. Valadao. You were here first.
    Mr. Valadao. Thank you, Chairman. Thank you. Good 
afternoon. Dr. Murray, the Office of Science supports five 
light sources located across the country at four national labs. 
Last year the acting director said it was a high priority of 
the Office of Science, and the department, to maintain U.S. 
leadership in the light source capabilities such as those at 
the Berkeley Lab, which I was able to see last year. Can you 
describe what makes these light sources different from each 
other, and do we have five light sources to keep up with 
demand, or are there scientific capabilities that make each of 
these light sources unique?
    Dr. Murray. Thank you for the question. That's actually a 
very easy question to answer. The answer is yes.
    Mr. Valadao. There's follow up.
    Dr. Murray. They are unique. The ALS is our lowest 
wavelength light source. It has unique properties where you can 
actually go in--first of all, if you're going to look for 
what's called soft matter, otherwise known as living things, or 
polymers or liquid crystals, that is exactly the wavelength 
range you want to use. Also you can hit resonances with various 
chemicals or various atomic structures that you can't with 
higher x-rays. So if you want to do a certain type of 
experiment, you would want to go to ALS. As you are probably 
aware because they probably told you, they wish to do an 
upgrade to stay at the, you know, world class. And actually I 
will say we wish that all of our light sources remain at world 
class. Each of them has from 3,000 to 5,000 users and they are 
oversubscribed by at least a factor of 3. We have to turn 
people away.
    Mr. Valadao. All right. So then what is U.S. position 
relative to other countries when it comes to light sources and 
what is the Office of Science's plan to moving forward to meet 
scientific needs in the future?
    Dr. Murray. So we are I would say competing with Europe and 
Japan and China for the best light source facilities. Currently 
we are in good shape, but we need to make sure that we have the 
upgrades that all of the light sources need, and they are 
upgraded on a schedule so that they do remain world class.
    We currently have in a charge to the Basic Energy Sciences, 
which runs the light sources, Advisory Committee to look at all 
the proposed upgrades in basic energy science and ask the 
question, is it world-class science? Will these provide world-
class science? And second, are they ready for an upgrade now? 
Have they worked out the engineering parts enough so that we 
could consider putting them in line for an upgrade?
    Our plan is to, of course, balance research with facility 
construction, but we have to have world-class facilities. So 
our plan would be to do upgrades in a rolling fashion just as 
we rolling fashion to upgrade our computers.
    Mr. Valadao. Ok. And for Dr. Orr, it is clear that from 
increases provided in the Office of Science that construction 
increases, excess computing, optimal facility operations are 
the highest priorities for this account. However, tradeoffs 
between running facilities at full capacity, research support, 
and construction of new technologies will have to be made in 
the coming years. Can you discuss the strategic future of the 
Office of Science given a flat budget scenario? And what are 
the Office of Science's greatest strengths, and how can we 
improve them in light of flat funding scenarios?
    Dr. Orr. Well, I would say that given my vantage point of 
looking across all the programs that research programs in 
science and energy at DOE, the Office of Science I think 
actually has the most rigorous process for thinking about what 
priorities are and in trying hard to balance the needs for the 
facilities, but also to have the support of the research 
communities that make use of them.
    Dr. Murray also mentioned that we make careful use of the 
Science Advisory Committees to help us think through where the 
research opportunities are, where the highest priority 
investment should be made, and we will absolutely continue to 
use that mechanism going forward as we make the tough 
tradeoffs.
    In some sense assembly of every budget is one where you ask 
the question of balance, of investment across the portfolio, 
but also where can we invest the next dollar for the highest 
scientific return for the country. So we're absolutely 
committed to do that in whatever funding environment we find 
ourselves in.
    Mr. Valadao. Thank you. Thank you, Chairman. I yield back.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And thank you Dr. Orr 
and Dr. Murray. I wanted to go into the advanced scientific 
computing area that's been already spoken of. It has been clear 
that it is a priority and it is important, just as the 
discussion around the issue of the light source discussion you 
had with Mr. Valadao.
    So with those two in mind, in light of the budget request 
proposals, there is an increase for advanced scientific 
computing research within the Office of Science. And we know 
that the national labs have an incredible computing resource 
and we are part of the top 10 most capable supercomputers in 
the world. But every sector of our society has become dependent 
on growth in a computing performance in order to continue to 
drive innovation in science and technology, but our Nation's 
leadership in advanced computing is increasingly been 
challenged as you have said by other countries.
    So how will this proposed budget be used to keep the U.S. 
at the forefront of computing technology?
    And then if you can provide us with an update on 
development of the plans in terms of moving the DOE to provide 
a report on the plan that develops the exascale computing 
systems. So we need that kind of information in order to just 
sustain the increase in budget, but there is always that 
problem like you described balancing your budget and trying to 
find that priority.
    Dr. Orr. Yeah, let me start and then I will ask Dr. Murray 
to chime in here. If you look back at the history of big 
advances in computing in this country DoE has actually been in 
the lead for a number of them. The one that sticks in my mind 
was at the time we agreed to stop testing nuclear weapons and 
we wanted to be able to simulate what happens as those devices 
operate in a way that we could assure ourselves that the 
stockpile was maintained in an appropriate way and that the 
deterrents would be there. The need for that advance in 
computing led to a big investment which led to a quantum leap 
in computing power. Once that was available, of course the 
scientific community said, well, heck, we can use this to do 
all kinds of cool stuff that we could not do before.
    This time around the question you asked about the 
leadership in computing, we recognize that leadership in many 
fields fundamentally makes use of the highest performance 
scientific computing and, therefore, we are leading the way in 
the Office of Science with this investment.
    Now, it does have important applications in the weapons 
side of things, so there is a substantial commitment from NNSA 
as well. But the intent there is that we will continue to lead 
the world and we will do that both by the speed of the machine, 
by the communications, because as you add processors and so on 
the communication links matter. And in the energy-efficiency 
side because the power consumption, if it just goes up linearly 
with the number of processors, you soon need one of those small 
modular reactors next to each machine.
    So the net result is that this is hugely important for us 
and for the Nation and for everything we do.
    Mr. Honda. So the bottom line is really what you have in 
our budget, if it is cut or if it is diminished, our ability to 
stay in front, our ability to complete, our ability to keep 
improving our computing power, will be diminished?
    Dr. Orr. I think that if we invest less, we get less.
    Ms. Murray. Yes, I would add that what is in the budget for 
the next 4 years is research and development with industry to 
try to figure out what is it that is going to be the next, call 
it quantum leap, but it's really 12 order of magnitude that the 
stockpile stewardship program attained. They did not do it by 
themselves sitting in a room, they actually brought in U.S. 
industry, including semiconductor industry, the IBMs of the 
world, for example.
    And I just turned to a page in the book of my cheat sheet 
which shows the plan for how we would get to exascale through 
developing bigger and bigger machines that are going to go to 
Oak Ridge, then Argonne and Livermore, then Los Alamos, then 
Oak Ridge, then Argonne, and so forth. And Berkeley will be--
the NERSC machine is upgraded regularly. Berkeley will have 30 
petaflops, which is way beyond what we have today, by the end 
of 2016. And then it will be upgraded with the machines that 
then we go to like 200 petaflops at Oak Ridge by 2018 
timeframe, and then we need to go to exascale. But we learn by 
getting bigger and bigger computers.
    One of the things that is going to be different this time 
is that what was developed and what has been developed so far 
in the industry and DOE are machines that are kind of I call 
them vanilla. That is to say they can do everything. They can 
do simulations, they can look at data sets, whatever. As we are 
going to exascale we probably will need to have different 
architectures for different problems. And so the use-inspired 
machine development will be, for example, Large Synoptic Survey 
Telescope will have petaflops of data coming in per day. And so 
how do we deal with that is an extremely good and very 
interesting question that is part of this effort.
    Dr. Orr. The DOE, we asked the DOE to provide a report on 
the plan, on developing the exascale computing system, and it 
was supposed to be developed within 180 days. So where are we 
on that report?
    Dr. Murray. I did not know about that.
    Mr. Honda. Ok. Can we get an update on that?
    Dr. Orr. We will get back to you on that.
    Dr. Murray. We will get back to you.
    Dr. Orr. I'm not sure either, so.
    Mr. Honda. Ok.
    Dr. Murray. Ok.
    Mr. Honda. Thank you. And do I have time, Mr. Chairman?
    Mr. Simpson. Sure. You have a petaflop.
    Mr. Honda. Ok. Thirty petaflops. This is about 1 year ago I 
was one of the lead authors of the National Nanotechnology 
Research and Advancement Development Act that paved the way for 
Federal Government's increased investments in nanotechnology. 
And that was a result of President Bush in his State of the 
Union message when he mentioned nanotechnology. So I had the 
pleasure of working with Chairman Balart in developing that 
bill. And then it went over to the Senate and got passed at the 
Senate with about $3.7 billion worth of grants back in '03. And 
I had the pleasure of attending the groundbreaking dedication 
of the Molecular Foundry at Berkeley Lab, and I will be joining 
them again celebrating their 10-year anniversary. And it looks 
like nanoresearch, some have said, made great progress in our 
enabling revolutionary science along with computing powers.
    Could you describe how these national scientific user 
facilities are benefiting our understanding of nanoscience and 
benefiting the economy, and what does the future look like for 
these centers and for nanoscale science at the DOE generally? 
And what can Congress do to--these are all softball questions--
support DOE's downscale science research centers.
    Dr. Murray. Yeah, the thing that is a little bit different 
about the nanoscale research centers from our other user 
facilities is that there are scientists at the research centers 
that actually collaborate with the users that come in. And that 
is incredibly important, not only for the graduate students who 
don't know how to use the machines, but also for industry. So 
there are tremendous collaborations with industry. We cannot do 
exascale without the nanocenters. For example, because things, 
and particularly things in energy technologies, happen at the 
nanoscale, it is materials, it is chemistry, and they are truly 
essential. They are also oversubscribed. Right now they are 
just flourishing and I think--I am not absolutely certain, I 
might ask Pat, how many users there are, but I will hazard a 
guess that they are in the thousands, including quite a bit--
yes? Thirty thousand----
    Dr. Dehmer. No, about 2,000.
    Dr. Murray. Thirty thousand across the user facilities for 
Office of Science. But they are absolutely essential.
    So one of the things that a nanocenter did recently that I 
thought was incredibly cool, and this is like why didn't I 
think of that, is reducing the wasted heat of an ordinary light 
bulb. And that was an Energy Frontier Research Center as well 
as the Molecular Foundry, by putting nanoscale--call it 
photonic bandgap structures--around the tungsten filament that 
reflect the infrared light back to the tungsten. So they have 
reduced the energy loss of a light bulb to better than what an 
LED is. That is really cool.
    Mr. Honda. And it extends its life, also, does it?
    Dr. Murray. Don't know if it extends its life because the 
tungsten filament probably burns out a lot faster. However, 
this is using fancy photonic bandgap science and nanocenters to 
do something that is--you know, could affect a huge number of 
people.
    Mr. Honda. Mr. Chairman, if I could ask one more question. 
Using these----
    Mr. Simpson. Wait one second before you ask one more 
question. I am still trying to understand this. Why is this a 
benefit? Just out of curiosity, if the filament burns out 
sooner, so you replace it sooner. I mean, you have reflected 
heat back, but big deal. It used to warm up my house, now I 
have got to have my electric heater running more to warm up my 
house because now that heat isn't going into my house with all 
of the lights being on. I'm curious as to what the benefit is 
that we reflect it back to the filament?
    Dr. Murray. So I will answer that you live in Idaho.
    Mr. Simpson. Yeah.
    Dr. Murray. If you happen to live in Florida, you would 
have a great benefit because you would not have to put your 
air-conditioning on.
    Mr. Simpson. Well, that would be a mistake living in 
Florida instead of Idaho. Go ahead.
    Dr. Orr. Could I just jump in here as long as you are 
poking fun at this?
    Mr. Simpson. Yes. I mean, I am not saying it is not cool.
    Dr. Murray. No, I just thought it was----
    Dr. Orr. You know what is cool about it is that it 
increases the overall efficiency of how much electricity it 
takes to make light that gets out into the room.
    Mr. Simpson. So it takes less electricity to light one of 
these light bulbs than it does a----
    Dr. Orr. Yeah, or you get more light for the same amount of 
electricity. That is the idea. Now cost, of course, is an issue 
here.
    Mr. Simpson. Sure.
    Dr. Orr. And these are fancy materials. But it tells you 
the opportunities that fundamental science can have for these 
kinds of hybrid interactions that really might pay off in a 
real way even if we don't use it exactly in that form.
    Mr. Simpson. Yeah, yeah.
    Mr. Honda. That was pretty cool. You probably could cook 
potatoes faster, too.
    Mr. Simpson. It doesn't take as much energy to cook a 
French fry.
    Mr. Honda. The other question I had was kind of off 
subject, but using these technologies, supercomputing, 
nanoscale, how close can we get or how close are we in 
replicating photosynthesis? If we can do that it seems to me 
that we could really move towards creating fuel without having 
to go through the process of the billions and billions of years 
that takes for----
    Dr. Murray. That certainly is a grand challenge. We are not 
there yet. Life over billions of years has managed to do things 
that we don't know how to do yet. We do have an energy hub on 
exactly that, which is can we take light from the sun and 
create fuels out of it. It is, I would say--I would hazard a 
guess, 20 years out. But as we study how life actually does 
this and the same thing for a biofactory, we can either make 
things that look like life, biomimicry, or we can take things 
that are alive, such as yeast cells, and have them begin 
manufacturing things.
    Mr. Honda. But taking these computational powers and going 
down to nanoscale, merging together with the light source that 
Mr. Valadao was talking about, it seems that we could compress 
that time.
    Dr. Murray. You are right.
    Mr. Honda. But we need research monies. But the investment 
will return much higher it seems to me.
    Dr. Murray. I agree. It is a grand challenge. Actually a 
challenge of mimicking what life has been able to do is another 
grand challenge, not just, for example, creating fuels, but all 
sorts of things. Self-replicating, for example, and we are on 
it. That is an important challenge for science.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Simpson. I am tempted to ask if we are even close to a 
perpetual motion machine, but I won't.
    I am frankly inadequate to sit in a hearing with this stuff 
because most of it I don't understand. It is fascinating stuff 
and it is good to go look at and I really get excited about 
science just for science's sake, but it is way above my 
comprehension level to a large degree.
    Let me ask you this, seldom do we think about the 
Department of Energy when somebody wants to talk about the 
biological sciences. Usually you think of Labor-HHS, NIH, CDC, 
etc. You have been included in the BRAIN Initiative, the 
President's BRAIN Initiative and the President's Cancer 
Moonshot.
    Explain to me how the Department of Energy is going to be 
involved in what are fundamentally biological sciences here?
    Dr. Orr. Well, I would just start by saying that we 
actually have been a long-term player in the biological 
interactions of some sort, mostly through the earliest work on 
radiation and what that did to living things. So we have had a 
very long effort there. In some ways that is what led to the 
human genome, because as we tried to figure out what kind of 
bad things could happen when radiation damaged the molecules, 
it was clear that one of the ways that you could cause damage 
was by damaging the genetic material. So that led to efforts to 
figure out what was there, and it got changed, and of course, 
now that, in turn, is what makes so much of what is called 
precision possible.
    Now, the medicine part of that, definitely NIH, but with 
regard to things like, how do we understand very complex 
interconnected neuron systems like the brain, that has a big 
computing element to it, and how do we understand huge datasets 
that involve genomic information, and images, and patient 
history, and all kinds of things, how can we pull those 
together and use advanced computing and sort of unsupervised-
machine learning to----
    Mr. Simpson. Explain unsupervised machinery----
    Dr. Orr. Well, in other words, tell the built software that 
can go look at all this data and extract patterns out of it, 
and help us figure out ways to make use of information we 
gather about parents, for example, to help just add, how to 
treat a particular cancer, or how to avoid the conditions that 
led to it in the first place.
    Mr. Simpson. So these are machines that can teach 
themselves essentially?
    Dr. Orr. That is a part of the--and because this is a 
classic problem that actually goes much broader than just 
biological implications, it creates an opportunity for us to 
learn how to do some things as part of the advanced computing, 
an exascale exercise that will aid our whole exascale effort in 
the first place. So there is a legitimate role in here to do 
some things together with NIH, that neither agency can pull off 
as well on their own, and so that is the part that we are 
looking for, is that.
    Mr. Simpson. A lot of the facilities that the Department 
has are user-friendly facilities, but are they usually paid for 
under work for others, a lot of the activities?
    Dr. Orr. Some are. We provide the fundamental--the basic 
facility, but in some cases, for example, NIH comes in and we 
built the synchrotron, and they have built some end stations 
that work on their kind of biological systems.
    Dr. Murray. If I can interrupt for a bit. We provide 
competitively, so the users have to compete to use the 
facility. But once they are deemed scientifically competitive, 
the facility use is provided free. That is true for everyone 
except those who do not want to publish any open literature and 
want proprietary information. You know, so businesses actually 
have to pay the cost of using the facility, but NIH researchers 
do not have to pay the cost of the facility.
    Mr. Simpson. Because it is the government solely? I mean 
government organization.
    Dr. Murray. Because we provided it through their--you know, 
they are doing good science. They do have to pay the cost--NIH 
has to pay the researchers their time, we do not do that, but 
the facilities, including the computational facilities, are 
free of charge.
    Mr. Simpson. Ok. Marcy.
    Ms. Kaptur. Yes. As I am listening to all this, Mr. 
Chairman, I keep looking at the budget request of $5.672 
billion. It is not a small budget.
    Mr. Simpson. True.
    Ms. Kaptur. And I think about the panel we had earlier in 
the week when we asked, what do you consider to be your major 
challenges, in addition to the work you do, and basically it 
was, those that will follow us. And how do we make science of 
interest to the next generation.
    And I keep rolling that over in my mind and looking at your 
budget, and thinking to myself, can the Department of Energy be 
more relevant to the next generation than it currently is? Not 
that you are irrelevant, you are not, because you have 
internships and you bring up labs, and so forth, but I thought 
I would just put this in, because I find Secretary Moniz most 
captivating, and he was up here before the committee the other 
day, and he is quite able to communicate. He has a very special 
gift.
    So I am asking you to be messengers back to the Department 
of Energy, thinking about all of your labs, and how can we 
create programming that would be shared with our science 
centers. Cleveland has the Great Lakes Science Center; Toledo 
has Imagination Station, there are science centers around the 
country, or with public television. Does the Department of 
Energy have any role to play?
    Now I have all these images of Dr. Moniz being a part of 
programming, like, there was a DVD called ``Finding Nemo'' a 
few years ago. It was the best-selling DVD of all time. And it 
was the two highest grossing G-rated films ever in our country, 
so I guess I could say, Finding Ernie, or Traveling with Ernie, 
and I could see part of this budget, part of this budget, and 
he would like to be inside the internal combustion engine that 
I saw in one of your labs in California, trying to figure out 
how propulsion really works.
    That registers in my part of the country where, you know, 
you have drugs, drips, and cars are made and all. But you could 
make it fun, you could task each one of your labs, you have got 
all these labs, 2 dozen labs every year, each of them would 
have to come up with two ideas that could be put to film, 
right. So, we then find him inside of algae in Lake Erie, and 
maybe going down with a snorkel and those things you put on 
your feet, what do you call those, when you swim.
    Mr. Simpson. Flippers.
    Ms. Kaptur. Flippers, flippers, right. So he is down there, 
then I think about the laser beam projects that I have seen, 
and can you imagine, you know, up on a wind turbine up there at 
NREL. I mean, there are all kinds of places you could be 
finding Ernie or traveling with Ernie, and we need a modern day 
Mr. Wizard. I was sort of auditioning you, Dr. Orr, and you 
have a wonderful voice, and you look a little bit like Mr. 
Wizard when I grew up.
    Dr. Orr. I think so, yes.
    Ms. Kaptur. I thought he was a very good-looking man, he 
used to wear, like tweed jackets, right. But I keep thinking, 
but how do we reach out, teachers could do this, you would have 
DVD, you could put, you know, public television could do it, we 
have to do something to break through the clutter, and you have 
this vast indecipherable world, it is like a planetary system 
to its own, but it has such unmapped potential to teach. That 
is not what you are authorized to do. That is the Department of 
Education. They are not succeeding in their mission, so they 
need some help.
    And I am not against them, but I see these assets that are 
not fully operationalized, and you have got intrigue. You have 
got unbelievable capacity and there is a communications budget 
at DOE, and it would not take that much. And obviously the 
secretary, his friends in high places, like at Google, and they 
hand out all these keyboards and all this stuff, you know. 
There is really something that can be done. So I just want you 
to think about it.
    Dr. Orr. Yes.
    Ms. Kaptur. Just communicate a message back. That was not 
really a question. I will be pleased to yield to the gentleman.
    Mr. Simpson. What you are bringing up is kind of 
interesting because one of the great shows of all times that 
got me interested in this stuff was Carl Sagan's ``Cosmos,'' 
which kind of took it down to almost understandable level with 
all this stuff, and I mean, I have got it on DVD, I have got it 
on VHS, I have probably got it on something else that we used 
to use, probably on disk, or something.
    Dr. Orr. A track----
    Ms. Kaptur. He could, out of a battery.
    Dr. Orr. I cannot resist saying that I love the idea of all 
of us sitting around thinking up things for the Secretary to 
do, and----
    Ms. Kaptur. Well, we could cast people in his like, but I 
would say, you have a gold mine, and I do not feel that gold 
mine, I can guarantee you, you talk about usage from Ohio, 
yeah, we have got usage, but if you look at the number of 
people that you directly touch at your labs, it is a very small 
percentage of the American people. But you have a powerhouse 
inside those labs and inside your department, and the 
department is a rather--compared to the SBA, you do not meet 
the ground.
    You are into the future, but it is that intrigue that could 
captivate, I think audiences, and we have platforms to display 
you, you just do not give yourselves to us in a way that is 
easily accessible to the American people, and I am just pushing 
you a little bit to say, think about that. With a $5.67 billion 
budget I think that we have the capacity to reach deeper into 
the country, so just, Dr. Murray, you are an educator, you are 
a researcher, you understand this and we have to reach the next 
generation in a really fun way.
    Dr. Orr. Now, I think you are right, that we need to learn 
better how to tell stories about, you know, if all of us--I 
mean, gosh, you cannot hardly cross the street without using 
the GPS that is in your cell phone. But there are so many 
layers and threads of science woven into the ability to do 
that, that being able to tell stories about the science that we 
kind of take for granted is actually done, would be a good way 
to help get kids excited for doing this in the future.
    Ms. Kaptur. I will tell you. When I went out to one of your 
labs and I saw, based from the nuclear research that the 
department does, this film, and you could not even see it, but 
at the end of it, was a nuclear chip that is being developed to 
use in medical to irradiate bad cells, not the good cells, just 
the bad cells, and it was, I do not know how many years from 
development, but I thought imagine if somebody at Cleveland 
Clinic, which is one of the institutes, imagine if those 
students could see that.
    Imagine if the Great Lakes Science Center in Cleveland 
could broadcast this, can you imagine the number of--it takes 
you into the future. And that is what you really do, and I 
think that is where young people would be attracted if you 
could somehow put a ring of folks around yourself, to disgorge 
what is already in your purview, it is just locked up.
    And I am going to get a little political now. We talk about 
1 percent versus 99 percent, the 99 percent, large numbers of 
them need to understand why you are relevant. And I think that 
this is a way to do it, while we do the most important task and 
that is to raise the next generation to love science, to not be 
afraid of it, to understand how it relates to their lives, and 
to see that it is part of the magic that is going to help 
America and the world.
    And right how it is locked up. It is really--I read in one 
piece of the testimony 31,000 people users or something, these 
must be direct users of the lab, they have 325 million people 
now, or something. The way political people look, the way I 
look at that is, there is a mismatch here, between those that 
are creating the funds for the $5.67 billion to be transferred 
to the Department, and those that are directly involved.
    So I have made my point. But I want you to think hard about 
that, and I said that to the prior panel too, we need a modern 
day Mr. Wizard, we need that face, and if Nemo could do it, 
certainly, an institution with billions of dollars, and an 
interest in the future can help our country. So I am just 
challenging your staff and those who are listening. And I thank 
you, Mr. Chairman, and members.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. I have got a 
couple of questions. The first question on the isotopes program 
transition; several years ago the Department of Energy 
transitioned all isotope production programs to the Office of 
Science; a transition that was directed by the Congress a 
number of years prior. Can you briefly provide an update to 
those efforts?
    Dr. Orr. I am going to let Dr. Murray respond to that.
    Dr. Murray. Ok. I have had one briefing on this, so I will 
provide this as updated as I can, and I can also give you more 
information.
    Mr. Fleischmann. Thank you.
    Dr. Murray. But in 2009, Congress directed the Isotope 
Program to move to nuclear physics. And nuclear physics charged 
their Advisory Committee with, okay, so now we have the isotope 
program, what do we do. They have so far created two strategic 
plans; the Committee has a new updated strategic plan, and has 
looked at what the Isotope Program is doing in 2015. The 
outside committee that looked at them was very pleased with the 
drawing from across the Department, various either reactors or 
accelerators that can create various isotopes that are needed.
    The Isotope Program started from the Atomic Energy Act, so 
DOE has the mission to provide isotopes to industry or to 
scientists as needed by the U.S., but in any competition with 
any industry partner who can create the isotopes themselves. It 
turns out there are not that many people that do this. You have 
to have a reactor, or you have to have a very large 
accelerator.
    And so, we are providing the isotopes that are necessary. 
One of the issues in the program, which you will see is in our 
fiscal year 2017 budget, a small amount of money to start a 
facility to make stable isotopes, this is the first facility in 
20 years. We have not had the possibility of making stable 
isotopes.
    Mr. Fleischmann. Dr. Cherry, if I may?
    Dr. Murray. Yes.
    Mr. Fleischmann. Is this the facility that is proposed at 
Oak Ridge?
    Dr. Murray. Yes. It is.
    Mr. Fleischmann. Ok. Very good. If I may, let me ask my 
follow up.
    Dr. Murray. Ok.
    Mr. Fleischmann. We are on the same page. The request 
proposed to build a stable isotope production facility at Oak 
Ridge to produce medical isotopes and to provide inputs for 
commercial and suppliers of isotopes. Can you, please, explain 
then, when this new activity is needed, and what this brings to 
isotope program?
    Dr. Murray. Yes, absolutely. So as it turns out, for the 
last 20 years we have not had the capability in the U.S. to 
make stable isotopes. This turns out to be okay for the last 20 
years, kind of okay, because we could either get them from 
Russia or we had them in a little drawers in Oak Ridge. We are 
running out of things and drawers in Oak Ridge, and we are 
relying on Russia for our stable isotopes.
    One of them is kind of important. It is Lithium-7. It is 
used in nuclear reactor coolants, and our industry needs it and 
we cannot make it. So that is an issue.
    This facility will also make the isotopes that are around 
the Molybdenun-98 or Molybdenum-100, which are used by NNSA, 
which is the agency that is responsible for the Moly-99 
isotope. It is the one isotope that we do not create or 
provide.
    In order to actually get Moly-99, you have to start from 
somewhere, and one way of doing that is Moly-98 or Moly-100. 
This isotope is used for pretty much all cancer treatment and 
radiation therapy in hospitals.
    Mr. Fleischmann. Thank you. Thank you very much. Dr. 
Murray, we have touched on this earlier, but it is very 
important. The scientific user facility supported by the 
Department of Energy, Office of Science, provides some of the 
most unique, powerful, cutting-edge tools to over 30,000 
university, industry, and government scientists from all over 
the country.
    Given the importance of these user facilities to the 
Department of Energy's overall science mission, this committee 
directed the Basic Energy Science Advisory Committee to 
prioritize the next three to five major user facility upgrades 
or construction projects within the Basis Energy Science 
Program. What is the current status of this effort, and has DOE 
provided any further direction or guidance to BESAC about 
implementing this requirement?
    Dr. Murray. Yes. I provided, I think it was my first day of 
work, a letter to the chairman of BESAC with the charge, and 
the chairman of BESAC has created a subcommittee of BESAC to 
look at the charge. And the charge is exactly the same charge 
that we use for our use for our project management of any major 
projects, including upgrades, which is, is this upgrade--they 
are looking at five different proposed upgrades, are these 
upgrades--is this upgrade going to produce world-class science? 
Do they have a good science case?
    And second, is this upgrade ready to go? Do they understand 
all of the engineering that they have to do, and have they 
thought through the design well enough that they could start 
actually doing real designs? That committee will report out in 
June. So I am looking forward to that report.
    Mr. Fleischmann. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, I understand in my absence 
there was a discussion about the issue of new facilities coming 
online and the problem of making sure you can pay for their 
operation.
    I would just associate myself with that conversation. I do 
not know if it got specific enough as to whether or not the 
agency is going to provide a 5-year plan to show how this is 
going to work out as far as the operation of these new 
facilities. I do not think that is a bad idea either to put 
that into context.
    So thank you very much, Mr. Chairman.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Mr. Chairman, I want to talk a little bit about 
tech transfer to Cyclotron Road.
    Our national labs are really an amazing resource to this 
country, both in the facilities that they house and in the 
quality of the scientific talent that they attract, and we need 
better use of these resources to drive development in the 
private sector and make an impact on the energy industry.
    There is an innovate program at Lawrence Lab called the 
Cyclotron Road. The Cyclotron Road is combining the best 
elements and Silicon Valley startups with top talent, sense of 
urgency, and an all-in attitude and commitment, with the tools 
and expertise of Berkeley Lab to help these technology 
entrepreneurs to develop their cutting-edge clean energy 
technologies. And this is a type of partnership and innovation 
that we need to reinvigorate our energy innovation and 
accelerate the commercialization of these new technologies.
    So what is the department's current plans for this program 
at Berkeley Lab? And what is being done to expand the Cyclotron 
Road program to other facilities and other national labs?
    Dr. Orr. Ok, well, let me start and Dr. Murray can join in 
if she wishes.
    This has been an experiment that provides modest resources 
to let startups or small companies make use of the facilities, 
link up with the scientists at the lab that has an interest in 
the area, and make use of some of the incredible facilities 
that we have at the lab. So it is a little different from the 
transfer stuff out of the lab, but rather to create a 
conversation that we hope will be productive.
    I happened to be out for a meeting at Lawrence Berkeley 
here not too long back, and I had breakfast with a bunch of the 
young folks who were working on this scheme. And they were 
uniformly enthusiastic about both the scientific opportunity, 
but the chance to put some interesting questions in front of 
the scientists at the lab, who, of course, got interested in 
what they are doing, and so a good interchange all the way 
around.
    I know that the other lab directors are looking over the 
fence to see where something like that might work at their labs 
as well, and that is a conversation we are trying to encourage 
as part of our broader discussions with the Office of 
Technology Transition.
    So experiment in progress, conversation underway, and I 
think you will see more of that going forward.
    Mr. Honda. You will keep us updated on that. Thank you, Mr. 
Chairman.
    Mr. Simpson. If there are no other questions, Dr. Orr, we 
have taken your whole day.
    Dr. Orr. I think that is what I get paid for.
    Mr. Simpson. We apologize for taking your whole day, but 
you guys all do exciting work. Like I say, I wish I was smart 
enough to ask some questions because you do really need stuff. 
It is fascinating to go out and see what you do and have it 
explained to me when I am there, even though an hour later I am 
kind of going now what the heck was that?
    But I am glad there are smart people like you in the world 
that are making advances to make the world a better place for 
all of us. And like I say, sometimes I just want to sit down by 
a fire with a good book and forget about all this stuff.
    Dr. Orr. I do that, too.
    Mr. Simpson. I tell my wife all the time I am glad I am not 
going to live too much longer because the world is changing so 
rapidly, I am not sure I could keep up with it.
    I look at a kid going to high school today, or grade school 
today, what is going to change in their lifetime? How are they 
going to keep up with it? You know, it is fascinating stuff. I 
love the commercial on TV where the grandkids stop by the 
grandfolks' house, and they rush out to welcome them with the 
trays of all of their appliances, and hand it to them and say 
these do not work, you know. It is for the kids to fix them. 
That is kind of the way I am, at this these do not work anymore 
stage.
    I appreciate all you do, and it is good to work with you, 
and we look forward to working with you on putting together 
this year's budget, so keep up the good work. Thank you for 
being here today.
    Dr. Orr. Thank you.
    Dr. Murray. Thank you.
    Mr. Simpson. Thank you very much.
    We are adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  

                                           Tuesday, March 15, 2016.

             DEPARTMENT OF ENERGY, ENVIRONMENTAL MANAGEMENT

                                WITNESS

DR. MONICA REGALBUTO, ASSISTANT SECRETARY FOR ENVIRONMENTAL MANAGEMENT, 
    DEPARTMENT OF ENERGY
    Mr. Simpson. I would like to call the hearing to order. 
Good morning, everyone. Welcome to what is the last official 
hearing this year of the Energy & Water Subcommittee. We saved 
the best for last. I would like to welcome Dr. Monica Regalbuto 
to her first appearance before the Subcommittee. This is the 
first time since March of 2011 that we have had a Senate-
confirmed Assistant Secretary for Environmental Management 
testify before the Subcommittee. So congratulations on getting 
through the Senate. We look forward to your testimony today and 
to hearing more about your plans to lead the environmental 
cleanup program through its many challenges.
    The purpose of today's hearing is to discuss the 
President's Budget Request for the Department of Energy's 
Office of Environmental Management. That request totals $5.4 
billion, a reduction of $773 million below fiscal year 2016. 
Instead of requesting enough funding to keep all of the cleanup 
sites operating, the Administration has proposed to shift 
spending for the cleanup of Paducah, Portsmouth, and Oak Ridge 
to mandatory accounts. The Department includes these mandatory 
funds in their budget totals, but they are not the jurisdiction 
of the Appropriations Committee. Rather, this proposal to 
expand the authority of USEC Privatization Fund is ultimately 
under the purview of the authorizing committees. This budgeting 
gimmick allowed the Administration to push to the side the cost 
of these cleanup activities and use that money for some other 
initiative that they wanted to highlight. This is simply 
irresponsible and risks hundreds if not thousands of cleanup 
jobs. Once again it will be the work of this Subcommittee to 
put forth a responsible funding plan that will keep these and 
other programs of the Department of Energy functioning.
    Please ensure that the hearing record, responses to the 
questions for the record, and any supporting information 
requested by this subcommittee are delivered in final form to 
us no later than 4 weeks from the time you receive them. I also 
ask members to submit any additional questions for the record 
to the subcommittee by close of business tomorrow.
    With those opening comments I would like to yield to our 
ranking member, Ms. Kaptur, for any comments that she would 
like to make.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Kaptur. Thank you, Mr. Chairman. Dr. Regalbuto, welcome 
to the subcommittee and thank you for taking time this morning 
to discuss the Environmental Management Program.
    The program faces massive challenges. You surely know that; 
we thank you for taking on this responsibility. The legacy of 
the Manhattan Project is an obligation we as a country must 
address. The continued issues at the waste isolation plant and 
at Hanford are illustrative of not only the dangers posed by 
the remaining materials, but also the technical and budgetary 
challenges that further complicate the eventual success of the 
Department's efforts.
    The budgetary challenges this year are exacerbated by the 
ill-conceived movement of a portion of the program to mandatory 
funding. There remain lingering concerns about the Department's 
safety culture. With such a critical mission the work 
environment at your sites must ensure employee concerns are 
addressed in a timely manner and without fear of retribution. 
Given the constrained fiscal environment it will be crucial 
that all resources are employed to their fullest potential. 
Therefore, issues of project management and corporate 
governance are increasingly vital to the success of the 
Department's mission. The Department must follow through with 
strong leadership and fundamental management reform. And 
failing to do so will significantly inhibit the execution of 
this mission as well as the Department's credibility.
    Finally, I would like to reiterate the budget hurdles posed 
by the use of mandatory funding and uranium sales to fund this 
important work. While I appreciate the Department is working 
with me to address concerns at the Portsmouth site, your budget 
effectively requests no funding for the uranium enrichment D&D 
fund. Though the Portsmouth site is one of three primary sites 
funded by this account, and is not in my district though it is 
in my State, and it is one of the highest unemployment counties 
in our country. Additional job losses and job uncertainty send 
harmful waves throughout the local economies of these sites. I 
hope we can continue working together to minimize instability 
and ultimately complete the important cleanup work at the site 
and find a way to transition workers who may be losing their 
positions.
    Thank you, Mr. Chairman, for the time.
    Mr. Simpson. Thank you. We are looking forward to your 
opening testimony.
    Ms. Regalbuto. Good morning, Chairman Simpson, Ranking 
Member Kaptur, and members of the subcommittee. I am pleased to 
be here today to represent the Department of Energy's Office of 
Environmental Management and to discuss the work that we have 
already successfully accomplished and what we plan to 
accomplish under the President's fiscal 2017 budget request.
    The total budget request for the EM program is $6.1 
billion, which includes $5.4 billion of new appropriations, and 
$674 million of proposed mandatory spending as you correctly 
mentioned. The request will allow EM to maintain a safe and 
secure posture across the complex. We are maximizing our work 
on compliance activities.
    I would like to take this opportunity to briefly highlight 
a number of EM's recent accomplishments. Earlier this month, on 
a schedule with agreement with the State of Washington, workers 
started pumping tank waste from AY-102, one of our oldest 
double-shield tanks at the Hanford Site. This is a huge 
accomplishment by our workers, as you know that they are 
working in very, very challenging conditions. At the Savannah 
River site, the 4,000th canister radioactive glass was recently 
poured. Achieving this milestone enabled us to close the seven 
high level waste tanks at the site. And at Moab Site half of 
the estimated 60 million tons of uranium mill tailings have 
been removed and shipped to an engineering disposal cell.
    The fiscal 2017 budget request will allow us to continue to 
make progress in our ongoing cleanup priorities. Among EM's top 
priorities is the safe reopening of WIPP. EM continues to 
support recovery from two incidents at the facility that 
interrupted the national program for the disposal of 
transuranic waste. The request will support initiating waste 
emplacement operations by December of 2016, if it is safe to do 
so. In Idaho, the request will support the Integrated Waste 
Treatment Unit. This facility is planned to treat approximately 
900,000 gallons of sodium-bearing tank waste. At the Savannah 
River Site we will complete construction and ramp up 
commissioning activities at the salt Waste Processing Facility 
which will significantly increase our ability to treat tank 
waste. In addition, we will also continue to receive, store, 
and process spent nuclear reactor fuel. At the Hanford Office 
of River Protection the request supports continued construction 
of the low activity waste facility, balance of plant, and 
outfitting of the analytical laboratory, which are the 
centerpieces of the Department's plan to begin the direct feed 
of low activity waste as soon as 2022.
    The requests at Richland allow us to continue important 
work on the central plateau and to complete the demolition of 
Hanford's Plutonium Finishing Plant, once one of the most 
dangerous buildings in the complex.
    At Oak Ridge the request supports continuing design of the 
Outfall 200 Mercury Treatment Facility at the Y-12 National 
Security Complex and complete the demolition of Building K-27, 
the last gaseous diffusion enrichment processing building. It 
will mark the first time that a gaseous diffusion enrichment 
site has been completely decommissioned.
    With the most challenging cleanup remaining we understand 
importance of technology development in reducing life cycle 
costs and enhancing our effectiveness. To help address many of 
the technical challenges involved the request reflects a total 
investment in technology development of $33 million. The 
funding will allow us to continue to integrate robotics 
technology into our efforts to help improve overall work and 
quality of life by easing the performance of physically 
demanding tasks.
    In closing, I am deeply honored to be here today 
representing the Office of Environmental Management. We are 
committed to achieve our mission and will continue to apply 
innovating strategies to complete our mission safely.
    Thank you very much for having me here today and I will be 
happy to answer any of your questions.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
    
    Mr. Simpson. Thank you. Ms. Kaptur
    Ms. Kaptur. Thank you, Mr. Chairman. Doctor, in order to 
give the public a sense of how much has been accomplished and 
what remains to be accomplished, you stated in your testimony 
there is about 300 square miles left of various types of 
cleanup. Put that in context for the American people, how much 
has been expended to take care of how many square miles? You 
say in your testimony what is remaining is some of the most 
daunting cleanup. Could you explain where we are on a platform 
here to finish this? Put it in a context.
    Ms. Regalbuto. I would be happy to do so. Thank you very 
much for your question. The Department of Energy Office of 
Environmental Management breaks down the projects into a number 
of different categories. One is material disposition and spent 
fuel disposition, the other one is sold waste, followed by soil 
and groundwater and facility activation, and then the most 
challenging one, which is liquid waste.
    In the area of nuclear material disposition and spent 
nuclear fuel disposition, we pretty much are complete with that 
task and we have successful consolidated and packaged those 
materials and they are ready to go once a disposal facility is 
available. So those we have completed. And, I am sorry, let me 
give you this for the record.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Kaptur. Ok. Thank you very much.
    Ms. Regalbuto. I am sorry.
    Ms. Kaptur. So these are all the sites?
    Ms. Regalbuto. These are all the sites and they are lumped 
by the level of risk and difficulty that we face. So the first 
two categories, which is nuclear material disposition and spent 
fuel, we pretty much have completed--and you can see that by 
the blue bars, almost all the ones to the right hand side. And 
we have a number of containers and the bulk of the material. So 
once a disposal facility is available those are ready to go.
    The next category I would like to highlight is solid waste 
disposal. And let me focus your attention to contact-handled, 
which is the low level waste, the mixed low level waste and the 
transuranic waste. Those are roughly about anywhere between 75 
and 80 percent completed. But clearly the transuranic waste 
that is remote-handled is still in just initiating. And we only 
initiated that at Idaho with terms of packing and the like. So 
it is the first site that we are actually doing this is in a 
very extensive form.
    In terms of soil, groundwater remediation, that is about 75 
percent. This is where we actually do a lot of pump and treat. 
And I would like to emphasize that this is the area, even 
though it says estimated end date is 2075, this is where when 
we invest technology we can actually have a significant 
reduction on to-go cost. So what happens right now is doing 
pump and treat and we are trying to in the future move into 
bioremediation so we don't have to spend all that energy and 
different ionic exchange resins and the material that goes into 
doing this, mechanically pumping and treating. So there are a 
number of other technologies in the future as we move forward 
that require bioremediation that are more passive and actually 
will decrease that to go cost. And we started doing some of 
that at Savannah River, so we are in the process of testing.
    So that is where, in my opinion, investing some technology 
money really will pay in the future. So we are looking forward 
to those results.
    Ms. Kaptur. In terms of the number of square miles already 
completed.
    Ms. Regalbuto. Yes.
    Ms. Kaptur. If there are 300 left how many--is it really 
the square miles or is it the amount of material?
    Ms. Regalbuto. It is more the amount of material.
    Ms. Kaptur. Material. So on a scale of 1 to 100 are we 25 
percent done, 50 percent done?
    Ms. Regalbuto. For groundwater?
    Ms. Kaptur. The whole cleanup project.
    Ms. Regalbuto. Ok, so if we don't account for the tank 
wastes, because the tank waste is by gallons versus by 
footprint, right.
    Ms. Kaptur. Right.
    Ms. Regalbuto. If you don't account for that I would say we 
are about 60 percent.
    Ms. Kaptur. Ok. All right. A very straightforward answer. 
And at a level of close to $6 billion a year, then how many 
years would it take us to complete this work?
    Ms. Regalbuto. Without tank waste, 25 years. With tank 
years, 50.
    Ms. Kaptur. All right. Thank you very much. That is a good 
way to begin this hearing. Thank you, Doctor.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Madam Secretary, 
good morning.
    Ms. Regalbuto. Good morning, sir.
    Mr. Fleischmann. Good to see you today.
    MS. Regalbuto. Thank you.
    Mr. Fleischmann. I wanted to begin my questions with the 
high-risk excess facilities. Secretary Moniz named a panel to 
find solutions to the pressing problem of high-risk excess 
facilities. What were the panel's findings and what is your 
plan and timeline for reducing the risks and taking down these 
buildings?
    Ms. Regalbuto. Thank you for your question. The Secretary's 
Infrastructure Panel or Excess Facility Panel is something that 
we all collectively collaborated. So it was Office of Science, 
NNSA, some of the smaller offices of DOE and Environmental 
Management. We have a report that is scheduled to be published. 
I believe it is at the beginning of the summer. But we 
certainly have enough information to do a briefing at any time 
that you may be available, or the committee will be available.
    Basically what it has done is it has ranked the different 
excess facilities in terms of risk. So what are the most high-
risk facilities, and associated I would say a predetermined 
cost next to each of those facilities. So, for example, the Y-
12 facilities are already on the list and I think many of you 
know that. There are also some facilities that currently are 
not on the list that belong to Office of Science. And there is 
the caveat of some small universities and the likes.
    So that integrated list will be available once the report 
comes out. And I can find out exactly the date when the report 
will be out, but we will be happy to come back and brief you 
just specifically on the findings of that report.
    Mr. Fleischmann. Thank you, Madam Secretary. If I can 
follow up in that regard. The first House nuclear cleanup 
caucus event this year is scheduled for April the 20th. As you 
know we worked very hard last year with your cooperation and 
participation to make the Nuclear Cleanup Caucus a tremendous 
caucus with tremendous bipartisan support. Very thankful for 
that. You have alluded to the report. It would be so beneficial 
to have that before April the 20th. Will the Department release 
the report before that date so that we can have an open 
discussion and build support for our challenges ahead?
    Ms. Regalbuto. I appreciate the opportunity for the cleanup 
caucus to review this report and I will find out exactly the 
date that it is available, but if it is not available by the 
date, I believe it is April 20, for the caucus, we will be 
happy to still keep it on the agenda and give an informative 
briefing to the people participating because we do welcome 
their feedback. So regardless if the report is in final 
concurrence, because it has to go through a lot of desks, we 
will be happy to report on the findings.
    Mr. Fleischmann. Thank you.
    Ms. Regalbuto. So more than happy to facilitate that.
    Mr. Fleischmann. Thank you. If I can segue into historic 
preservation. Several years ago, the Department of Energy 
entered into an agreement with the State of Tennessee and 
several other parties on historic preservation in order to 
proceed with cleaning up the contaminated buildings at the East 
Tennessee Technology Park. For the past two years funding for 
the agreement has been zeroed out in the administration's 
budget. As chairman of the House Nuclear Cleanup Caucus 
stakeholders and contractors have complained to me of the 
distrust that is created when the Department fails to follow 
through on its commitments. Why does the Department sign 
agreements that the administration will not allow to be met?
    Ms. Regalbuto. Thank you for your question and interest. We 
are committed to meeting the consent agreement with the State 
of Tennessee for the historic preservation. In fiscal 2016 we 
received, and thank you for all of your support, $6 million 
which we are currently using those funds to meet our commitment 
for the visitor center for K-25. So we are using the funds that 
we receive in 2016 and continue to do and fulfill our 
agreements with the Historic Preservation Office. I understand 
there is a viewing tower in the visitor center planned with 
that money.
    Mr. Fleischmann. Thank you. On a related issue, recently I 
had the opportunity to tour the Oak Ridge water plant, which 
was transferred to the city about a decade and a half ago, on 
the premise that it was a valuable asset that could be run more 
efficiently by local government. It has turned out to be a cash 
drain on the city due to very serious infrastructure problems. 
Many in the community want the city to tie Federal assistance 
on the water plan to future cleanup work. I would rather see 
the Department of Energy become a better partner with its host 
communities which are strapped by a low tax base from Federal 
land ownership, substandard housing from the Manhattan era, and 
an aging population living on low pensions. It does not help 
when the Department centralizes decision-making in Washington 
on complex issues where there is sometimes a lack of experience 
and knowledge about the major sacrifices that these atomic 
cities have made.
    I was interested in your comments on this.
    Ms. Regalbuto. Thank you very much. I am very familiar with 
the Oak Ridge site as I started my career back in 1988, and I 
have seen the town, as you mentioned, really not blooming 
anymore. I still remember driving to the mall and the mall was 
closed.
    Mr. Fleischmann. Yeah.
    Ms. Regalbuto. And that really has a big impact, at least 
to me, when I used to be able to go and walk around after work 
and just get a little exercise. I do recognize that a lot of 
this is an impact to your local government. And the water 
plant, the details of that water plant and in what condition it 
is and when was this transferred, is something that I will have 
to go back and look at it. And I would be happy to work with 
you and the committee related to these issues.
    I do personally recognize that sometimes when decisions are 
made the exact impact of the well being of that facility is not 
truly known.
    Mr. Fleischmann. Thank you.
    Ms. Regalbuto. So we understand that.
    Mr. Fleischmann. It was really eye opening for me to see 
the dilapidated condition in the infrastructure, and really the 
decay that is at that facility. So I do appreciate your 
assistance in that regard.
    Mr. Chairman, I have one more question in this round, if I 
may?
    Last week, Madam Secretary, I visited Protomet, a very 
successful company that started out of the Department of Energy 
system. It has requested a land transfer of adjacent property 
that is no longer needed by the government. But the lengthy 
process may cost this homegrown business to move out of Oak 
Ridge. It has become apparent that the process needs to be 
streamlined. I am told that there are multiple and duplicative 
approval points in the process with no time limits for review. 
How can we work together to streamline and shorten the land 
transfer process that is so important to several Department of 
Energy communities?
    Ms. Regalbuto. Thank you for your question. I do share your 
frustration on this land transfer. Unfortunately, as you 
mentioned, there are a number of agencies that have to be 
involved in all of this review process, and each of them have a 
set of days that they have to go through. So we are committed 
to try to streamline anything that is within our control, so 
anything within, inside DOE we can expedite and control that. 
Once it gets to interagency, it requires a little bit more 
difficulty. For example, the last transfer that we did for the 
Metropolitan Knoxville Laboratory Station for the airport had 
to go through endless steps, including signing by EPA, the 
Governor's Office, Department of Energy, transfer to the GSA, 
and eventually transfer to the city. So those are the number of 
things that we are required to do in order to transfer land, 
and I recognize that it is a very tedious process.
    On the positive side, we did send the committee yesterday 
afternoon a letter regarding a transfer in the ownership of K-
31 and K-33 to Oak Ridge Economic Development Organization, so 
it may be working down the committee, and so that puts you 60 
days away for getting 280 acres. So we are very excited about 
that. We are very excited, actually, with working with your 
community to do this, and during my business to Portsmouth and 
Paducah, I have set Oak Ridge and the model that you have for 
economic redevelopment as an example. So one of the things that 
we are going to be working with the unions and the community 
members at Portsmouth and Paducah is to bring Sue to come in 
and brief them, and also invite some of your community 
organizers to come in and teach them how they change from going 
from gaseous diffusion into an economic redevelopment area. So 
we are very happy and it was very well received by both 
Portsmouth and Paducah, because we have done this once already.
    Unfortunately, we know how much this costs, too, which is 
significant, but we also know some of the headaches that you 
mentioned and some of the lessons learned, so, hopefully, 
communities like Portsmouth and Paducah can benefit for the 
same type of turning gaseous diffusion plants into more 
economic development areas. And I certainly hope that your 
small business does not leave, because we do champion small 
business communities, and we actually try to do our best to 
promote that and increase that at the local level.
    Mr. Fleischmann. Madam Secretary, thank you for your hard 
work on this issue, and I appreciate the very good news on the 
land transfers.
    Ms. Regalbuto. Yes, we are very happy.
    Mr. Fleischmann. Mr. Chairman, I yield back.
    Mr. Simpson. Thank you, Doctor. A Federal judge has set new 
deadlines for the Hanford Vitrification Plant requiring this 
utility to come online and by 2036. How will the judge's ruling 
impact DOE's plans at Hanford? And does your budget request 
support the new deadlines or are we going to expect an amended 
budget request once you have had a chance to fully review the 
judge's decision?
    I notice that DOE proposed sliding milestones. I find that 
interesting, sliding--I am not sure if those are like sliding 
wedding vows or what, but ultimately, the court rejected those. 
What will happen if DOE is not going to meet a deadline?
    And finally, EM has been operating for years without a 
formal performance baseline for the Waste Treatment Plant 
against which progress could be measured. What will be done to 
improve the transparency of DOE's management of the project so 
that we can monitor DOE's progress?
    Ms. Regalbuto. Thank you, Mr. Chairman. As you mentioned, 
the District Court of Eastern Washington's ruling was last 
Friday, late on Friday, and the Department is in the process of 
reviewing all the legal paperwork regarding the court order and 
the consent decree amendment. With that, I would be happy to 
come back and once they dissect all of that and the 30-day 
period of communication is over, I would be happy to come back 
and brief you specifically on the impacts of the court order 
decision.
    With that said, the Department remains committed to 
initiating glass as early as 2022, and that is with the Direct 
Feed Law. We have requested sufficient funding to initiate 
operations by 2022; that includes the Low Activity Waste 
Facility, the balance of plant, which is all the infrastructure 
necessary to maintain that facility, and the Analytical 
Laboratory where we go and make sure that the quality of the 
product is good.
    Regarding the issue of the project cost, because this piece 
was carved out of the contract, so the contract was for the 
whole thing and we are committed to do this on a phase 
approach, which is, in our opinion, a more efficient way to 
chunk it in pieces. As the Secretary has put in his views 
regarding project management, it is easier to address a smaller 
portion than these huge capital projects. So we are following 
the Secretary's lead, and in that case, we are in the process 
of negotiating CLIN 1, which is basically doing what I 
described to you, and we should be getting very close to 
getting a baseline for that.
    Regarding the other facilities, that will be impacted by 
the court ruling, and we will be back to do that.
    In terms of project management, as you clearly pointed out, 
this facility has struggled over the years, and we have done a 
number of things regarding these facilities. Some of them are 
lessons learned from others. One of the recommendations has 
been to get an owner's rep, and we did hire an owner's rep, 
which is Parsons. We are already working with them, and they 
are walking through this facility. We do not have to wait until 
a year out before commissioning to find out any surprises. So 
we are walking very systematically through the plant and making 
sure that we address anything going forward. So we are taking a 
lot of modifications.
    There was also a GAO report regarding the tracking system 
of the issues that have been determined by the contractor or 
DOE, and we have gone back to them and made sure that the 
tracking system actually captures every single thing, and so 
that has been revamped. Also, the accountability to the 
contractor has been revamped, so we have put in a lot of effort 
in that. I think you know Kevin Smith, and I will say, in the 
last three years, Kevin has done a magnificent job just to make 
sure that that transparency is there for you and all the 
taxpayers to see.
    Mr. Simpson. Ok. This is a huge facility, billions of 
dollars, many years to operate to complete. I look at the IWTU 
in Idaho. In comparison, very small compared to the Waste 
Treatment Plant. I have to tell you in all honesty, I seriously 
wonder if WTP will ever be able to operate given the problems 
that we have had at the IWTU and trying to get it operating. I 
look at that huge facility and wonder if this will actually 
ever work. What do you think?
    Ms. Regalbuto. So let me address that. IWTU has a first of 
a kind technology, which is really the most challenging thing. 
Traditionally, we use either solvent extraction or ion exchange 
to do any of the separations of any of the materials, and then 
we either vitrify or grout. Those two technologies, 
vitrification and grout, are already being used every single 
day at Savannah National Lab and throughout facilities 
throughout the rest of the world. Hanford has the vitrification 
technology for the low activity waste. At least we do not have 
any of the dark cells, which have been really the issue of some 
of the technical issue resolutions, and we do not have any of 
the pulse jet mixers, also, which is another reason where those 
are new in this enterprise. So LAW has paddle mixers and 
traditional mixers that we use at Savannah River. It has ion 
exchange, filtration, similar technology that we used before.
    On the other hand, IWTU, unfortunately, when the technology 
was selected, they selected one that is not used commonly for 
environmental remediation. It is used in the pharmaceutical 
industry, and it is also used in some cases in the gas and oil 
industry for basically the catalytic converters where you 
increase your yield of gasoline. Those are projects that, in 
just my personal opinion, all of them make money on their 
product, so they can afford an exotic technology. In our case, 
we do not make money from our product. Our product is waste 
that is going to be disposed, so that has been the main 
challenge in IWTU, but we cannot correlate that to WTP, because 
it is a completely different technology. WTP correlates better 
with Savannah River because the technologies are the same.
    Mr. Simpson. Ok. Let me ask you about WIPP. WIPP funding is 
down from last year's level, partially due to the completion of 
the summer recovery activities. There is also a decrease 
associated with lower levels of construction project funding 
for the two projects that must be completed. In addition, part 
of the operating funding will now be used to provide funds to 
the State of New Mexico for road improvements. DOE did not 
request a specific amount for these costs, but rolled them into 
the overall funds for WIPP, and there are discrepancies in just 
how much the WIPP funding will be diverted to pay for these 
road improvements in the agreement.
    Last April, the Department of Energy recently agreed to 
provide the State of New Mexico $34 million in economic 
assistance to build roads in New Mexico as part of the 
settlement agreement with the State for the events that led to 
the closure of WIPP. Economic assistance payments were 
previously authorized under the WIPP Land Withdrawal Act and 
appropriated by Congress, but that particular spending 
authority expired after 15 years. Reinstating those economic 
assistance payments, which totaled about $20 million per year, 
has been a major goal of the State. Last year, the Secretary of 
Energy testified that WIPP would be reopened in March 2016 and 
resume full operation some time in 2018. The date for initial 
limited operations has now been pushed back to December and the 
Department has not released any new estimates for achieving 
full recovery.
    Is there a possibility that reopening WIPP to limited 
operations could be delayed beyond December? When exactly is 
WIPP scheduled to be returned to pre-2014 operational levels, 
and can you speak to the short and long-term challenges to 
resuming operations? Do you anticipate challenges in permitting 
or demonstrating safety operations with the regulators? And 
talk a little bit, if you would, about the money going to 
economic assistance or road development or improvement in New 
Mexico out of the operating costs of WIPP rather than out of a 
special line for economic assistance.
    Ms. Regalbuto. Thank you for your interest in WIPP. WIPP 
is, as you know, our highest priority. It does have an effect 
throughout the complex, and their inability to move waste has 
significantly affected the rest of the sites and our ability to 
meet the commitments with the other States. So it is critically 
very important for us.
    We are on target to reinitiate operations at the end of 
this year, December of 2016, provided it is safe to do so, we 
will never put safety ahead of a schedule, but right now, we 
are on target. We have got three activities, main activities, 
that need to be completed for us to reinitiate waste and 
placement operations.
    One is the DSA approval, which we are in the process to do 
so. We are working with the regulators and we are working with 
the Defense Board and all the interest stakeholders. We have 
been very transparent through our recovery process. We have 
town hall meetings, and we keep a website with every single 
piece of information we generate so the community knows exactly 
what we are doing, and also the regulators. So we will have the 
DSA approval, which is followed by an operation readiness 
review; one is done by the contractor, one is done by DOE, and 
other people are observers during this. Once we have that, we 
are ready to initiate operations.
    At the same time, there are a number of permit 
modifications that we are working with the State of New Mexico, 
and we are on target to complete our permit modifications as 
the schedule requires. So going back to the delay on the 
schedule, the original schedule that was published was 
published before the second Accident Investigation Board report 
was released. Once the second Accident Investigation Board 
report was released, it was clear that there were a significant 
number of things that needed to be done before we restart 
operations, and the most important one was--and I can briefly 
summarize it as--WIPP had to be a more demanding customer. So, 
in other words, we have to expand our boundaries all the way to 
the waste generators, because in order to protect our facility, 
we have to protect the start before the waste initiates. So 
that has caused some delays in the thinking, including some of 
the DSA and also a delay from the contractor--was also delayed 
by a number of months. So that caused the shift to December.
    Regarding funding, there was a decrease this year for $33 
million, and that is really just a signal of we are making 
progress. Regarding funding to support the SEPs, and I am not a 
lawyer, so I will have to refer you back to general counsel, 
just a little engineer here, but it is my understanding from 
the attorneys that there is authorization under the Land 
Withdrawal Act to do this type of activities, but I would be 
happy to go back and take this as an action and get back to the 
committee. In essence, I really do not have the personal 
knowledge on that. What I can tell you is that the request 
includes for 2017, $18.4 million, and that is on PBS CB 0080, 
which is really our operating disposal of facilities, and the 
total for that PBS is $196.3 million, of which $18.4 are 
specifically for roads and operations.
    Mr. Simpson. Why not put that in a special line when you 
request it for 2017? I can understand trying to find another 
area to fund it out of in 2016 when you are looking at trying 
to meet agreement with the State of New Mexico and you do not 
have that line item available, but if that is going to be 
ongoing, why not create that line item instead of putting it in 
the operations budget?
    Ms. Regalbuto. I will follow up on why they did not create 
a new line item. Personally, I do not know the answer. What I 
can tell you is that it is not an ongoing cost, it is a one-
time use of the money. It is almost like a grant that goes to 
the State and then the State manages multiyears. But I do not 
know the answer why they did not create a line item, and I 
would be happy to go back and get an answer for the committee.
    [The information follows:]

    The Department submitted to Congress on April 5, 2016, an amendment 
to increase by $8.4 million the appropriation request for the Defense 
Environmental Cleanup account to fund a portion of the settlement costs 
to resolve the New Mexico Environment Department claims against the 
Department of Energy (DOE) related to the February 2014 incidents at 
the Waste Isolation Pilot Plant (WIPP) in Carlsbad, New Mexico, 
including the associated activities at Los Alamos National Laboratory. 
The additional $8.4 million will allow DOE Office of Environmental 
Management to pay a total of $26.8 million in Fiscal Year 2017 to the 
State of New Mexico for necessary repairs to its roads needed for 
transportation of DOE shipments of transuranic waste to WIPP.

    Mr. Simpson. Ok. Marcy.
    Ms. Kaptur. Thank you, Mr. Chairman. Dr. Regalbuto, the 
Department of Energy has failed to reach a number of cleanup 
milestones, most of which are part of an agreement with the 
State; some, like Hanford and Idaho, are subject to fines and 
penalties through the courts. How does DOE pay fines when they 
are assessed by the States or the courts, and do these come 
from the judgment fund, as many people believe, or must they be 
paid from appropriations?
    Ms. Regalbuto. Thank you for your question. We try not to 
miss milestones. That is a number one priority. When we see a 
milestone that is at risk, we engage with the State and EPA and 
the other agencies, and in some of our agreements, we have the 
opportunity to have a dialogue and change the dates as needed, 
so usually, that is the first thing we do. It is only when we 
cannot reach an agreement with the State or tri-parties or the 
stakeholders that we end up in an unfortunate litigation path. 
I personally prefer not to be there, because I will have to use 
my best engineers to start doing the positions on litigation 
when they should be doing cleanup. So, unfortunately, it is a 
big distraction for everybody, including the State and the 
Department of Energy and taxpayers at the end of the day. So 
that normally goes through a litigation process, which is held 
by the Department of Justice. It is not done by DOE, so 
Department of Justice does that. I will tell you that 
appropriated funds are not used to pay fines. We do not have 
that authority.
    Ms. Kaptur. Ok.
    Ms. Regalbuto. That at least has been what counsel has 
mentioned to me.
    Ms. Kaptur. All right. I want to go back to my original 
question about how much we have done and how much remains 
ahead, and you said, in most of the most serious categories, we 
have cleaned up about 60 percent of all material?
    Ms. Regalbuto. Yes.
    Ms. Kaptur. That excludes the water and the items that are 
in--the quantities that are in tanks?
    Ms. Regalbuto. Yes.
    Ms. Kaptur. Ok. So that is what remains. If we are 
expending $6 billion a year and we will not be finished for 50 
to 75 years, going back to the start of this program, can you 
estimate how much we have spent to date cumulatively on all 
cleanup dating back to what year?
    Ms. Regalbuto. I don't have the exact number, but let me 
try. I think it is about $150 billion. So $150 billion since 
1988.
    Ms. Kaptur. Since 1988.
    Ms. Regalbuto. When Department of Energy created the Office 
of Environmental Management. There was a big spike during 
American Recovery Act, as you probably remember where the 
funding almost doubled. That was since 1988. But we have gone 
from 104 sites to 16 sites.
    Ms. Kaptur. How many?
    Ms. Regalbuto. One hundred and four to 16 remaining sites. 
So that has been the footprint reduction--is huge. Rocky Flats 
and Mound were two huge industrial complexes that are gone. And 
when people say what impresses you the most, we say is what I 
don't see anymore, right, when you don't see this big 
industrial complex. So, you know, truly they are really like 
little mini cities that were built with complete infrastructure 
needs to be knocked out.
    So in terms of our disposition of the facilities, one of 
our main goals is to decrease the hotel costs. So some of our 
investments, for example, in the gaseous diffusion plants are 
to consolidate a lot of the switch yards. Those were very 
energy intense facilities. They tend to have four different 
switch yards to feed the facility. We eliminate all of them 
except for one so we can continue having electricity and the 
like for our D&D activities, but we don't need to support all 
other ones.
    We also do the material consolidation because material 
consolidation requires a high cost on safeguards and security 
and we are down to pretty much one, when we started with, you 
know, every site had everything. So now we are consolidating in 
that. So tried to, as much as to the extent possible, use our 
funding in a balanced approach where we tried to bring down 
hotel costs because that is money spend ahead of time.
    We also like to forecast what is coming ahead. So, for 
example, even though the Y-12 facilities haven't been 
transferred to us, eventually they will. I hope with some 
funding too, right. And we know already that there is a mercury 
problem associated with all of the COLEX facilities which used 
to, at the time, they separated lithium and they used mercury 
in the liquid phase as a catalyst. So it is all over the place, 
and it is in the groundwater, it is in the soil, it is in 
metallic form, it is everywhere in the Y-12 facilities.
    So knowing that, we are spending some technology dollars on 
that already and the purpose of doing that is we don't have to 
wait until they transfer those facilities. We can proactively 
start thinking how to invest in what is going to come ahead.
    Ms. Kaptur. I think in one of the facilities you closed and 
cleaned up Fernald, gaseous diffusion in Ohio, we are very glad 
to see that gone.
    Ms. Regalbuto. Yes, we are very happy and we are going to 
have a little ceremony in Tennessee when we finish that one and 
we would be happy if any of you could come to this end of the 
gaseous diffusion plant. It really is, it is a big win for us.
    So I have a little mercury plan. This is in general for 
doing the cleanup of Y-12s that I will pass for the record if 
the committee would like to take a look at.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    Ms. Kaptur. All right. I am sure that the chairman would 
agree. We can put that into the record. Since you mentioned 
mercury, the export ban was established on mercury in 2008 and 
was contingent on our country establishing a domestic long-term 
storage facility. But DOE has made little progress, if any, on 
getting that facility up and running, so you began discussing 
that. Could you give us a little bit of an update? You talked 
about technology, what progress you have made, how soon could a 
storage facility location be selected. Can storage fees be 
structured to fully offset the costs of what will be required?
    Ms. Regalbuto. Thank you. The mercury storage facility, we 
have seen it bubble up, and I personally think it is a great 
idea because everybody has this orphan material all over the 
place, right, which is not a good way to manage it. Right now, 
the purview for the building of the mercury facility relies on 
the Office of Legacy Management. It is not under our purview. 
So we have given them forecasts and a number of things that can 
be done. I know some communities have expressed interest in 
hosting this facility. But I will have to get back to you with 
details.
    [Additional information follows:]

    In December 2008, the Acting Deputy Secretary of Energy assigned 
responsibility for construction of an operational elemental mercury 
storage facility to the Office of Environmental Management, and 
operations of this facility to the Office of Legacy Management.
    DOE issued its Final Long-Term Management and Storage of Elemental 
Mercury Environmental Impact Statement in January 2011 and, 
subsequently, issued a Final Long-Term Management and Storage of 
Elemental Mercury Supplemental Environmental Impact Statement in 
September 2013.
    DOE is currently preparing the Congressional report as required by 
the Consolidated Appropriations Act of 2016, which will include a rough 
order of magnitude cost estimate for new construction of a mercury 
storage facility, and an estimated fee structure to fully recover the 
costs of operations and/or construction of such a facility. 
Additionally, DOE has initiated the planning and project management 
activities in accordance with DOE Order 413.3B, Program and Project 
Management for the Acquisition of Capital Assets.

    Ms. Kaptur. Ok. And what about the storage fees? Are you 
saying Legacy Management is the one that will take care of that 
as well?
    Ms. Regalbuto. Yes.
    [Additional information follows:]

    No. The Office of Environmental Management is preparing the 
Congressional report which will include an estimated fee structure to 
fully recover the appropriate costs of operations and/or construction 
of a facility for long-term storage and management of elemental 
mercury.

    Ms. Kaptur. Ok. Thank you for that clarification. I have 
other questions, but I am sure the chairman does as well, and I 
will.
    Mr. Simpson. Back to WIPP, we like to jump back and forth 
and around. It has been stated that when WIPP resumes 
operations, it will do so slowly, and we have heard there may 
be as few as five shipments a week for several months or even 
years. At Idaho in particular, there are hundreds of canisters 
of waste packaged and ready to be shipped to WIPP. Which waste 
will go to WIPP first? And with the improvements that you have 
to make to your packaging procedures, do you anticipate any of 
the waste at Idaho or other DOE sites will need to be 
repackaged? How long will it be before DOE catches up on all 
the true waste commitments, and particularly, how soon should 
DOE begin shipping waste out of Idaho to get through the 
backlog? What is WIPP's planned timeline for returning the pre-
2014 rate of shipments?
    Ms. Regalbuto. Thank you for your question. We do take WIPP 
starting to take care of the backlog very seriously. Let me 
walk you through a couple of things that are being done.
    In 2017, we requested sufficient funds for five shipments a 
week. That is, to give you a comparison, in our heydays, it was 
17 shipments a week. With that, the purpose of doing that, and 
the reason why we cannot do 17 is because we don't have full 
ventilation capacity. So this is a slow ramp.
    Mr. Simpson. So that is what they mean when they say 
partial----
    Ms. Regalbuto. It is a partial.
    Mr. Simpson. --opening?
    Ms. Regalbuto. When the full ventilation capacity comes 
into effect, then we can resume full operations, which is our 
goal. How do we determine WIPP? So there is a number of things 
that happens. One is, as part of the accident investigation 
report, and the fact that we need to go and relook at what is 
packaged and how we are going to package, we have done a number 
of scans throughout the complex and see if there is anything in 
there that could be concerning, right.
    So that is ongoing right now. And we have what we call the 
TRU Corporate Board where all the stakeholders who generate 
transuranic waste are part of the TRU Corporate Board, and they 
collectively determine what is the best way to do this. They 
met about a month ago, about 3 or 4 weeks ago. And the 
collective recommendation is that we are going to do what we 
call a weighted average. Basically, those who have the most get 
the majority of the shipments. Those who have less get the 
least amount of shipments, and we start moving things from all 
the sites.
    As you mentioned, Idaho has the greatest number of 
transuranic waste in the complex, so the weighted average is 
higher for Idaho, basically because of the amount of material 
that is currently stored. And if we look at the snapshot chart 
in here, you will see there is a little bit of transuranic 
waste generated, remote handled, that is all in Idaho. So we 
will be able to support those.
    Our plan is to increase operations as soon as the 
ventilation is up and running. So we will need to have, for 
full operations, we do need to have the complete ventilation.
    Mr. Simpson. Again, will any of these canisters that are 
already packaged have to be repackaged? Do you know?
    Ms. Regalbuto. From the quick scan that I have seen people 
doing, it is really more about what we call by waste streams. 
And also some waste streams in Sandia National Lab does and Los 
Alamos, also, but none of the other sites. We have a complete 
inventory of everything and we know exactly what waste stream 
was what and where it is. So some of them, they are suspicious 
if you want to call it that way, haven't been packaged. So that 
is an advantage. There is a small percentage of some that we 
will be a little more careful and set aside, but they are not 
in the giant number of dollars.
    One thing that we are investing in and we hope this 
technology pays for us is currently all we do is do an x-ray, 
and an x-ray just gives you a limited information. But if you 
ever had a CT scan, and I don't know if you have had the 
opportunity to, but I have.
    Mr. Simpson. Yeah, I have enjoyed those.
    Ms. Regalbuto. So a CT scan gives you significantly much 
more information. And so we already have CT scan technology in 
Homeland Security for cargoes that go in and out of our ports 
and we are actually building a prototype to scan our drums 
using a CT scan. So that will give us one more sense of 
confidence of what goes in there.
    Mr. Simpson. Does the ventilation system that currently 
exists for partial opening, would that be sufficient to address 
a problem that might arise should another container decide to 
expand beyond its ability to hold it?
    Ms. Regalbuto. Yes.
    Mr. Simpson. Explode?
    Ms. Regalbuto. Well, first of all, we hope we don't have 
that, but our strategy is not based on hope.
    Mr. Simpson. We hope we didn't have the first one.
    Ms. Regalbuto. Our strategy is not based on hope, it is 
based on what we have, right. So we are being extremely 
careful. And I jokingly say I wouldn't want to be the first 
drum going down the shaft because it is going to be really 
scrutinized. But that is what needs to happen and the 
ventilation will take in account.
    Now, remember that before the incident, we didn't have the 
ability to detect radioactive--airborne radiation inside the 
mine. And all of that has changed. So there is all the 
instrumentation in place to do that.
    Mr. Simpson. Ok. NNSA's new proposal to start shipping 
plutonium to WIPP, will that take up any of the limited 
shipping capacity? And if it is going to be years before EM 
catches up on its current TRU waste commitments, how will you 
prioritize the plutonium shipments? And is there any capacity 
available for adding an entirely new waste stream to the queue 
at all? And what exactly has NNSA asked EM to do to support its 
plans for the MOX alternative?
    Ms. Regalbuto. All right. So let me walk you through 
plutonium disposition. There are two types of plutonium assays, 
right, one that is a very low assay, which is waste, and the 
other one is pit material, which is very high assay. We have 
already disposed at WIPP low assay plutonium material because 
it is transuranic waste. So you have uranium on the periodic 
table and then you move to the right, so plutonium, neptunium, 
americium, and curium, so there is plutonium there, right.
    And that has already been--happened in an assay. They put 
an environmental impact statement a year ago in April, and they 
did select the preferred method for 6 metric tons. Again, that 
is low plutonium assay, which we already have disposed.
    If they decide to go on record of decision, and they will 
have to down blend, terminate safeguards, and package, which 
will take a number of years, and then they have to go to the 
queue. So the queue is determined by the stakeholders in the 
TRU Corporate Board. So unless somebody else is willing to give 
their spot, right, so they have to go to the queue as everybody 
else is in the queue. So that is where we are with the 
potential situation.
    Mr. Simpson. So you are saying that with the proposal 
currently by the Administration to down blend and package this 
stuff and ship it to WIPP, it won't delay the schedule of 
things that are already scheduled to go to WIPP?
    Ms. Regalbuto. Right. Those are higher priorities. You have 
to go to the queue.
    Mr. Simpson. Ok. Again, what is EM? What has NNSA asked EM 
to do to support their plans for this MOX alternative? Have 
they asked anything yet?
    Ms. Regalbuto. No. The MOX alternative right now, they are 
looking at options, and WIPP is an option, but also, all other 
repositories are potential facilities, could be an option. We 
personally are focusing on initiating waste and placement right 
now. So we have not done any analysis. That will be done by 
NNSA.
    Mr. Simpson. Have you reviewed the results of the red teams 
and the recommendations on the MOX alternative and do you see 
any issues implementing that alternative? Stanford University 
called on the Department of Energy to perform a new documented 
safety analysis, WIPP as a result of the proposed disposal of 
excessive plutonium at that facility. Also, articles have been 
published and the Secretary has recently testified that 
researchers at Sandia National Lab had looked further into the 
safety issues raised by outside groups concluded the risks were 
overstated. Have you looked at this?
    Ms. Regalbuto. So let me give you a little bit of 
background. Regarding the alternatives, I am familiar with the 
document. I read it a long time ago, so I don't have all the 
details right now in my mind. But I understand that the 
proposal is to down blend and dispose as opposed to converting 
to fuel. When one down blends and dispose, you actually take 
the plutonium assays and you mix it with a lot of other 
materials, which is classified, but it is a big mixture, right. 
And then you package and you dispose.
    So I did read in the media the concern regarding 
criticality. And I can only tell you a couple of things, basing 
it off of my engineering knowledge. And that is, one, in order 
for you to have criticality, two things have to occur. One is 
the plutonium molecules or the--not only the plutonium but the 
fissile material has to see each other. Ok, so they have to be 
close by. And second, they have to be a neutron generation. 
Those two things have to happen. So when you down blend 
plutonium or any fissile material, I mean it could be HEU for 
that event, same thing. When you down blend, you sparse the 
matrix, you know, collapsing or crunching or whatever is really 
not a separations method. So that would not happen.
    In addition, you have sodium chloride, which is one of the 
best neutron absorbents ever. So you don't have any neutron 
generation and that is why the accident is not credible. So, 
you know, from a point of view fissile material going critical, 
it is not like it is a reactor where everything is assigned to 
go like that. These are passive facilities.
    Mr. Simpson. Right. Well, and of course, the one study came 
out and said the idea of WIPP is that everything does get 
condensed eventually.
    Ms. Regalbuto. It gets collapsed, not condensed.
    Mr. Simpson. It gets collapsed?
    Ms. Regalbuto. So condensed means that I will have to 
take----
    Mr. Simpson. If it doesn't get condensed, how does it get 
collapsed.
    Ms. Regalbuto. Yeah. So the same way, we have this bottle 
right, and we squish it and do whatever we want to do, that 
doesn't mean we physically separate the oxygen from the 
hydrogen. That takes a lot of effort. So, that is exactly the 
argument is you can do a lot of things here, but you really 
have not separated oxygen from hydrogen. And in this case you 
don't separate the plutonium from the matrix that it is in. It 
is very difficult. So it is not done by physical crunching or 
mechanical things.
    Mr. Simpson. How can there be so much disagreement on, and 
I don't know how much disagreement there is, but disagreement 
between professional individuals as yourself and other people 
that have made these things that say--I mean they essentially 
said, listen, it is not a matter of if it goes critical, it is 
when it goes critical. How can they be that wrong?
    Ms. Regalbuto. They are not wrong. It is just the 
probability. And, you know, there is a probability of something 
happening, and the way I can equate it to you is, there is a 
probability that I can grow 5 inches if I go to Mars, too, like 
the astronaut, right. But unfortunately, you know, my 
probability is very low that that will actually happen. But it 
is feasible that I could grow 5 inches if I go to space for 5 
years. I think it was 2 inches per year, so maybe I will need 
to be there 2\1/2\. But this is based on probabilities, and 
some things are more credible than the others. And I think the 
Secretary mentioned the scenario was incredible given the 
circumstances. So it is not like a disagreement on the physics 
of things, it is really on the probability of that happening 
that is really the disagreement.
    Mr. Simpson. Ok. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Madam Secretary, 
I have got some questions about the Manhattan Project National 
Park. Last November, the Manhattan Project National Historical 
Park became a reality, one park at three Department of Energy 
sites: Oak Ridge, Tennessee; Hanford, Washington; and Los 
Alamos, New Mexico. The park is now being created jointly by 
the National Park Service and the Department of Energy. My 
question is why was there no funding in the DOE budget request? 
And what is the Department of Energy doing to support opening 
these legacy sites to the public? Further, are there any 
security issues or new infrastructures that will need to be 
built to open these previously secret legacy facilities to the 
public?
    Ms. Regalbuto. Thank you for your question. We are actually 
very excited about the Manhattan National Park. In 2015, at the 
end of 2015, Department of Energy signed the Memorandum of 
Agreement with the National Park Service, which is part of the 
Department of Interior. And the Department of Interior manages 
all the park services for us and we are very happy for that 
collaboration. There are a couple of steps that we are 
following.
    Number one that has to occur--and this is actually a newer 
learning for me because I have never been in a situation where 
a national park is being built, so it is kind of learning for 
all of us.
    First of all, we have to have what they call a foundation 
document and that will be completed in 2016. Once that 
foundation document is provided that is what the Department of 
Interior calls the comprehensive interpretation plan and that 
is scheduled for 2017. You will see these activities and the 
funding request will come from the Department of Interior, but 
what is DOE doing in the process as we are going into this 
path?
    What we are doing is we are continuing to execute 
maintenance and surveillance of the facilities, but we are also 
rating the sites so that when these plans start being 
implemented, our timing of how we allow visitors to come into 
the areas is done properly. Right now I think you are familiar, 
one of our open sites already is B Reactor and B Reactor has 
hosted 60,000 visitors in the last 6 years and that is because 
we cap it at 10,000; otherwise, we cannot do it. It is run by 
volunteers and community members and we offered the tickets for 
free and the minute that they are offered, they are gone. If we 
offer 20,000, we will get 20,000, so we are very excited. We 
are using our own funds to make sure that these facilities come 
out to be released to the public at the right time.
    Mr. Fleischmann. Thank you. Final round of questions on the 
uranium D&D fund, Madame Secretary, the Department recently 
provided the committee with a report on the status of the 
uranium D&D fund that was directed by the fiscal year 2015 
omnibus. It paints a pretty dire picture of the ability of the 
D&D fund to address projected cleanup costs. The report 
estimates that the fund ``will have a shortfall up to $19.2 
billion'' and that ``without additional deposits the fund is 
projected to be exhausted in 2022.''
    The Department of Energy's proposal to transfer a couple 
hundred million dollars from one fund to another seems to be a 
drop in the bucket in comparison to the projected shortfall and 
certainly not a comprehensive solution. I have three questions. 
What is the DOE's long-term plan for meeting these cleanup 
costs? Second, how much cleanup work remains to be 
accomplished? And thirdly, what costs have been updated since 
the last report?
    Ms. Regalbuto. Thank you for your question. We do share the 
same concern regarding the lack of funding for the UED&D as we 
move forward. We do have one thing that we have learned and 
that is we are about to complete this year the Gaseous 
Diffusion Facility at Oak Ridge. Our cost estimate is based on 
actually a job already being executed, which is a really good 
number. Our projection is that to finish the job at Portsmouth 
and Paducah is going to cost between 20 and $22 billion. That 
is the cost.
    Unfortunately, when the contributions to the fund were 
stopped back in I think it was 2006, I can't remember the exact 
date, but when the contributions were stopped, we didn't really 
know the true cost of what this job was going to take. The 
Secretary has been very interested in making sure that we 
follow the principles of polluter pays and that is something 
that he feels very strongly. I understand that the Department 
will be forthcoming with a proposal to the Authorizing 
Committee and also will come back and brief you at a later date 
related to that, but we do have really solid costs. We finished 
the job and we know exactly what it is.
    These facilities are big industrial sites and not only do 
they have radioactive hazards, they have a significant amount 
of chemical hazards that we have to deal with. So those are two 
main things that we have to look at.
    Mr. Fleischmann. Thank you, Madame Secretary. Mr. Chairman, 
I yield back.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Doctor, I 
understand you were confirmed on August 6th. Why did you want 
the job?
    Ms. Regalbuto. I think I am asking myself the same thing. 
Actually I have to tell you one thing. I have been very 
passionate about this type of work. I started my career at 
Argonne National Laboratory back in 1988, and I had just come 
out of grad school from the University of Notre Dame and I was 
pregnant with my third child and I needed a part-time job back 
then and when I requested a part-time job in industry they 
looked at me like I came from Mars. That was back in the 
eighties and those were different times, I understand. But I 
was very fortunate to be able to get a part-time job at Argonne 
National Laboratory. And my first job that I ever got was 
working with tank waste at Hanford. We were working with the 
transuranic--at the time it was Argonne East and West, so Idaho 
was part of the mix, and we were working with transuranic 
waste. And the plan was to take the fraction of low activity 
waste, high activity waste and then one was grouting, one was 
with petrified. We worked in the chemical process that did 
that.
    Over the years things change in terms of areas, but I also 
had the opportunity to work in other projects that have been 
implemented. For example, I was very fortunate to work with my 
colleagues at Idaho National Lab, Oak Ridge, Savannah River, 
and Argonne, too.
    Mr. Visclosky. You've got your bases covered.
    Ms. Regalbuto. Yeah. Well, are you all from here? Ok.
    Mr. Visclosky. If my----
    Ms. Regalbuto. And we did all the cleanup work that is now 
the basis for SWPF at Savannah River. So I really believe in 
these efforts.
    Mr. Visclosky. I believe that you do and I appreciate as a 
Notre Dame grad myself----
    Ms. Regalbuto. Oh, really?
    Mr. Visclosky. Yes. She is acting like she did not know.
    Ms. Regalbuto. No, no, I really did not know.
    Mr. Visclosky. She is acting like she did not know, Mr. 
Chairman.
    Ms. Regalbuto. I am going to have to look at your----
    Mr. Visclosky. Which explains why you took the job.
    Mr. Simpson. The next you know she is going to tell us how 
good the Notre Dame football team is, right?
    Mr. Visclosky. No.
    Ms. Regalbuto. No, we do not want to go there. We do not 
want to go there. No, seriously, I did not realize that.
    Mr. Visclosky. Let me--because we have a hearing. But I 
will tell you, and I am deadly serious, you may have the most 
difficult job in the United States Government, because I have 
been on this wonderful subcommittee with great jurisdiction and 
great member staff for a long time. And I must tell you, every 
year when we have a hearing on environmental cleanup it is 
exactly the same hearing.
    You reference your time in the 1980s. I have a question on 
Hanford. I visited Hanford in the last century, and I see the 
same question here.
    I visited those tanks in the last century. On overbudget 
projects, it is a 5-to-1 ratio as far as those that are not 
overbudget compared to those that are. On Hanford, again, I see 
a question on proposed milestones being shifted further to the 
right when in the last century I visited those tanks and was 
told this was going along just like sliced bread, which is not 
your fault, but you are responsible now. I wish you well and 
trust that you will try to imbue everybody in your Department 
with a sense of urgency.
    I do believe, and we can have a budget conversation all 
day, that some of this is administration requests and 
congressional decisions as far as resources. I have had the 
privilege to be in the chairman's position as well as ranking, 
that at some point there is a finite amount of dollars. If we 
do not clean it up this year, we will clean it up this year. 
Well, I have been saying that since the last century, 
literally. So I do hope with whatever resources we are allowed 
to give you--and I know the chairman and ranking are killing 
themselves to do their very best here, there is no question 
about that--that you just use every dollar as efficiently as 
possible.
    And I hate to take the commissioner's time. I do have two 
questions, though.
    On Savannah River, on the processing of plutonium, have you 
looked at the total cost of the investment needed at Savannah 
River to support the NNSA's plan and the increased operating 
cost of securing the area? And if so, is the cost one that 
should be born by your Department or NNSA?
    Ms. Regalbuto. First of all, thank you for your confidence 
in me on this job and you have my full commitment that we will 
spend all our money that we are given to the environmental 
mission job wisely. And just a comment on that is we do not 
have the luxury of time anymore. Our infrastructure is old and 
the tanks are getting old. So my sense of urgency does not come 
from just simply wanting to get this. It is because I 
understand that we are beyond the point of luxury of time. The 
tanks are aging and we need to work on that.
    Mr. Visclosky. Right. But if I could ask you about the--
because I also understand if you are talking about 
infrastructure that the budget request is a hundred billion 
below this year's level.
    Ms. Regalbuto. The budget request for EM?
    Mr. Visclosky. For deferred maintenance.
    Ms. Regalbuto. For deferred maintenance for us is actually 
higher. Let me get you the deferred maintenance number. Was 
that--300, I want to say? Do you have the numbers?
    Mr. Visclosky. My understanding is the budget request for 
deferred maintenance is 100 million below this year's level.
    Ms. Regalbuto. No, let me have them check my number for 
you.
    [The information follows:]

    The Environmental Management program manages its deferred 
maintenance through an integrated facilities and infrastructure budget. 
Although the integrated facilities and infrastructure budget has 
several sub-areas that do not address deferred maintenance, overall our 
integrated facilities and infrastructure crosscut budget request is 
$15.7 million higher in 2017 than it was in 2016.

    Mr. Visclosky. If you could for the record. If we could get 
back to who should bear the cost.
    Ms. Regalbuto. Yeah, I would be happy to get back to you. I 
believe ours went up. Specifically, at Savannah River we 
increased--okay, what is the first--that one went down. Ok. Oh, 
that is the backlog. So we do have an investment in 
infrastructure and the investment in infrastructure is half a 
billion for EM across four sites: Carlsbad, Savannah River, 
Richland operations, and WTP--well, ORP. So those are the four 
and it is half a billion. It is 500 million for that. This is 
the backlog, unfortunately. Unfortunately, the backlog grows 
every year, which is a sad part.
    Mr. Visclosky. Who should bear the cost?
    Ms. Regalbuto. For Savannah River, we added an additional 
30 million in infrastructure because we have some finance from 
the defense board in some of the buildings that were high 
issues.
    Mr. Visclosky. But on Savannah, and I appreciate that, I 
guess my second question was on deferred maintenance. Do you 
have an estimate on the increased operating costs? And again, 
do you believe that is your responsibility going forward if it 
proceeds or is that NNSA's responsibility?
    Ms. Regalbuto. So anything that is fuel take-back programs 
and things that NSSA has the purview, it is their 
responsibility to provide the funding for us to do so.
    Mr. Visclosky. For theirs, okay. All right.
    Ms. Regalbuto. Yes, it is.
    Mr. Visclosky. Thank you very much. Good luck. Thank you, 
Mr. Chairman.
    Ms. Regalbuto. Thank you.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you very much, I appreciated Congressman 
Visclosky's emphasis on the amount of time this is taking. I 
wanted to ask about the funding for the environmental 
management program and how many of the milestones or those that 
you anticipate to miss over the next few years are strictly 
funding related and how many are due to other issues and could 
you discuss those issues?
    Ms. Regalbuto. Yes. Thank you very much. As I mentioned, a 
milestone is something that we take very serious. It is our 
commitment to the State and the stakeholders. At the point that 
any milestone is at risk we inform the State and the 
stakeholders that this will happen. We will enter into a period 
of negotiation in trying to address it. Some of the milestones 
are technical issues and some of the milestones are strictly 
funding, as you mentioned. I will say the majority are funding 
and to a lesser extent technical issues.
    Ms. Kaptur. I want to ask a question about the 
reindustrialization of cleanup sites, Doctor. As you make 
progress on the cleanup of the Manhattan Project sites, we 
always face the issue of how communities cope with that change 
and DOE is the primary employer at most of the cleanup sites, 
because those sites were initially located far from habitation. 
What can DOE do to promote future industrial or other uses of 
these cleanup sites? How early should that planning begin? And 
are there any examples you can describe where you think DOE has 
done this or other Departments have done this well?
    Ms. Regalbuto. Yes, we do recognize that we were number one 
employer, right, during the Manhattan Project and, yes, all 
these sites tend to be remote because that is how they got 
picked, right? One of the good examples that we use is Oak 
Ridge, at least from the EM point of view, where we really have 
worked with the community through the community reuse 
organization. Another very good example is Richland in Hanford 
where we have already released a significant amount of acres of 
our land to industrial revitalization. I will say the sooner we 
initiate conversations with the community, the better it 
becomes.
    Also, we do respect that the community sometimes has a 
desire for us to initiate cleanup in a slightly different 
sequence because they have a reuse program in mind, and when 
that happens we work with the community in going to the 
priorities that allows them to release the land or use the land 
sooner.
    At Oak Ridge, we were still doing D&D for the East 
Tennessee Technology Park and, at the same time, we have a 
number of small businesses moving in, so we coordinated that as 
we work our way out of the demolition jobs.
    Ms. Kaptur. I really appreciate your openness to this and 
as I said at other meetings, I think one of the greatest 
weaknesses of the Department of Energy because of the way that 
it was set up is that it doesn't think about place and I have 
often wondered whether it does need additional authorities to 
do that. This Secretary is trying very hard to think that way.
    And if I look at Ohio and the Piketon area and the D&D 
activities that are anticipated there, those are probably the 
highest unemployment counties in Ohio. So as this ratchets down 
one of the difficulties DOE really has, in my opinion, is 
working cross-departmentally, across the Federal establishment, 
to work with the Department of Labor, let us say, several of 
the trades that are onsite, looking at some of the new clean 
energy initiatives. I do not know what those counties would 
want to do. I don't represent those counties, but I really 
think that our country could do a much better job of 
transitioning these people and communities.
    We saw this in the coal situation where because of the 
mothballing of old coal-fired utilities you have entire States, 
our chairman from Kentucky, Mr. Rogers, experiences this 
firsthand. And Ohio, southeastern Ohio, is a tragedy in terms 
of what has happened in that industry, but it seems like we 
cannot catch up to ourselves. It is like we are too stovepiped 
at the Federal level.
    So as you work through this, if you have recommendations to 
us on additional authorities you might need, I think you could 
sign interagency agreements. I am not sure you need any 
additional authority, but it just seems to me that the Federal 
Government is too far away from where people live and you have 
such massive responsibilities just on the technical side, this 
really is not in your portfolio exactly.
    But it sure would be fine to see a way of approaching these 
communities, as you say, that we plan ahead, we work with the 
people there, and we do our best to minimize damage to human 
beings and their livelihoods. So I want to encourage you on in 
those efforts and I thank you for listening to that.
    I wanted to ask one additional question in this round on 
the Manhattan Project National Park, which is our newest 
national park authorized by the 2015 Defense Authorization Bill 
actually, and there was no funding. And my question is what is 
DOE doing to support opening these legacy sites to the public 
and are you paying for the cost of the national park? And is 
this a cost, as we believe it is, of the Department of Energy 
instead of the cost of the Park Service?
    Ms. Regalbuto. As you mentioned, we reached the agreement 
with the Department of Interior on the National Park Services 
in 2015, and actually that was really a great opportunity for 
us to get kickstarted. I know that many people worked very, 
very hard over the years to make this happen.
    In 2016, we have to combine it and it is led by the 
Department of Interior. We have to deliver the foundation 
document. And this is all news to me because I am used to a 
NEPA process and surplus and whatever, but they do have a 
process, too.
    And after the foundation document is delivered, then they 
have what they call a comprehensive plan. And in the plan is 
where it spells out what is going to be needed, the funding, 
and the likes. This will be part of the Department of Interior.
    With that said, we also have responsibilities on the EM 
side, and that is we continue surveillance, we continue to 
execute the mission so those parcels of property become ready 
for public access, and our job really is to coordinate as 
Interior moves forward to make those pieces of property 
available.
    We also have the responsibility for long-term surveillance 
of any of the sites because of the type of materials that were 
present in the past.
    I was mentioning before, the B Reactor in Hanford has 
received already 60,000 visitors in 6 years. That is already 
open to the public. If we could give more tickets, more people 
would come. It really is a destination area, and we have 
busloads of folks coming in who want to see the reactor.
    So, that one is already ongoing, and it will be folded into 
as part of the Manhattan Project National Park, but some areas 
are already open. We are very happy for that.
    Ms. Kaptur. So, on the Manhattan Project National Park, how 
is that cost-shared? Is it half and half, if you look at the 
total cost of operating those?
    Ms. Regalbuto. The cost of operating will have to be 
negotiated after they have the comprehensive plan, but we are 
responsible for cleaning the sites. So, what we spend is money 
that is used to clean up our sites.
    Ms. Kaptur. And what are you paying--what are you asking 
for this next fiscal year of 2017?
    Ms. Regalbuto. It is not a line item. It is embedded in the 
operations of Richland, Oak Ridge, and Los Alamos, for whatever 
pieces we are responsible for. So, if our job is to do 
surveillance, it would be embedded in there, but if you would 
like us to give you some more detail, I will be happy to do 
that.
    [The information follows:]

    The Department of Energy is responsible for sites within the 
Manhattan Project National Historical Park at Richland, WA; Oak Ridge, 
TN; and Los Alamos, NM. At these sites, the Office of Environmental 
Management is currently responsible for funding the surveillance and 
maintenance of the B Reactor at the Hanford Site in Richland and the 
Graphite Reactor at Oak Ridge. The budget request in FY 2017 for 
surveillance and maintenance of these facilities is about $2.5 million. 
This funding covers not only surveillance and maintenance activities, 
but also facilitates public access for visitors. The Office of 
Environmental Management has no current responsibilities for 
maintaining facilities or coordinating visits to Manhattan Project 
National Park facilities at Los Alamos.

    Ms. Kaptur. I think that would be very helpful to us. Are 
all those facilities safe for public access?
    Ms. Regalbuto. We do not open the whole site. We only open 
segments of the sites, and we have to make sure they are 
available, 100 percent safe for the public to come. Otherwise, 
we cannot use those facilities.
    Ms. Kaptur. Will you have to build new infrastructure?
    Ms. Regalbuto. No, all is existing. So, if you have a 
chance to go to B Reactor, you actually get to go to the 
control room with the original furniture that was in there. Of 
course, we removed all the radioactive materials and the like, 
but there is really no cost, and it is usually manned by 
volunteers who used to work in those facilities. The tours are 
very good. They are really, really good.
    Ms. Kaptur. Thank you very much.
    Mr. Simpson. I always ask this question, for the last 15 
years or so. How are we progressing about moving facilities to 
EM that need to be moved to EM and getting them out of the 
laboratory part of the budget?
    You know, I am smart enough to understand that the 
laboratory people would like to have that moved to EM and have 
the responsibility go to EM, but the money to stay.
    My concern is, I want to know what our total 
responsibilities are on EM and what our reliabilities are on 
EM, so I want those things moved to EM that ought to be done by 
EM.
    Over the years, we have been trying to move that process 
along. How are we doing with that?
    Ms. Regalbuto. So, right now, we have not moved any new 
facilities to the EM side in the last few years, mainly because 
of budget constraints. So, once you get into----
    Mr. Simpson. But the budget constraints--this is paper 
stuff. It is money that we are spending somewhere right now. 
What I want to know is what is our liability in the future.
    Ms. Regalbuto. Yes, somebody owns that liability no matter 
what; yes.
    Mr. Simpson. Right.
    Ms. Regalbuto. I do not know the exact amount until the 
report comes out, which will tally out the total liability 
regardless of who owns it, as to your point. We will come back 
and brief you on that. That exercise is ongoing, and that was 
one of the number one priorities, the Secretary wanted to know 
how much is still there, regardless of what office it does 
belong.
    So, we will have to come back to you, but it is part of 
this----
    Mr. Simpson. Ok. Then we can make a determination about 
where it belongs, so we know what our total liabilities are in 
the future. That is what we have been trying to accomplish over 
the last several years.
    One final question for a colleague that is not here today, 
but I am sure I am going to be asked about it by that colleague 
and others.
    The largest reduction in your budget request is for the 
Richland Site office which is reduced $206 million below last 
year's. Why such a steep reduction, and can DOE fulfill all of 
its commitments to clean up the River Corridor at this funding 
level? DOE recently proposed shifting some clean up milestones 
for Richland back in order to concentrate on a tank mission at 
Hanford. Has the State weighed in on these proposals?
    Ms. Regalbuto. Thank you for your question. First, the 
request is $800 million, which is, you know, $190 million below 
the appropriated funds from last year. We do have a significant 
amount of carryover from the bump up we got the year before.
    Still remaining in the funding is areas of significant 
progress that we have done, and in order to do risk reduction, 
so PFP will be completed to a slab-on-grade this year, it will 
be done, and as you remember, it was the number one most 
dangerous building in the whole complex. So, we are very happy 
to have moved that one off the list.
    We also continue to do cesium and strontium capsule 
packaging in order to get it out of the old building, and the 
infrastructure is going down, and we will get out of there.
    In the same process, we are moving sludge out of the River 
Corridor, so we are packaging, procuring equipment, and 
initiating operations in order to start moving that area's 
sludge into the Central Plateau. So, that is still funded.
    We have also the 324 building, we are still working on the 
technology development for the soil underneath, and that will 
be done this year, so we can initiate that. The 618-10 burial 
grounds, we are also working on some of the vertical pipe 
units. So, that is ongoing.
    We recognize it is less than the appropriated funds from 
last year, but it is not at the expense--we really do look 
across them, and there are other sites that----
    Mr. Simpson. So, is it accurate to say you do not 
anticipate any layoffs at Richland based on this budget?
    Ms. Regalbuto. Not as of today.
    Mr. Simpson. Let me ask, do other members have questions? 
Do you have more questions? I have to leave for a meeting. My 
Vice Chairman is going to take over here. Thank you for being 
here.
    I think what Mr. Visclosky said is absolutely true, you do 
have the toughest job in the Federal Government. Like most 
tough jobs, all of us that sit on the sidelines could do it 
better. That is the way we usually think, you know.
    Ms. Regalbuto. You are welcome to come and help.
    Mr. Simpson. We are great armchair quarterbacks. Thank you 
for the work you do, and we look forward to working with you.
    Ms. Regalbuto. Thank you very much. Thank you, sir.
    Mr. Fleischmann [presiding]. Madam Secretary, hello again. 
I am going to defer to the ranking member, Ms. Kaptur.
    Ms. Kaptur. Thank you very much. I think it is important 
for the record, for those who may be listening to our words, 
that your request for close to $6 billion this year actually 
constitutes a very large share of DOE's entire budget, much 
larger than other programs. I think of weatherization of $270 
million. So, this is a very, very important office that you 
head.
    In terms of overbudget projects, it is my understanding 
that Environmental Management has about $15 billion worth of 
ongoing projects that are still considered to be either behind 
schedule or overbudget, and many of those do not have a valid 
project baseline against which project performance can be 
measured.
    For instance, there have been some references made to this, 
the Waste Treatment Plant, the most expensive project in the 
entire Federal Government, was last estimated in 2006 to cost 
$12.3 billion, and that was before DOE became aware of major 
design flaws. What is the current estimated cost for completing 
that project?
    Ms. Regalbuto. Thank you for your question. We do share 
your concern regarding project management and escalating of 
costs. This has been something that the Secretary has taken 
very seriously, and we have a number of initiatives that we are 
putting forward, including new project oversight, specifically 
WTP.
    We have an owner's rep that was recommended in the past for 
us to hire, so we hire persons to oversee WTP. We also have a 
revision in cost estimates and also assessment fees for 
performance, which is supporting the Secretary's strategy.
    Regarding WTP, the cost is still listed as $13 billion, as 
you correctly pointed out. We are in the process of 
rebaselining that cost estimate, and that is really because we 
are taking out of the original contract--which was really all 
WTP--taking out the phased approach, which includes the Low 
Activity Waste, the Balance of Plant, meaning the 
infrastructure needed to support that, and then the labs, so we 
can initiate that project by 2022.
    We are engaged in negotiations with the contractor, we are 
about to finish those negotiations, and once those negotiations 
are completed, we will rebaseline and we will provide that 
information to the committee.
    Regarding the rest of----
    Ms. Kaptur. May I ask, why does it take until 2022, just 
lack of money?
    Ms. Regalbuto. To initiate the facility? To commission the 
facility, yes, 690 per year. We have to distribute those costs. 
That is the target date for operations.
    Ms. Kaptur. So, you cannot really state the current 
estimated cost for completing the project?
    Ms. Regalbuto. Once we finish the negotiations with the 
contractor, which should be very, very soon, we will come back 
and provide that information to the committee, but it will be 
rebaselined, yes.
    Ms. Kaptur. Do you expect it to go up?
    Ms. Regalbuto. Yes.
    Ms. Kaptur. A lot?
    Ms. Regalbuto. Yes.
    Ms. Kaptur. Thank you very much. Let me ask you about 
replenishing the Uranium Enrichment Decontamination and 
Decommissioning Fund. The Department recently gave the 
committee a report on that, and it states that the fund will 
have a shortfall of up to $19.2 billion, and without additional 
deposits, the fund is projected to be exhausted in 2022.
    Your Department's proposal is to transfer a couple hundred 
million dollars from one fund to another. It seems to be a drop 
in the bucket in comparison to the projected shortfall you will 
be facing. Your proposal does not seem to be a comprehensive 
solution.
    What is DOE's long-term plan for meeting these cleanup 
costs?
    Ms. Regalbuto. So, thank you for your question, and we do 
share with you the fact that these costs are significantly 
higher. One of the areas, as I mentioned, is we will be 
completed with the first gaseous diffusion facility at Oak 
Ridge.
    So, we now know the true cost of what it takes for these 
facilities, and then we have Portsmouth and Paducah, which are 
very similar, all three facilities were almost identical. The 
to-go cost for those two facilities is anywhere between 20 and 
$22 billion. This is based on real work that we did at Oak 
Ridge.
    Ms. Kaptur. All of them?
    Ms. Regalbuto. Yes, the two sites, Portsmouth and Paducah. 
Recognizing that, unfortunately, when the contributions to the 
UED&D Fund stopped by the people that use those enrichment 
facilities, we did not really know the cost of this job. So, we 
stopped it too soon.
    There has been some estimates that it is about a quarter of 
a million per kilowatt hour, which is really the fair cost of 
doing the decommissioning of these facilities, and the 
Secretary has proposed some language, and the department will 
be forthcoming with these proposals, but basically going back 
to the principle that the polluter pays.
    So, it is a combination of not having the complete costs at 
the right time when we stopped the contributions to the fund.
    I do understand the concern, and once we start moving into 
this area, I will be very happy to work with you and the 
committee because we do need a long-term plan for these 
facilities.
    The workforce needs to be stable, and one of the reasons 
why we are looking at this proposal is to provide some 
stability and funding at least for a few years until we really 
fix the big problem, which is the 20 to $22 billion. It is 
important that we proceed with this.
    These are very large complexes, they are almost little 
cities, the two of them are little cities right now.
    Ms. Kaptur. What was your reference to trained individuals 
to do the job? Could you expand on that?
    Ms. Regalbuto. Yes. We do have a number of things that we 
would like to implement, and one is training as the number one 
priority. We do have a very good workforce and they are coming 
from other facilities, especially in Ohio, that we can train to 
do the kind of work that we do.
    We also have a very nice initiative which is a robotics 
initiative, and it is our view that the same way we transfer a 
lot of the knowledge in robotics from Homeland Security to the 
police departments, we can do that in the environmental 
management arena.
    So, we are working with some of the employment groups. In 
fact, we will be visiting Sandia next week, because they were 
the ones who did this for the police department, so the goal is 
what we call the ``safety of science,'' but it has to be driven 
by the workers, not by us, right, because the workers know what 
tools do and what tools do not benefit them.
    There are a number of tools that we have that are really 
much more modern, and make their quality of life significantly 
better. What I like the most is it allows them to transfer this 
knowledge to other areas, so we joined the National Robotics 
Initiative.
    I will give you an example. The same prosthetics that were 
used and are targeted are used by the National Institutes of 
Health, because the population is getting older and people have 
to lift patients and the like, so the same exoskeleton that is 
used to lift is what we will use to lift a piece of equipment.
    Once they are trained in that area, they do not even have 
to stay with us, although I wish they would, because we pay for 
them and train them, but they can actually get jobs outside.
    Ms. Kaptur. Does your training account for part of the 
basic budget or is it a separate account?
    Ms. Regalbuto. It is under technology development. We also 
joined the National Science Foundation. There is some money 
there, go directly to universities. The goal is to have a 
workers, the universities, and the national labs triangle.
    Ms. Kaptur. Is there a way your Department or your office 
could provide to us the types of workers? How do you categorize 
the skills or the hiring categories? Are you able to do that, 
the kinds of workers you need to train?
    Ms. Regalbuto. You know, I am sure we can find that out. I 
am not familiar with those statistics. I can check for you.
    One of my goals is really to remove the amount of hazards 
that a worker has to face in a single day. So, to give you an 
example, in the U.K., when you walk into a facility that is 
contaminated, the first crew has to go and find out where all 
the hot spots are. That is a risk. Those are the first ones 
that go in.
    In the U.K., they put little drones in and they map the 
room before they go in. That is the kind of thing that we would 
like to teach our workers to use themselves in order to go into 
a facility without putting them in hazards which is unnecessary 
with technology.
    Ms. Kaptur. Do you know how many of your workers are union 
workers?
    Ms. Regalbuto. A significant amount of them are.
    Ms. Kaptur. I am interested because one of my interests for 
the Department as a whole is to get a better relationship 
between the training academies of these various skilled trades, 
and what tends to happen with the Department's relationships is 
they go to community colleges and universities, and I am not 
against that. However, in our part of the country, we have 
major training academies, whether you are a plumber and 
pipefitter, whether you are an electrician, whether you are an 
ironworker, where they are teaching.
    It has been my experience with the Department of Energy 
that they do not even realize--they do not even have a list of 
where these academies are. That was shocking to me, 
particularly in the area of nuclear power where it was, in 
fact, these trained workers, not because of the Department of 
Energy and not because of the local energy company, but because 
of the building trades that trained these workers, that 
literally saved thousands of lives in my part of the country 
because of what they detected in a faulty plant, nuclear plant.
    So, somehow we have to figure out a way of at least 
introducing the Department to the leaders of these academies, 
and if you are open to that, in terms of your skills training, 
I would love to find a way for you to meet some of them, where 
they are actually operating schools, big ones.
    Ms. Regalbuto. I appreciate the comment of the disconnects 
because we do have periodic meetings with the building trades. 
I am not sure if you are familiar with HAMMER, our facility in 
the State of Washington, and the National Training Center. 
Those we do jointly with the trades.
    What we are working on right now, and it will be ready 
roughly in a month, is one of the things we noted and it has 
been brought up to us by the building trades, is the ability to 
move from job to job, and the fact that you have to be 
qualified, so we are merging those two. And we are going to 
have the cost of reciprocity, where you reciprocate training 
that you took in one area to another, so I personally am taking 
Worker I and II, and so are they.
    It also allows us to have a population of workers that are 
already certified and the skill set is ready.
    Ms. Kaptur. Right.
    Ms. Regalbuto. So, we are working with the unions who are 
part of the National Training Center and HAMMER. With that, we 
also recognize that geographically, sometimes it is difficult 
to go out west or southwest, and they also have themselves some 
of these other training academies.
    We have a very successful program in Aiken with Aiken 
Community College, where we actually certify people to go work 
in the nuclear industry. We started that because there was a 
shortage of workers, because they were all going to work for 
the reactor operator for the AP-1000.
    So, we would train people and they will go work in this 
other area. We started a center, which has been very 
successful. We can duplicate this model, obviously with the 
caveat that every community has different needs, but through 
the community colleges is a very successful way to do this. A 
lot of the training can be done there.
    We also have for the first time this year what we call a 
``trainership program,'' and the Secretary initiated a 
trainership program. We put it out for competition. The 
university will be announced. That is also to bring people to 
work with us that do not have traditional backgrounds.
    So, if you were an electrical worker, trained, you will 
have a background on nuclear, so you understand the hazards, 
with the understanding that we need mechanics, electricians, 
everything, not just people in the waste packaging arena.
    So, we are expanding because our population is aging, and 
we are going to need to replenish all our workers in the next 
10 years or so.
    Ms. Kaptur. Well, if you are ever flying over Ohio, I would 
ask you to parachute down, and I would like to introduce you to 
some incredible workers whose training was amazing in what they 
did and their bravery in a couple of situations that was 
historic.
    I do not think they get the kind of recognition that they 
deserve, so it might be really interesting to host a meeting at 
one of these training academies, I would say probably the 
electrical, because there are two parts to the electrical 
union, and one works in nuclear power plants.
    Just to put on the record, what motivates me is that they 
were aware of certain things happening in this particular 
plant, and ultimately, it was not under your jurisdiction, it 
was the Nuclear Regulatory Commission, but the plant had to be 
shut down because the head on the reactor was subject to coming 
off.
    As the NRC began investigating what went wrong, they 
followed where these workers had stayed in various hotels, and 
there were nuclear particles in the hotel rooms. These people 
were carrying nuclear particles themselves.
    So, it is the new century--actually, it was at the end of 
the 20th century, and this is how we continue to treat workers 
in America. I am really driven on this.
    I would just like to watch an interaction between some of 
your representatives with some of our training academies to see 
if we cannot do a better job, and giving them a pathway to work 
with the Department of Energy more directly.
    What tends to happen in our area is if the community 
colleges are involved in training, they hire these people to do 
the training. I do not sense that there is that direct a 
connection with the Department of Energy in our region of the 
country. Maybe it is different in Indiana, maybe it is 
different in Tennessee, but I would just make that request.
    Ms. Regalbuto. I would be very happy to parachute and come 
over and visit. We are very sensitive to developing the next 
generation of the workforce. A very large percentage of our 
workforce, about 40 percent, can retire today. They will not 
have the benefit of the training that we had, working in these 
facilities when they were in production mode.
    So, we take very seriously who is going to be here in the 
next 10 years. I would be more than happy to do that, and there 
are other people in the department that will be very interested 
in doing this, too.
    Ms. Kaptur. Thank you. I do not want to inconvenience you, 
but when you find the right person, please let us know.
    Ms. Regalbuto. Yes, we will definitely put them in touch.
    Ms. Kaptur. Thank you.
    Ms. Regalbuto. Thank you.
    Mr. Fleischmann. Thank you, Ranking Member Kaptur. Mr. 
Visclosky, do you have any questions?
    Mr. Visclosky. No, thank you, Mr. Chairman.
    Mr. Fleischmann. Madam Secretary, in closing, again I want 
to thank you for coming before our subcommittee today, 
appreciate your answers to these difficult questions, and I, 
too, thank you for approaching this very arduous task that you 
have. It is very difficult.
    Again, I want to welcome you to the Nuclear Cleanup Caucus, 
April 20. We have communities, business interests, contractors, 
labor unions. We all come together to work together to try to 
solve this problem. As a matter of fact, the Nuclear Cleanup 
Caucus has become somewhat of a model. I know Ranking Member 
Kaptur is the national co-chair of the Automotive Caucus, and I 
am a vice chair, and we are actually using this model to try to 
make that a much more successful caucus.
    I look forward to working with you, and of course, with 
her, and I thank you for being with us today.
    Ms. Regalbuto. Thank you very much. Thank you, sir.
    Mr. Fleischmann. The subcommittee is adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Baran, Jeff......................................................     1
Burns, Stephen...................................................     1
Hoffman, Patricia................................................    49
Kotek, John......................................................    49
Murray, Cherry...................................................   149
Orr, Franklin...................................................49, 149
Ostendorff, William..............................................     1
Regalbuto, Dr. Monica............................................   213
Smith, Christopher...............................................    49
Svinicki, Kristine...............................................     1

                                  [all]
</pre></body></html>
